<html>
<title> - OVERSIGHT HEARING ON EXAMINING THE THREATS TO THE NORTH ATLANTIC RIGHT WHALE</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


        EXAMINING THE THREATS TO THE NORTH ATLANTIC RIGHT WHALE

=======================================================================

                           OVERSIGHT HEARING

                               BEFORE THE

              SUBCOMMITTEE ON WATER, OCEANS, AND WILDLIFE

                                 OF THE

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                        Thursday, March 7, 2019

                               __________

                            Serial No. 116-7

                               __________

       Printed for the use of the Committee on Natural Resources
       
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]       


        Available via the World Wide Web: http://www.govinfo.gov
                                   or
          Committee address: http://naturalresources.house.gov
          
          
                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
35-462 PDF                  WASHINGTON : 2019                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).E-mail, 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="fe998e91be9d8b8d8a969b928ed09d9193d0">[email&#160;protected]</a>                          
      

                     COMMITTEE ON NATURAL RESOURCES

                      RAUL M. GRIJALVA, AZ, Chair
                    DEBRA A. HAALAND, NM, Vice Chair
   GREGORIO KILILI CAMACHO SABLAN, CNMI, Vice Chair, Insular Affairs
               ROB BISHOP, UT, Ranking Republican Member

Grace F. Napolitano, CA              Don Young, AK
Jim Costa, CA                        Louie Gohmert, TX
Gregorio Kilili Camacho Sablan,      Doug Lamborn, CO
    CNMI                             Robert J. Wittman, VA
Jared Huffman, CA                    Tom McClintock, CA
Alan S. Lowenthal, CA                Paul A. Gosar, AZ
Ruben Gallego, AZ                    Paul Cook, CA
TJ Cox, CA                           Bruce Westerman, AR
Joe Neguse, CO                       Garret Graves, LA
Mike Levin, CA                       Jody B. Hice, GA
Debra A. Haaland, NM                 Aumua Amata Coleman Radewagen, AS
Jefferson Van Drew, NJ               Daniel Webster, FL
Joe Cunningham, SC                   Liz Cheney, WY
Nydia M. Velazquez, NY               Mike Johnson, LA
Diana DeGette, CO                    Jenniffer Gonzalez-Colon, PR
Wm. Lacy Clay, MO                    John R. Curtis, UT
Debbie Dingell, MI                   Kevin Hern, OK
Anthony G. Brown, MD                 Russ Fulcher, ID
A. Donald McEachin, VA
Darren Soto, FL
Ed Case, HI
Steven Horsford, NV
Michael F. Q. San Nicolas, GU
Matt Cartwright, PA
Paul Tonko, NY
Vacancy

                     David Watkins, Chief of Staff
                        Sarah Lim, Chief Counsel
                Parish Braden, Republican Staff Director
                   http://naturalresources.house.gov
                                 
                                 
                             ------                                

              SUBCOMMITTEE ON WATER, OCEANS, AND WILDLIFE

                        JARED HUFFMAN, CA, Chair
             TOM McCLINTOCK, CA, Ranking Republican Member

Grace F. Napolitano, CA              Doug Lamborn, CO
Jim Costa, CA                        Robert J. Wittman, VA
Gregorio Kilili Camacho Sablan,      Garret Graves, LA
    CNMI                             Jody B. Hice, GA
Jefferson Van Drew, NJ               Aumua Amata Coleman Radewagen, AS
Nydia M. Velazquez, NY               Daniel Webster, FL
Anthony G. Brown, MD                 Mike Johnson, LA
Ed Case, HI                          Jenniffer Gonzalez-Colon, PR
Alan S. Lowenthal, CA                Russ Fulcher, ID
TJ Cox, CA                           Rob Bishop, UT, ex officio
Joe Neguse, CO
Mike Levin, CA
Joe Cunningham, SC
Raul M. Grijalva, AZ, ex officio

                               ----------
                              
                              
                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Thursday, March 7, 2019..........................     1

Statement of Members:
    Huffman, Hon. Jared, a Representative in Congress from the 
      State of California........................................     1
        Prepared statement of....................................     3
    McClintock, Hon. Tom, a Representative in Congress from the 
      State of California........................................     4
        Prepared statement of....................................     6

Statement of Witnesses:
    Burnett, Dr. H. Sterling, Senior Fellow and Managing Editor, 
      Environment & Climate News, The Heartland Institute, 
      Rowlett, Texas.............................................    50
        Prepared statement of....................................    51
    Clark, Dr. Chris, Senior Scientist, Research Professor, 
      Cornell University, Ithaca, New York.......................    54
        Prepared statement of....................................    55
    Kraus, Dr. Scott, Vice President and Senior Science Advisor, 
      Chief Scientist, Marine Mammal Conservation, Anderson Cabot 
      Center for Ocean Life at the New England Aquarium, Boston, 
      Massachusetts..............................................    41
        Prepared statement of....................................    43
        Questions submitted for the record.......................    50
    Oliver, Chris, Assistant ASMRR, NOAA Fisheries, Silver 
      Spring, Maryland...........................................     7
        Prepared statement of....................................     9
        Questions submitted for the record.......................    11

Additional Materials Submitted for the Record:
    List of documents submitted for the record retained in the 
      Committee's official files.................................    80

    Submission for the Record by Representative Lamborn

        List of Issued Incidental Harassment Authorizations for 
          Seismic Activity in the U.S. Atlantic, dated 2014-2018.    23

    Submissions for the Record by Representative Lowenthal

        H.R. 3682, Bill from 115th Congress......................    66

        Partners in the Vessel Speed Reduction (VSR) Incentive 
          Program, Letter dated June 19, 2018, re: 2018 voluntary 
          vessel speed reduction incentive program for the Santa 
          Barbara Channel and San Francisco Bay Area regions of 
          California.............................................    68

    Submissions for the Record by Representative McClintock

        International Whaling Commission, ``Whale Population 
          Estimates,'' Report, March 6, 2019.....................    69

        Offshore Fossil Fuel Exploration and Developments: A 
          Review of Some Concerns, Scientific Review by John 
          Droz, Jr., April 28, 2018..............................    72

                                     


 
OVERSIGHT HEARING ON EXAMINING THE THREATS TO THE NORTH ATLANTIC RIGHT 
                                 WHALE

                              ----------                              


                        Thursday, March 7, 2019

                     U.S. House of Representatives

              Subcommittee on Water, Oceans, and Wildlife

                     Committee on Natural Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to notice, at 10:01 a.m., in 
room 1324, Longworth House Office Building, Hon. Jared Huffman 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Huffman, Sablan, Van Drew, 
Lowenthal, Cox, Neguse, Levin, Cunningham, Grijalva (ex 
officio); McClintock, Lamborn, Hice, Webster, Johnson, 
Gonzalez-Colon, and Fulcher.
    Also present: Representatives Beyer, Moulton, and Keating.

    Mr. Huffman. Good morning, everyone. Welcome to this 
hearing of the Subcommittee on Water, Oceans, and Wildlife. We 
will now come to order. Under Committee Rule 4(f), any oral 
opening statements in this hearing are limited to the Chairman, 
the Ranking Member, the Vice Chair, and the Vice Ranking 
Member. This will allow us to hear from our witnesses sooner 
and help Members keep their schedules.
    Therefore, I ask unanimous consent that all other Members' 
opening statements be made part of the hearing record if they 
are submitted to the Clerk by 5 p.m. today, or the close of the 
hearing, whichever comes first.
    Hearing no objection, it is so ordered.

   STATEMENT OF THE HON. JARED HUFFMAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Huffman. Thanks, everyone, for joining us for this 
important hearing to examine the many threats facing one of the 
most endangered marine mammals in the world, the North Atlantic 
right whale.
    There are less than 420 right whales remaining. That is 
fewer right whales in existence than Members of Congress. If 
more is not done to save this iconic species, scientists 
predict it will go extinct in the next few decades.
    According to NOAA Fisheries, in order to maintain a 
sustainable right whale population, no more than one right 
whale per year can be killed by human causes. And as Dr. Kraus 
has pointed out in his written testimony, that number has been 
exceeded every single year for the last 20 years. No wonder 
these whales are in such dire straits.
    In 2017, they had a particularly bad year. There were 17 
deaths and no new calves. While we have seen positive news 
recently, including seven new calves spotted this year, there 
are ongoing threats, including fishing gear entanglements and 
accidental ship strikes. And additionally, the science shows 
that climate change may be shifting their food source 
northward, which means the whales would be moving further into 
areas with shipping lanes and lobster traps.
    Today, we will be talking about several promising solutions 
that we can act on quickly, including ropeless technology for 
lobster traps, vessel speed reductions, zooplankton monitoring, 
coordination with Canada, and more. In addition to this 
technological innovation and coordination, it is critical to 
move legislation like the bipartisan SAVE Right Whales Act, 
which was just reintroduced by my colleague Seth Moulton from 
Massachusetts. This bill would provide financial resources for 
research to develop and test technologies to reduce 
entanglements and vessel collisions to help the right whale.
    However, in addition to entanglements and ship strikes, a 
new issue further endangers the North Atlantic right whale. In 
yet another handout to the oil and gas industry, the Trump 
administration is now actively threatening the long-term 
survival of these whales by opening up the Atlantic Coast to 
seismic air gun blasting and oil and gas exploration 
activities.
    As we have consistently seen with other decisions from the 
Administration, this completely undermines our foundational 
environmental laws, like the Marine Mammal Protection Act and 
the ESA.
    Seismic air guns are harmful to many forms of marine life, 
ranging from plankton, the base of the ocean food web, to fish 
and right whales. For right whales and other marine mammals, 
sound is critical for communication, feeding, navigation, and 
survival.
    But just last year, NOAA Fisheries issued Incident 
Harassment Authorizations under the Marine Mammal Protection 
Act to allow five companies to use seismic air gun blasting to 
survey the Atlantic continental shelf for oil and gas. These 
air gun blasts occur as often as every 10 seconds for months at 
a time, creating noise that is louder than all but military-
grade explosives. Thanks to NOAA issuing these authorizations, 
seismic companies plan to fire air guns a combined 5 million 
times over the course of their testing.
    I also want to point out several major problems with these 
authorizations, considering the near-extinct status of this 
species.
    First, even though five different companies requested 
permits to conduct surveys within similar time frames in 
similar locations, NOAA Fisheries did not consider the 
cumulative impacts here, the fact that when combined with each 
other and other activities, there is a vast increase in ocean 
noise. Instead, the agency analyzed the impacts of each survey 
in isolation, ignoring the fact that the ocean is already a 
very loud place and set to become 5 million blasts louder under 
these authorizations.
    Second, NOAA Fisheries' proposed mitigation is to prohibit 
blasting within 90 kilometers of the coast between November and 
April. But we know that right whales, including mothers and 
calves--the most vulnerable of the species--are present in this 
area nearly year-round, not just between November and April. We 
also know that sound travels great distances underwater, and a 
small buffer like this is unlikely to shield these whales 
completely from the negative impacts of that seismic testing.
    Third, under the Obama administration, BOEM rejected the 
seismic permit applications for testing in the Atlantic because 
of the impacts on marine life, including the right whale. They 
stated, ``The value of obtaining the geophysical information 
from the new seismic air gun surveys in the Atlantic does not 
outweigh the potential risks of those surveys' acoustic pulse 
impacts on marine life.'' I have not seen any new science that 
suggests that these risks have changed.
    Finally, this activity could start imminently. The company 
can begin air blasts within 30 days of BOEM's issuing of the 
permits. But seismic blasts could make the difference between 
recovery and extinction for right whales.
    Given the many threats facing this species and the efforts 
underway to save them, it makes no sense for NOAA Fisheries to 
allow seismic blasting to occur.
    There are some truly useful technologies and innovations 
that we can look at to help the right whale. I look forward to 
hearing more about that today. But it is also critical that we 
don't add new threats just to make the oil industry a few more 
bucks.
    With that, I look forward to hearing from our witnesses.

    [The prepared statement of Mr. Huffman follows:]
 Prepared Statement of the Hon. Jared Huffman, Chair, Subcommittee on 
                      Water, Oceans, and Wildlife
    Good morning. Thank you for joining us today for an important 
hearing examining the many threats facing one of the most endangered 
marine mammals: the North Atlantic right whale.
    There are less than 420 right whales remaining--that's fewer right 
whales in existence than Members of Congress. If more is not done to 
save this iconic species, scientists predict that the they could go 
extinct in the next few decades.
    According to NOAA Fisheries, in order to maintain a sustainable 
right whale population, no more than one right whale per year can be 
killed by human causes. And as Dr. Kraus has pointed out in his written 
testimony, that number has been exceeded every single year for the last 
20 years. No wonder these whales are in such a dire situation.
    In 2017, they had a particularly bad year: there were 17 deaths and 
no new calves. While we have seen positive news recently, including 
seven right whale calves spotted this year, there are still ongoing 
threats, including fishing gear entanglement and accidental ship 
strikes. Additionally, science shows that climate change may be 
shifting their food source northward. This means right whales will be 
moving further into areas with shipping lanes and lobster traps.
    Today, we will talk about several promising solutions we can act on 
now, including ropeless technology for lobster traps, vessel speed 
reductions, zooplankton monitoring, coordination with Canada, and more. 
In addition to technology innovation and coordinated management, it's 
critical to move legislation, like the bipartisan SAVE Right Whales 
Act, introduced by my colleague Congressman Moulton from Massachusetts 
last Congress. This bill would provide financial resources for research 
to develop and test technologies to reduce entanglements and vessel 
collisions to help the survival of the right whale.
    However, in addition to entanglements and ship strikes, a new issue 
further endangers the North Atlantic right whale. In yet another 
handout to the oil and gas industry, the Trump administration is now 
actively threatening the long-term survival of the North Atlantic right 
whale by opening the Atlantic Coast to seismic air gun blasting and oil 
and gas exploration activities.
    As we've consistently seen with other decisions from the Trump 
administration, this completely undermines our foundational 
environmental laws, like the Marine Mammal Protection Act and the 
Endangered Species Act.
    Seismic air guns are harmful to many forms of marine life ranging 
from plankton, the base of the ocean food web, to fish and whales. For 
right whales and other marine mammals, sound is critical for 
communication, feeding, and navigation.
    But just last year, NOAA Fisheries issued Incidental Harassment 
Authorizations under the Marine Mammal Protection Act to allow five 
companies to use seismic air gun blasting to survey the Atlantic 
Continental Shelf for oil and gas. These air gun blasts occur as often 
as every 10 seconds for months at a time, creating a noise that is 
louder than all but military-grade explosives. Thanks to NOAA issuing 
these authorizations, seismic companies plan to fire air guns a 
combined 5 million times over the course of their testing. I have my 
air horn here with me today, if anyone wants to know what it's like to 
be subjected to that kind of noise.
    I also want to point out several major problems with these 
authorizations, considering the near-extinct status of the North 
Atlantic right whale:
    First, even though five different companies requested permits to 
conduct surveys within similar time frames and in similar locations, 
NOAA Fisheries did not consider the effects of the five seismic surveys 
when combined with each other or with other activities that cause ocean 
noise. Instead, the agency analyzed the impacts of each survey in 
isolation, ignoring the fact that the ocean is already a very loud 
place and set to become 5 million blasts louder under these 
authorizations.
    Second, NOAA Fisheries' proposed mitigation is to prohibit seismic 
blasting within 90 kilometers of the coast between November and April. 
But we know that right whales, including mothers and calves--the most 
vulnerable of the species--are present in this area nearly year-round--
not just between November and April. We also know that sound travels 
great distances underwater, and a small buffer is unlikely to shield 
these whales completely from the negative impacts of seismic testing.
    Third, under the Obama administration, BOEM rejected the seismic 
permit applications for seismic testing in the Atlantic because of the 
impacts on marine life, including the right whale. They stated that the 
``value of obtaining the geophysical information from the new seismic 
airgun surveys in the Atlantic does not outweigh the potential risks of 
those surveys' acoustic pulse impacts on marine life.'' I haven't seen 
any new scientific information showing that the potential risks have 
changed.
    Finally, this activity could start imminently--the companies can 
begin air gun blasts within 30 days of the Bureau of Ocean Energy 
Management (BOEM) issuing the permits for exploration. But seismic 
blasts could make the difference between recovery and extinction for 
right whales.
    Given the many threats facing this species and the efforts underway 
to save each and every whale, it makes no sense that NOAA Fisheries 
would allow seismic blasting to occur.
    There are some truly useful technologies and policies that we 
should expand and implement to protect right whales, and I look forward 
to hearing more about what can be done. But it's also critical that we 
don't add any new threats just to make the oil industry a few bucks.
    With that, I look forward to hearing from NOAA and our panel of 
scientific experts today. I now invite the Ranking Member for his 
remarks.

                                 ______
                                 

    Mr. Huffman. I now invite the Ranking Member to give his 
remarks.

   STATEMENT OF THE HON. TOM McCLINTOCK, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. McClintock. Thank you, Mr. Chairman. The problem with 
visions of impending apocalypse is that after the initial 
hysteria passes, life goes on and the world does not end. I 
cannot imagine how disappointing that is to the prophets of 
doom. Chicken Little found that out to her embarrassment and I 
think many today could learn from her example.
    For example, at our hearing on rising oceans recently, the 
only climatologist on the panel confirmed that sea level rise 
has been steady throughout the 20th century and shows no 
correlation with atmospheric carbon dioxide levels. Indeed, he 
noted the oceans have been rising about 400 feet since the last 
Ice Age, and could be expected to continue to do so very 
gradually until temperature equilibrium is achieved.
    In the 1980s, climate change was blamed for the impending 
extinction of the polar bear. You may have noticed we don't 
hear much about polar bear extinction these days because it 
turns out their populations are doing very well, thank you, and 
have actually been increasing nicely since 2005, along with 
carbon dioxide levels.
    Today, we adopt a new mascot, the right whale. The right 
whale got its name from the whalers who drove it nearly to 
extinction in the days when whale oil was in high demand. It 
was the ``right'' whale to hunt to supply the lucrative whale 
oil market. Ironically, it may have been saved from outright 
extinction by--wait for it--fossil fuels, which made whale oil 
obsolete.
    Now, however, the right whale is being repurposed as an 
excuse to discourage fossil fuel use and to impede offshore 
exploration. We hear voices accusing the dreaded Donald Trump 
of decimating marine animals by his administration's support of 
Incidental Harassment Authorizations which allow for limited 
seismic testing in the Atlantic outer continental shelf.
    Before we all set our hair on fire, let's confront a few 
inconvenient truths. It was the Obama administration's 2015 5-
year oil and gas leasing program that initially proposed 
opening the Atlantic to offshore energy exploration, and it was 
the Obama administration that approved multiple permits 
supporting seismic testing. From 2015 through 2017, Columbia 
University received four permits for seismic activity to gather 
scientific data, including two permits for seismic testing in 
the Atlantic. Furthermore, the U.S. Geological Survey conducted 
seismic surveys in the Atlantic Ocean between 2014 and 2015.
    Seismic testing is not unique to offshore oil and gas 
exploration, nor has it been found to be detrimental to marine 
mammal stocks. Under the Obama administration, the National 
Marine Fisheries Service and the Bureau of Ocean Energy 
Management both determined that there is no documented evidence 
of anything more than a negligible impact to marine mammals 
resulting from exposure to seismic testing on the ocean floor. 
It may be annoying, but it is far from dangerous.
    We may hear much about the ``taking'' of marine mammals 
under the Marine Mammal Protection Act. To most people, 
``taking'' sounds like a euphemism for killing. In fact, I 
think it is meant to convey this false impression. But as 
actually used in the Act, it means anything that disturbs 
marine animals, irrespective of the health of the marine mammal 
stock.
    Whaling excesses in the pre-fossil fuels period almost 
destroyed the right whales in the North Atlantic and the 
Northern Pacific. Their populations were driven so low that 
they are barely measurable today, particularly in the Northern 
Pacific. And sadly, they have shown little sign of recovery. 
Fortunately, they are doing very well in the Southern Atlantic 
and Pacific. According to the Marine Mammal Center, ``the 
breeding populations of Argentina, Brazil, South Africa, and 
Australia have shown evidence of strong recovery, with annual 
increase rates of 7-8 percent, and together may now total over 
16,000.''
    And there is more good news. In the North Pacific and 
Atlantic, other species of whales hunted in the last century 
are recovering, including blue whales, growing about 3 percent 
per year, humpback whales, which have already recovered their 
pre-whaling populations, fin whales, growing 4 to 5 percent per 
year in the North Pacific, with their populations in the North 
Atlantic described as ``healthy''--all of this according to the 
Marine Mammal Center.
    So, there is a lot here to celebrate. Most whale species 
are recovering in the Northern Hemisphere, and the right whale 
population is making a strong recovery in the Southern 
Hemisphere, all under current conditions. Happily, so too is 
American energy independence and the American economy, with 
great promise for future prosperity and growth from our 
offshore reserves.
    So, Mr. Chairman, let's try not to screw all that up today, 
please.

    [The prepared statement of Mr. McClintock follows:]
    Prepared Statement of the Hon. Tom McClintock, Ranking Member, 
              Subcommittee on Water, Oceans, and Wildlife
    The problem with visions of impending apocalypse is that after the 
initial hysteria passes, life goes on and the world doesn't end. How 
disappointing that must be to the prophets of doom! Chicken Little 
found this out to her embarrassment and many today could learn from her 
example.
    At our hearing on rising oceans, the only climatologist on the 
panel confirmed that sea level rise has been steady throughout the 20th 
century and shows no correlation to atmospheric carbon dioxide levels. 
Indeed, the oceans have risen about 400 feet from the last ice age and 
can be expected to continue to do so very gradually until temperature 
equilibrium is achieved.
    In the 1980s, climate change was blamed for the impending 
extinction of the polar bear. You may have noticed we don't hear about 
polar bear extinction anymore because it turns out their populations 
are doing very well and have been increasing nicely along with carbon 
dioxide levels. So today we adopt a new mascot, the right whale.
    The right whale got its name from the whalers who drove it nearly 
to extinction in the 19th century. It was the ``right'' whale to hunt 
to supply the lucrative whale oil market. Ironically, it may well have 
been saved from outright extinction by--wait for it--fossil fuels, 
which made whale oil obsolete.
    Now, however, the right whale is being repurposed as an excuse to 
discourage fossil fuel use and to impede offshore exploration. We hear 
voices accusing the dreaded Donald Trump of decimating marine mammals 
by his administration's support of Incidental Harassment Authorizations 
which allow for limited seismic testing in the Atlantic Outer 
Continental Shelf.

    Before we light our hair on fire, let's confront a few inconvenient 
truths.

    It was the Obama administration's 2015 5-year oil and gas leasing 
program that initially proposed opening the Atlantic to offshore energy 
exploration, and it was the Obama administration that approved multiple 
permits supporting seismic testing. From 2015 through 2017, Columbia 
University received four permits for seismic activity to gather 
scientific data, including two permits for seismic testing in the 
Atlantic. Furthermore, the United States Geological Survey conducted 
seismic surveys in the Atlantic Ocean between 2014-2015.
    Seismic testing is NOT synonymous with offshore oil and gas 
extraction, nor has it been found to be detrimental to marine mammal 
stocks. Under the Obama administration, the National Marine Fisheries 
Service and the Bureau of Ocean Energy Management both determined that 
there is no documented evidence of any more than a ``negligible 
impact'' to marine mammals resulting from exposure to seismic testing 
of the ocean floor. It may be annoying, but it is far from dangerous.
    We will hear much about the ``taking'' of marine mammals under the 
Marine Mammal Protection Act. To most people, a ``taking'' sounds like 
a euphemism for ``killing.'' I think it is meant to convey this false 
impression. But as actually used in the Act, it actually means anything 
that disturbs marine mammals, irrespective of the health of the marine 
mammal stock.
    Whaling excesses in the pre-fossil fuels period almost destroyed 
the right whales in the Northern Atlantic and Pacific. Their 
populations were driven so low that they are barely measurable and have 
shown little sign of recovery. Fortunately, according to the 
International Whaling Commission, ``the breeding populations of 
Argentina/Brazil, South Africa and Australia have shown evidence of 
strong recovery with annual increase rates of 7-8 percent and together 
may now total over 16,000 . . .'' More good news: in the North Pacific 
and Atlantic, other species of whales hunted in the last century are 
recovering, including blue whales, (growing about 3 percent per year), 
humpback whales (which have recovered their pre-whaling populations), 
fin whales (growing 4 to 5 percent per year in the North Pacific with 
their populations in the North Atlantic described as ``healthy.'' All 
this according to the International Whaling Commission.
    So there's a lot to celebrate. Most whale species are recovering in 
the Northern Hemisphere and the right whale population is making a 
strong recovery in the Southern Hemisphere--all under current 
conditions. Happily, so too is American energy independence and the 
American economy, with great promise of future prosperity and growth 
from our offshore reserves.

    Let's not screw that up today, please.

                                 ______
                                 

    Mr. Huffman. Thank you, Mr. McClintock. I feel so much 
better hearing that this is all a hoax and hysteria. Perhaps 
the experts and scientists we will hear from will confirm that, 
and then we can all just go home. Let's find out.
    Right now, before we move to the witnesses, I ask unanimous 
consent that the gentleperson from Virginia, Mr. Beyer, and 
also the gentleman from Massachusetts, Mr. Moulton, be allowed 
to sit on the dais and participate in today's proceeding.
    Without objection, it is so ordered.
    Now, I will introduce our first witness. Welcome to Chris 
Oliver, the Assistant Administrator for NOAA Fisheries. 
Welcome, Mr. Oliver. Mr. Oliver, under the Committee Rules, you 
must limit your oral statements to 5 minutes. But your entire 
statement will appear in the record.
    When you begin, the lights on the witness table will turn 
green. After 4 minutes, the yellow light will come on, and your 
time will have expired when you see the red light. I will ask 
you at that point to wrap up.
    The Chair now recognizes you to testify.

  STATEMENT OF CHRIS OLIVER, ASSISTANT ASMRR, NOAA FISHERIES, 
                    SILVER SPRING, MARYLAND

    Mr. Oliver. Good morning, Mr. Chairman, and thank you for 
the opportunity to testify. Chris Oliver with NOAA Fisheries.
    North Atlantic right whale is one of the world's most 
endangered large whale species, with an estimated, as you 
mentioned, 411 individuals. In the early 1990s, the successful 
implementation of measures aimed at reducing primary threats 
resulted in some encouraging population growth.
    However, since 2010, the whales have experienced another 
period of decline; because the population is very small, its 
status can change quickly. Right whales have also made recent 
large-scale changes in habitat use, spending more time farther 
offshore and to the north, likely in pursuit of better foraging 
opportunities.
    They are protected under both the Endangered Species Act 
and the Marine Mammal Protection Act, and have been listed as 
endangered since 1970. We are currently implementing a North 
Atlantic right whale recovery plan, with the ultimate goal of 
recovering this species.
    We are working to protect and recover this species on 
multiple fronts. Human interaction, such an entanglement in 
fishing gear and vessel strikes, currently present the greatest 
threat. Collisions between whales and vessels often go 
unnoticed and unreported. Research demonstrates that the 
probability of large whale mortality and serious injury from 
vessel strikes increases with vessel speed.
    NOAA Fisheries has taken several steps to reduce this 
threat, including requiring vessels to slow down in areas where 
whales may be present, encouraging voluntary speed reductions, 
recommended alternative shipping routes and international 
shipping lanes, developing right whale alert systems and vessel 
reporting systems, and improving our stranding response.
    Since 2008, we have limited vessel speeds to 10 knots for 
vessels greater than 65 feet in seasonal management areas along 
the U.S. East Coast. The purpose of this regulation is to 
reduce the likelihood of deaths and serious injuries to 
endangered whales resulting from collisions with ships. In the 
10 years prior to implementation of that regulation, there were 
11 confirmed right whale mortalities due to vessel strikes in 
U.S. waters. In the 10 years since, only three ship strike 
mortalities have been confirmed. Entanglements in fishing gear 
is the other primary cause of serious injury and death for many 
whales, including right whales. We require fishermen to use 
certain gear modifications to reduce entanglement risk such as 
sinking ground lines, weak link connections, pot limits, and 
closed areas.
    However, entanglements continue to be a source of injury 
and mortality, with at least seven mortalities occurring during 
the 2017 unusual mortality event. In addition, we are working 
with the Atlantic States Marine Fisheries Commission to develop 
management measures to further reduce the risk of entanglements 
in gear.
    On the international front, we recognize the transboundary 
range of this species requires international collaboration. We 
are actively working with Canada on the gaps in both science 
and management impeding the recovery of North Atlantic right 
whales. In March of last year, Canada adopted regulations on 
its commercial fishing and maritime shipping industries to 
minimize both gear entanglements and ship strikes in advance of 
the North Atlantic right whale migrations, which is now into 
the Gulf of Saint Lawrence.
    Continuing bilateral engagement and implementation of our 
respective regulatory regimes will ensure that the United 
States and Canada are fully complying with the Marine Mammal 
Protection Act and eliminating the risks to North Atlantic 
right whales while ensuring sustainable fisheries and trade.
    As we move forward, NOAA Fisheries and our partners will 
strive to make progress in rebuilding the North Atlantic right 
whale population. This year we anticipate the Atlantic States 
Marine Fisheries Commission to consider developing an addendum 
to its lobster management plan to consider measures to reduce 
the number of buoy lines used by American lobster fishermen by 
up to 40 percent. This would represent a substantial reduction 
in gear and significantly reduce the probability of 
entanglements.
    Further, the Atlantic Large Whale Take Reduction Team will 
meet the week of April 22 to develop additional recommended 
changes to the take reduction plan. These include additional 
closure areas as well as reporting, monitoring, and expanded 
gear marking requirements.
    Finally, as you noted, Mr. Chairman, NOAA Fisheries is 
pleased to report the births of several right whale calves this 
season, seven as of February 20, which is good news, given that 
it comes on the heels of virtually no calf production.
    Thank you for the opportunity to discuss our conservation 
measures today, and I would be happy to try to answer any 
questions that you may have.

    [The prepared statement of Mr. Oliver follows:]
    Prepared Statement of Chris Oliver, Assistant Administrator for 
   Fisheries, National Oceanic and Atmospheric Administration, U.S. 
                         Department of Commerce
    Chair and members of the Subcommittee, I am Chris Oliver, Assistant 
Administrator for the National Oceanic and Atmospheric Administration's 
National Marine Fisheries Service (NMFS) within the Department of 
Commerce. Thank you for inviting me to testify today on North Atlantic 
right whales. NMFS is responsible for the stewardship of the Nation's 
ocean resources and their habitat. We provide vital services for the 
Nation: productive and sustainable fisheries, safe sources of seafood, 
the recovery and conservation of protected resources, and healthy 
ecosystems--all backed by sound science and an ecosystem-based approach 
to management.
                     about the species and our role
    The North Atlantic right whale is one of the world's most 
endangered large whale species, with an estimated 411 individuals 
remaining. By the early 1890s, commercial whalers had hunted right 
whales in the Atlantic to the brink of extinction. After commercial 
whaling stopped, right whales had several decades of slow recovery and 
by 1992, there was an estimated minimum population of 295 individuals. 
In the early 1990s, the successful implementation of measures aimed at 
reducing the primary threats, identified through extensive 
collaboration among stakeholders, resulted in further growth of the 
population to approximately 481 individuals in 2010. However, since 
2010, North Atlantic right whales have experienced another period of 
decline. Because the population is very small, its status can change 
quickly. In addition, North Atlantic right whales have made recent, 
large-scale changes in their habitat use, spending more time farther 
offshore and to the north, likely in pursuit of better zooplankton 
foraging opportunities.
    North Atlantic right whales are protected under both the Endangered 
Species Act and the Marine Mammal Protection Act. They have been listed 
as endangered under the ESA since 1970 and as such, NMFS developed and 
is implementing a North Atlantic Right Whale Recovery Plan. The 
ultimate goal of the Recovery Plan is to recover the North Atlantic 
right whale, with an interim goal of down-listing its status from 
endangered to threatened. The major actions recommended in the Recovery 
Plan include reducing or eliminating injury and mortality caused by 
vessel collisions or by fishing gear, protecting habitats essential to 
the survival and recovery of the species, and minimizing the effects of 
vessel disturbance.
    NMFS and our partners are committed to conserving and rebuilding 
the North Atlantic right whale population using a variety of innovative 
techniques to study, protect, and rescue these endangered whales. We 
also engage our partners as we develop regulations and management plans 
that foster healthy fisheries and reduce the risk of entanglements, 
create whale-safe shipping practices, and reduce impacts from ocean 
noise.
                            efforts underway
    NMFS is working to protect this species on multiple fronts, with 
the goal that its population will increase. The leading causes of known 
mortality for North Atlantic right whales are vessel strikes and 
entanglement in fishing gear.
                             vessel strikes
    Collisions between whales and vessels often go unnoticed and 
unreported. However, research demonstrates that the probability of 
large whale mortality and serious injury from vessel strikes increases 
with increasing vessel speed. Thus, NMFS has taken several steps to 
reduce the threat of vessel collisions with North Atlantic right 
whales, including requiring vessels to slow down in certain areas and 
during seasons when whales may be present, encouraging voluntary speed 
reductions in Dynamic Management Areas, recommending alternative 
shipping routes and areas to be avoided, modifying international 
shipping lanes, developing right whale alert systems and mandatory 
vessel reporting systems, increasing outreach and education, and 
improving our stranding response.
    Since 2008, NMFS has limited vessel speeds to 10 knots for vessels 
65 feet or greater in overall length in Seasonal Management Areas along 
the U.S. East Coast at certain times of the year. In the 10 years prior 
to implementation of the vessel speed regulation, there were 11 
confirmed U.S. right whale mortalities due to vessel strikes, but in 
the 10 years since the regulation has been active, only 3 were 
documented in U.S. waters.
    NMFS is currently conducting a review of its vessel speed 
restriction rule (pursuant to 50 CFR 224.105). The review will 
culminate in a report that will assess: economic impacts to the 
maritime community, vessel traffic compliance with the rule, impacts to 
navigational safety, conservation benefits to right whales, and 
outreach activities conducted to date. Staff and contractors are 
analyzing the latest relevant data in collaboration with other agencies 
and scientists. The review is well underway, and we hope to have a 
final report issued by the end of FY 19.
                             entanglements
    Over more than two decades, NMFS has implemented management 
measures to reduce whale entanglements with the help of the Atlantic 
Large Whale Take Reduction Team--a group of stakeholders consisting of 
fishermen, scientists, and state and Federal officials. Entanglement in 
fishing gear is a primary cause of serious injury and death for many 
whale species, including the North Atlantic right whale. We require 
commercial fishermen to use certain gear modifications that are meant 
to reduce entanglement risk to North Atlantic right whales and have 
established areas where fishing cannot take place during certain times 
when North Atlantic right whales are present.
    However, entanglement in fishing gear continues to be a source of 
serious injury and mortality for this species; therefore, we are 
currently working with the Atlantic States Marine Fisheries Commission 
and the Take Reduction Team to develop management measures to further 
reduce the risk of entanglement in fishing gear. Specifically, the 
Atlantic Large Whale Take Reduction Team will be meeting during the 
week of April 22 to develop recommended changes to the Take Reduction 
Plan that would reduce the effects of fixed gear fisheries on North 
Atlantic right whales. NMFS expects the Take Reduction Team to consider 
recommendations for line reduction measures and additions or 
modifications to seasonal closure areas to reduce impacts of these 
fisheries on large whales as well as revised or expanded reporting, 
monitoring, and gear marking requirements which would allow NMFS to 
better evaluate the impacts of these fisheries to North Atlantic right 
whales.
                      international collaboration
    NOAA is actively collaborating with Canada on the science and 
management gaps that are impeding the recovery of North Atlantic right 
whales in both Canadian and U.S. waters through ongoing bilateral 
negotiations. In March 2018, Canada adopted regulations applicable to 
its commercial fishing and maritime shipping industries to minimize 
gear entanglements and ship strikes in advance of North Atlantic right 
whales migrating into Canadian waters. In early February, these 
measures were further refined as Canada identified how it intends to 
protect North Atlantic right whales during the 2019 Canadian snow crab 
season in the Gulf of St. Lawrence.
    In 2016, NMFS issued final regulations to implement the import 
provisions of the Marine Mammal Protection Act. Pursuant to these 
provisions, NMFS will evaluate Canadian fisheries from which fish and 
fish products are exported to the United States to assess the 
effectiveness of Canada's regulatory program in mitigating bycatch of 
marine mammals. Consultations on the applicable Canadian commercial 
fisheries will continue through March 2021 per the existing regulatory 
timeline for making comparability determinations. To date, NOAA has 
consulted with Canada's Department of Fisheries and Oceans to identify 
priority fisheries and elements of a comparable regulatory program to 
meet the required framework of the MMPA import provisions. Continuing 
our bilateral engagement and implementation of our respective 
regulatory regimes will ensure that the United States and Canada are 
fully complying with the MMPA and eliminating the risk of North 
Atlantic right whale entanglements in fisheries while ensuring 
sustainable fisheries and trade continue.
                             atlantic ihas
    Late last year, NMFS issued final authorizations under the Marine 
Mammal Protection Act to incidentally, but not intentionally, harass 
marine mammals to companies proposing to conduct geophysical surveys in 
support of hydrocarbon exploration in the Atlantic Ocean. The 
authorizations require the companies to implement mitigation measures 
to reduce the impacts of survey activities on marine mammals and set 
forth monitoring and reporting requirements. Our actions only address 
the taking or harassment of marine mammals incidental to the planned 
surveys. The Department of the Interior has jurisdiction over decisions 
to allow the surveys and any future drilling, pursuant to its authority 
under the Outer Continental Shelf Lands Act. NMFS can only issue an 
authorization for the incidental take (harassment) of small numbers of 
marine mammals if it finds that the taking associated with a specified 
activity will have a negligible impact on the affected species or 
stock(s); and prescribes appropriate mitigation, as well as 
requirements for monitoring and reporting of such takings. After 
extensive analysis, NMFS developed rigorous mitigation, monitoring, and 
reporting requirements for the proposed Atlantic geophysical surveys. 
For North Atlantic right whales, we specified measures that limit 
activities in areas where they are expected to be present, including 
all designated critical habitat and additional seasonal management 
areas throughout the survey area. Specifically, the mitigation area 
restricts seismic operation within 90 km of the coast from November 
through April. Seismic operations are also required to be suspended if 
North Atlantic right whales are detected at an extended shutdown 
distance within 1.5 km of the vessel.
                               next steps
    As stated above, NMFS and our partners are committed to continuing 
the progress made in rebuilding the North Atlantic right whale 
population. At its February meeting, the Atlantic States Marine 
Fisheries Commission voted to develop an addendum to the Lobster 
Management Plan to consider measures to reduce the number of buoy lines 
used by American lobster fishermen by up to 40 percent. Since more than 
90 percent of the buoy lines in the areas frequented by right whales 
are associated with the lobster fishery, this would represent 
substantial line reduction. A vote on whether to send the Addendum out 
for public comment could occur as early as the Commission's April 30 
spring meeting, allowing final decision making in August 2019.
    In addition, NMFS will continue to conduct science related to 
assessing the current status of whales, including monitoring calf 
production, and decreasing the risk of entanglements and vessel 
strikes. This work occurs from the Southeast to the Northeast and 
extends into Canadian waters, working in collaboration with colleagues 
at the Department of Fisheries and Oceans. On the topic of calves, 
despite unusually low recruitment to the population between 2012 and 
2018, there has been some encouraging news lately with several births 
documented this calving season (7 calves as of February 20, 2019).
    Thank you again for the opportunity to discuss North Atlantic right 
whales. I would be happy to answer any questions you may have.

                                 ______
                                 

     Questions Submitted for the Record to Chris Oliver, Assistant 
     Administrator for Fisheries, National Oceanic and Atmospheric 
              Administration, U.S. Department of Commerce
                 Questions Submitted by Rep. Cunningham
    Question 1. Mr. Oliver, 10 Atlantic states along with several NGOs 
have filed lawsuits against the issuance of these Incidental Harassment 
Authorizations. With all of this opposition, why would the Trump 
administration move forward with offshore oil exploration?

    Answer. Executive Order 13795, Implementing an America-First 
Offshore Energy Strategy, established it as the policy of the United 
States to encourage energy exploration and production in order to 
maintain our Nation's position as a global energy leader while ensuring 
that any such activity is safe and environmentally responsible. E.O. 
13795 finds that energy and minerals produced from Federal lands and 
waters are important to a vibrant economy as well as national security, 
while also reducing our reliance on imported energy. As a result of 
these and other policies, in November 2018 the United States was a net 
exporter of energy for the first time in over three decades.
    Jurisdiction over decisions to allow geophysical surveys and any 
future drilling rests with the Department of the Interior pursuant to 
their authority under the Outer Continental Shelf Lands Act. It is the 
role of the Department of Commerce's National Marine Fisheries Service 
(NMFS), administered through the National Oceanic and Atmospheric 
Administration (NOAA), to ensure that such activity is consistent with 
applicable statutory authorities for which NMFS is responsible. 
Considerable analysis, using the best available science, was utilized 
in making the decision to approve incidental harassment authorizations 
(IHAs) that fully comply with the Marine Mammal Protection Act (MMPA), 
Endangered Species Act (ESA), and National Environmental Policy Act 
(NEPA). NMFS made the necessary statutory findings and prescribed 
appropriate mitigation, monitoring, and reporting requirements. The 
approved IHAs are designed to ensure that the geophysical activity will 
have no more than a negligible impact on the affected species or 
stocks, as required by the MMPA. Moreover, NMFS believes that the 
prescribed and extensive mitigation requirements meet the MMPA legal 
standard of having the least practicable adverse impact on the affected 
species or stocks and their habitat.

    Question 2. Mr. Oliver, as of 2016, South Carolina valued coastal 
tourism at $8.96 billion, and commercial fisheries at $42.4 million. A 
report from the American Petroleum Institute says that opening the 
Atlantic to oil and gas exploration would bring only $1.5 billion in 
state and local tax revenues over 20 years. Do you believe that the 
$1.5 billion revenue exceeds the risk of an oil spill devastating the 
nearly $9 billion tourism industry?

    Answer. The Department of the Interior (DOI) has jurisdiction over 
decisions to allow the surveys and any future drilling, pursuant to its 
authority under the Outer Continental Shelf Lands Act. NMFS's role is 
to ensure that such activity is consistent with applicable statutory 
authorities for which NMFS is responsible (e.g., MMPA and ESA). Thus, 
DOI is best suited to address your question.

                    Question Submitted by Rep. Levin
    Question 1. Mr. Oliver, can you provide the Subcommittee with any 
internal documents held by NMFS that express scientific concern over 
the cumulative impacts of the five issued Incidental Harassment 
Authorizations on North Atlantic right whales or other marine mammals? 
Can you provide any internal documents from NMFS that voice scientific 
concern for marine mammals in regards to the 160-decibel level 
authorized in the Atlantic for seismic testing, which is much higher 
than the 120-decibel level previously authorized in the Gulf of Mexico? 
Can you provide any documents that explain the difference in these 
policies? Please provide any scientific information used in making 
these determinations.

    Answer. The Administrative Record for Incidental Harassment 
Authorizations will be made available to the Committee.

                   Question Submitted by Rep. Sablan
    Question 1. Mr. Oliver, at the hearing you responded to my question 
regarding NOAA Fisheries supervision of WESPAC and the Fishery Councils 
by stating that you do not have direct supervision of the Councils. 
Section 302 of the Magnuson-Stevens Fishery Conservation and Management 
Act (MSFCMA) established the eight Regional Fishery Management 
Councils. The objectives of these councils are to develop, monitor and 
revise fishery management plans and data collection programs for 
domestic and foreign fishing conducted within the 200-mile U.S. 
Exclusive Economic Zone (EEZ). This is done with the approval and 
implementation of the Secretary of Commerce, who has stewardship 
responsibilities under MSFCMA for living marine resources in the EEZ. 
The NOAA Fishery website states that ``We support the councils by 
conducting the annual nomination and appointment process, training new 
members, and facilitating periodic meetings of the Council Coordination 
Committee. We also work with the councils to designate essential fish 
habitat for federally managed species. Together we research and 
describe habitats essential for each life stage of many species, create 
maps, and designate Habitat Areas of Particular Concern.'' And doesn't 
NOAA also allocate and track Federal funding to the Councils as well 
and receive performance progress and financial reports? And, among 
other things, do not Fishery Council members file financial disclosure 
reports with NOAA and NOAA attorneys advise Council members and make 
determinations regarding recusal for conflicts of interest? Could you 
please clarify exactly what role NOAA plays in regards to WESPAC and 
the other seven Regional Fishery Management Councils?

    Answer. The role the Secretary of Commerce, NOAA, and NMFS in 
regard to the eight Regional Fishery Management Councils, is detailed 
in the Magnuson-Stevens Act (MSA) and its implementing regulations. 
Primarily, the Councils develop and amend fishery management plans for 
approval and implementation by NMFS on behalf of the Secretary of 
Commerce. NOAA allocates funding to the eight Councils, and Council 
activities are governed by grant mechanisms described in 50 CFR 
600.125. NOAA partners with the Councils on research priorities and 
policy implementation to achieve conservation and management of our 
Nation's fisheries.
    NMFS and the Councils published Operational Guidelines that provide 
guiding principles for the partnership between NMFS and the Councils. 
How each Council and NMFS Regional Office pair implements the MSA and 
other requirements throughout the fishery management process are set 
forth in Regional Operating Agreements. These agreements are found 
here: https://www.fisheries.noaa.gov/national/partners/operational-
guidelines.
    Congress appropriates funding for the eight Regional Fishery 
Management Councils (Councils). Funds are allocated to the Councils 
according to a historical formula, agreed to by all eight Councils, 
that has been in place for well over a decade. Per regulation, at 50 
CFR 600.125(a), Council activities and expenditures are managed via 
grant and/or cooperative agreement mechanisms, with coordination via a 
Federal Program Officer. Such funding is provided consistent with the 
stated priorities and objectives of the grant. Funding is subject to 5-
year grant parameters under the OMB Uniform Guidance and NOAA 
Administrative Standard Award Conditions. Both the OMB guidance and the 
NOAA standard conditions contain reporting requirements. The standard 
reporting frequency is semi-annually (every 6 months).
    Per Section 302(j) of the MSA, ``affected individuals'' (i.e., 
Council nominees, Council members, and members of SSCs) must file 
Statements of Financial Interests. This financial information must be 
disclosed on the NOAA Form 88-195, Statement of Financial Interests. 
Guidance on reporting and filing procedures for complying with 
financial disclosure requirements is found at: https://
www.fisheries.noaa.gov/national/partners/financial-disclosure-
statements and at 50 CFR 600.235.
    A Council member required to disclose a financial interest under 
302(j)(2) of the MSA may not vote on a Council decision that would have 
a ``significant and predictable effect'' on a financial interest 
disclosed on his or her Statement of Financial Interests. At the 
request of the member, or at the initiative of an appropriate 
designated official, the designated official shall make a determination 
for the record as to whether a Council decision would have a 
``significant and predictable effect'' on a financial interest that 
would require that the member be recused from a vote on a Council 
decision. The term ``designated official'' is defined in Section 
302(j)(1)(B) of the MSA, but typically is an attorney of the NOAA 
Office of General Counsel.
    Section 302(j)(9) of the MSA requires the Secretary to submit an 
annual report to Congress on actions taken by the Secretary and the 
Councils to implement the disclosure of financial interest and recusal 
requirements of the MSA. More information about the recusal process and 
these requirements can be found in that report at: https://
www.fisheries.noaa.gov/national/partners/council-reports-congress.

                                 ______
                                 

    Mr. Huffman. Thank you very much, Mr. Oliver.
    I will begin the questioning for 5 minutes. And again, 
thank you for being here. One of the things that I hope to do 
in this Subcommittee, with many of these informational 
hearings, is to reset the factual and scientific baseline for 
these issues that we debate.
    Mr. McClintock provides us with colorful quotes from people 
like Dickens and Lewis Carroll. But there is no substitute for 
actual facts and science. So, I would like to get a few things 
on the record with you, if I could. I want to get through 
several questions quickly, so if you can, I would like you to 
answer yes or no. And when I refer to ``the Agency,'' obviously 
I am talking about NOAA Fisheries.
    So, true or false: There are about 420 North Atlantic right 
whales living today. Now, Dr. Kraus may say that is a bit of an 
overcount, but is that the general range, to your 
understanding?
    Mr. Oliver. Yes.
    Mr. Huffman. The Agency is concerned about the survival of 
this population. True?
    Mr. Oliver. Yes, sir.
    Mr. Huffman. The Potential Biological Removal, or PBR, is a 
term that your agency defined to quantify the number of whales 
that can be seriously injured or killed without impacting the 
population. Right?
    Mr. Oliver. I believe that is the generally accepted 
definition. yes, sir.
    Mr. Huffman. Yes. And for the last two decades, that number 
has hovered somewhere between zero and one. Is that right?
    Mr. Oliver. I believe that is correct.
    Mr. Huffman. But the actual number of right whale deaths 
each year has been higher than that, mainly because of ship 
strikes and fishing gear entanglements. Correct?
    Mr. Oliver. Yes.
    Mr. Huffman. Is the Agency proactively trying to address 
issues pertaining to entanglements and ship strikes in order to 
save the species?
    Mr. Oliver. Yes, sir.
    Mr. Huffman. You have put a lot of work into a recovery 
plan, as you are required to do under the Endangered Species 
Act. Correct?
    Mr. Oliver. Correct.
    Mr. Huffman. I hope to work with you more on that. But in 
the meantime, this year there is a little bit of good news. We 
have seven calves sighted so far. Right?
    Mr. Oliver. Yes, sir.
    Mr. Huffman. As we will hear from our second panel of 
experts, there are fewer than a hundred breeding females in the 
population. You agree with that assessment?
    Mr. Oliver. That is correct, yes.
    Mr. Huffman. And we know that females travel to the 
southeast each year to give birth, the breeding females. Is 
there scientific evidence that elevated ambient noise can cause 
chronic stress in baleen whales, especially breeding females?
    Mr. Oliver. There is evidence that the cumulative effects 
of acoustics can affect foraging behavior, calving, breeding 
behavior--basically sublethal effects relative to whale 
energetics, yes.
    Mr. Huffman. You agree with the science that says seismic 
noise increases the probability that right whale mothers and 
calves could get separated?
    Mr. Oliver. I am not an expert on acoustics, sir. I don't 
know the degree to which acoustics will directly----
    Mr. Huffman. Do you have any reason to disagree with that 
science?
    Mr. Oliver. No, sir.
    Mr. Huffman. And would you agree with the claim in Dr. 
Kraus' testimony in the second panel that seismic noise can 
disrupt behavior of baleen whales at tens to hundreds of 
kilometers?
    Mr. Oliver. Yes, sir.
    Mr. Huffman. Can it disrupt the plankton that they depend 
on for their food?
    Mr. Oliver. I don't know the answer to that one, sir.
    Mr. Huffman. Would you also agree that right whales may be 
present in an area but not visually detected?
    Mr. Oliver. That is correct.
    Mr. Huffman. But the Agency's mitigation requirements and 
the Incidental Harassment Authorizations only require a 
shutdown of activity if the whales are visually detected within 
1,500 meters of the vessel, even though the science suggests 
there could be disruption from noise at tens to hundreds of 
kilometers?
    Mr. Oliver. Yes, sir. But we have measures in place to 
hopefully minimize the likelihood that those whales would be in 
the area at the same time those vessels are conducting those 
activities.
    Mr. Huffman. Understood. Your authorizations also apply 
only to 90 kilometers of the coast, even though seismic noise 
can travel long distances underwater and still increase the 
stress level on these whales within that buffer zone. Correct?
    Mr. Oliver. Correct.
    Mr. Huffman. It is also true that the Agency's mitigation 
requirement in these authorizations prohibit blasting within 
this limited buffer only between November and April. Correct? 
Even though we know that whales can be present during different 
time frames?
    Mr. Oliver. A little more than a yes or no response, sir. 
The other times of the year, there are still closures in effect 
out to 30 nautical miles. But based on the information we have, 
and we expanded those original closures between what we 
originally proposed at 47 kilometers out to 90, or nearly 
doubled it, based on some of the information you cite that the 
whales have expanded the areas they occupy seaward and 
northward. So, again, the likelihood of them being present in 
that area we feel is quite low during that time.
    Mr. Huffman. Last question, because you took a little extra 
time than I expected there. It seems to me on the one hand you 
are working to recover these animals. On the other hand, you 
are allowing very limited buffers and limited mitigations in 
your authorizations.
    Were there internal conversations where some of your 
scientists objected to these permits?
    Mr. Oliver. No, sir. Our internal conversations focused on 
the best available science that we had.
    Mr. Huffman. There were no dissenters among the scientists 
on your team?
    Mr. Oliver. Dissenters to what?
    Mr. Huffman. To your decision to allow these activities to 
take place within these very limited buffers.
    Mr. Oliver. Our role is not to decide on issuing the 
permits, sir. It is to decide on the appropriate mitigation 
measures----
    Mr. Huffman. My question is whether there were scientists 
who believed that the mitigation measures were inadequate to 
protect the species.
    Mr. Oliver. I do not believe that is correct.
    Mr. Huffman. All right. Thank you.
    I now recognize the Ranking Member.
    Mr. McClintock. Thank you. Mr. Oliver, in a hearing 
yesterday, Federal officials stated that there was more seismic 
testing under the Obama administration than under the Trump 
administration. Is that accurate?
    Mr. Oliver. I apologize, sir. I do not know the answer to 
that question. I am unfamiliar with the degree of seismic 
activity across the two administrations.
    Mr. McClintock. I am told that was the testimony in a 
hearing yesterday. If it is true, I am shocked, just shocked, 
that my friends on the left are not shocked.
    Can you tell us, what are we observing of other whale 
species in the North Atlantic? Are they declining or 
increasing?
    Mr. Oliver. I don't know the specific statistics. We have 
had a couple of unusual mortality events with other whale 
species over the past few years in the Atlantic. But those are, 
I guess, disassociated in time and space, and it is not clear 
that there is a relationship among them.
    Mr. McClintock. Populations of many species are increasing, 
are they not?
    Mr. Oliver. Either stable or increasing.
    Mr. McClintock. And increasing by a significant rate, 3 to 
5 percent, I read.
    Mr. Oliver. I have no reason to disagree with that number. 
I don't know the exact rate.
    Mr. McClintock. Mr. Kraus, I am told, will testify that the 
National Marine Fisheries Service's Biological Opinion on 
seismic impacts is flawed. Specifically, he mentions the 2017 
model used by your agency. It was not adequate. Do you agree 
with this statement?
    Mr. Oliver. I don't agree with that statement. I would note 
that we are in the process of reconsulting and developing a new 
biological opinion.
    Mr. McClintock. Since he is going to follow you, do you 
want to address your concerns with his interpretation of the 
science here?
    Mr. Oliver. I don't know that I am in a position to do that 
at this time here today, sir.
    Mr. McClintock. Can you tell me, has this administration, 
or the previous, found that there is anything more than a 
negligible impact on whales due to seismic activity?
    Mr. Oliver. No, sir. I don't believe our agency has ever 
not issued or approved a request from an applicant for an 
Incidental Harassment Authorization, in either administration. 
And I would note that the prevailing scientific information is 
that seismic activity does not result in mortality or even 
serious injury; rather, the prevailing science is it does not. 
I would acknowledge there are other sublethal energetic 
effects.
    Mr. McClintock. And the whale populations that are 
increasing in the North Atlantic, I presume, are also affected 
by the same seismic testing.
    Mr. Oliver. They would be, yes, sir.
    Mr. McClintock. How about the right whale population in the 
Southern Hemisphere, which is described as increasing at about 
3 percent, I believe?
    Mr. Oliver. I believe that is correct, 3 to 5 percent in 
the Southern Hemisphere. Correct.
    Mr. McClintock. So, they are doing quite well there with 
seismic testing. Something in the North Atlantic might have to 
do with the fact that the population left in the North Atlantic 
was so small to begin with.
    As I understand it, seismic testing is already heavily 
regulated, including requirements that trained professionals be 
present to detect whales, with the power to shut down testing. 
Could you elaborate on the safeguards to seismic testing a bit?
    Mr. Oliver. Yes. As you have noted and I have noted 
earlier, we have to find a negligible impact when we are asked 
to review these authorization requests, and include mitigation 
monitoring and reporting requirements that result in the least 
practical adverse impact.
    And if we are able to do so and we think that we have done 
so with what we believe are significant mitigation measures, 
including the 90 kilometer closure as well as multiple critical 
habitat and calving area closures that remain year round, along 
with the provision for shutdown if whales are detected within a 
mile and a half. So, we believe collectively those satisfy the 
standards that we are authorized to evaluate under the Marine 
Mammal Protection Act.
    Mr. McClintock. Can you tell us what the U.S. fishing 
industry has done to prevent interactions with right whales, 
and for that matter, any whales?
    Mr. Oliver. There is a lot of promising research, actually, 
and a lot of incentive upon the fishing industry, and 
particularly in the wake of the unusual mortality event we had 
in 2017, a renewed and redoubled effort by both our agency and 
Canada and the fishing industry to find ways to minimize those 
interactions, including sinking lines, reductions in the number 
of lines, breakaways, and some promising technology on the use 
of ropeless fishing gear.
    Mr. McClintock. Thank you.
    Mr. Huffman. The Chair now recognizes Mr. Van Drew for 5 
minutes.
    Dr. Van Drew. Good morning, Mr. Oliver. Seismic air gun 
blasting for oil and gas has ramifications for all manner of 
marine life. Scientific studies show that seismic air gun noise 
can disturb, injure, or kill marine life, from zooplankton at 
the base of the food web, up to the fish and marine mammals at 
the top.
    In a recent study, a single seismic air gun caused massive 
mortality in zooplankton, a viable prey species in the 
ecosystem, over a 1.5-mile swath of ocean. Air gun noise can 
delay growth and cause body abnormalities in young scallops. 
Sounds from seismic air guns can cause physical damage to fish 
hearing structures, and lead to hearing loss itself, which 
leaves them unable to use sound for communicating, feeding, or 
escaping predators.
    Catch rates of some commercially and recreationally 
important fish species are known to decrease substantially in 
the wake of seismic air gun blasting for oil and gas. In fact, 
seismic air gun blasting can lead to declines in catch rates by 
as much as 80 percent of some fish species.
    This is concerning, as healthy fish stocks are critical for 
our Nation to continue to thrive. And I believe we all know how 
important the fishing industry--just alone in my state of New 
Jersey, it is the third largest industry. This is concerning, 
as healthy fish stocks are critical for our Nation's fisheries 
to continue. How would this play out for Atlantic fisheries?
    Mr. Oliver. Congressman Van Drew, I am not certain I 
understand your question, whether it was relative to right 
whales or fisheries. We evaluate, as does BOEM in their 
issuance of permitting activities, through biological opinions, 
impacts on fisheries as well as essential fish habitat. So, 
that would be evaluated through essentially a separate process.
    Dr. Van Drew. How do you propose protecting fishermen and 
coastal businesses if catch rates drop in the Atlantic?
    Mr. Oliver. I am not aware of any specific evidence that 
indicates the proposed seismic activity that we are talking 
about would somehow directly affect catch rates. I apologize. 
If that information is there, I am not aware of it.
    Dr. Van Drew. OK. Regarding seismic surveys for oil and gas 
deposits off the Atlantic Coast, I have heard people say, ``Why 
do we not just see what is out there?'' They argue that it is 
OK to go ahead with seismic air gun surveys so that public and 
policy makers can weigh the pros and the cons of drilling for 
oil and gas in the Atlantic Ocean off of our coast.
    Five companies have received permits from NOAA to conduct 
seismic air gun surveys in the Atlantic, and are seeking final 
authorizations from the Bureau of Ocean Energy Management and 
the Department of the Interior. If these five companies go 
ahead with seismic air gun blasting in the Atlantic, will we be 
able to see what is out there?
    Mr. Oliver. I presume that if they undertake their seismic 
activities, the point of doing so would be to ascertain whether 
and to what extent there are resources there that would warrant 
actual oil and gas exploration, which would also be permitted 
by BOEM.
    Dr. Van Drew. Will the public have access to the data 
collected by these companies on possible oil and gas deposits 
off of our shores?
    Mr. Oliver. I believe that much of the information they 
collect is proprietary. I think, through the EIS process, the 
public will have access to whatever information we have. But I 
cannot speak to every bit of information that may be 
proprietary to the particular companies involved.
    Dr. Van Drew. If that information will be available to the 
public, then why are there five different companies seeking 
permits to explore the same area?
    Mr. Oliver. I am not sure I have a good answer to that, 
Congressman. I guess they each needed a permit, so they each 
applied for a permit. I suppose it could have been done under a 
more programmatic-type single authorization request. But in 
this case, there were five separate requests.
    Dr. Van Drew. Thank you, Chairman.
    Mr. Huffman. Thank you.
    The Chair now recognizes Ms. Gonzalez-Colon for 5 minutes.
    Ms. Gonzalez-Colon. Thank you, Mr. Chairman. And thank you 
to the witness for being here today with us.
    In the past, the National Marine Fisheries Service has 
concluded that seismic surveying poses no significant threat to 
marine life. In 2014, for example, your agency concluded, and I 
want to quote here, ``To date there is no evidence that serious 
injury, death, or stranding by marine mammals can occur from 
exposure to air gun pulses, even in the case of large air gun 
arrays.'' Is that still the case?
    Mr. Oliver. Yes. I believe that is still the case. We 
recognize there are other sublethal energetic effects, but not 
any direct mortality or serious injury effects.
    Ms. Gonzalez-Colon. Has the National Marine Fisheries 
Service found any new evidence since 2014 to conclude that 
seismic surveying significantly threatens the North Atlantic 
right whale and other marine species?
    Mr. Oliver. No.
    Ms. Gonzalez-Colon. Do vessel collisions, entanglement in 
lines and nets, and ingestion of plastic pose higher threats?
    Mr. Oliver. Yes, Congresswoman. In fact, vessel strikes and 
even more so entanglement in fishery gear are the two by far 
primary sources of mortality and serious injury.
    Ms. Gonzalez-Colon. Mr. Oliver, in 2018, NOAA Fisheries 
issued final authorization under the Marine Mammal Protection 
Act to incidentally but not intentionally harass marine mammals 
to companies proposing to conduct geophysical surveys in 
support of the hydrocarbon exploration in the Atlantic Ocean.
    Can you discuss the procedures and the analyses that go 
into your agency's decision-making process when issuing those 
kind of authorizations?
    Mr. Oliver. I will try to be brief. It was a lengthy 
process that took place over a couple of years. It started 
before I came on board in this position, but it involved 
publication of proposed permits with attendant mitigation 
measures. It went through, I believe, two different public 
comment periods, where we received over 120,000 different 
public comments, including many very detailed technical and 
scientific-based comments from both proponents and opponents of 
that seismic activity.
    Ultimately, following our proposed rule, we assessed those 
comments and made some changes to the proposed rule. In a 
couple of changes, we relaxed some protection measures, 
particularly with regard to small dolphins. In other cases, we 
actually expanded the protection measures from what was 
originally proposed--for example, for the right whale 
specifically, enlarging the closure area from 47 to 90 
kilometers.
    Ms. Gonzalez-Colon. I do understand that the harassment 
definition between level A and level B are a little bit 
different. Right? And the one in level B is going to be a 
little complicated. It is going to be unclear on how it will be 
affected.
    Can you give us an overview of the National Marine 
Fisheries Service effort to conserve and rebuild the North 
Atlantic right whale population, and how you understand 
Congress can help in that effort as well?
    Mr. Oliver. Yes, Congresswoman. From a general perspective, 
again, we are looking at taking regulatory and non-regulatory 
steps to reduce the threat of vessel collisions. And earlier in 
my testimony, I went through some of the details of that--so in 
the interest of time, I will not repeat them--where we are also 
in the process of reviewing those restrictions to assess both 
their effectiveness, the enforcement of compliance with them, 
as well as safety in navigation and coastal economic impacts, 
in order to assess perhaps changes to those restrictions.
    And second, a lot of work going on in the area of 
entanglements, and a very heightened focus, including recent 
action by Canada in the Gulf of Saint Lawrence, and increased 
attention on the part of our fishermen and our fisheries 
management process to look at additional restrictions in U.S. 
fishermen waters, including development of ropeless fishing 
gear, including requirements for limitations on the number of 
traps that can be run, and--I will stop there. Sorry.
    Ms. Gonzalez-Colon. Thank you. Thank you for your comments. 
I yield back the balance of the time.
    Mr. Huffman. Thank you. The Chair now recognizes the 
Chairman of the Natural Resources Committee, Mr. Grijalva, for 
5 minutes.
    Mr. Grijalva. Thank you very much, Mr. Chairman and Ranking 
Member, for the courtesy. Mr. Chairman, I want to thank you. 
The hearings that this Committee has undertaken have been 
substantive, empirical information being at the center of the 
discussion.
    And that sets a very good, I think, tone for how we should 
be dealing with a lot of the questions that face the Committee 
as a whole, and that is the fact that science needs to guide 
us, fact needs to guide us, because we are dealing with 
elements in our jurisdiction that demand that. And the fact 
that we have ignored it does not make it right. So, I want to 
thank you for that, and for the tone.
    And thank you, Mr. Oliver, for your testimony and for being 
here. Let me just go into some questions on some issues that 
perhaps I think also need to be covered relative to your 
testimony.
    Mr. Oliver, some reports indicate that up to 85 percent of 
North Atlantic right whales have scars associated with 
interactions with fishing gear. And my question is: What is 
NOAA doing, or planning to do, to ensure that such fishing 
lines are not deployed in times and places where right whales 
are present at the time? Does NOAA have a strong understanding 
of where fishing that impacts right whales is occurring? And 
what is the process to address that particular question? If I 
may, Mr. Oliver.
    Mr. Oliver. Thank you, Mr. Congressman. A number of areas 
in response to that question.
    The most important thing that we can do to minimize these 
entanglement occurrences is to better understand where and when 
right whales are occurring. And we know that through recent 
scientific studies and information they are changing some of 
those patterns. For example, part of the reason we had the 
large mortality event in 2017 is they apparently moved into the 
Gulf of Saint Lawrence in Canadian waters where there was a 
concentration of fishing gear, which was a relatively new 
migration pattern.
    Mr. Grijalva. If I may to that point, Mr. Oliver, so right 
whales are migrating to new locations, in part due to climate 
change. So, to that point that you made, what is NOAA doing to 
address climate change shifts? And as migrating patterns shift 
because of the change, what appropriate management tools, new 
technologies--what is being used to deal with that ongoing 
reality now that we know that?
    Mr. Oliver. Well, we are trying to better understand where 
these shifts in zooplankton and phytoplankton are occurring so 
that we can predict where right whales are more likely to occur 
so that we can in turn consider restrictions or fisheries 
closures in those areas.
    And again, it is a matter of us understanding where those 
whales are going to be and taking the necessary measures to 
reduce the juxtaposition of those whales and fishing gear. And 
we have a lot of research ongoing in that regard.
    Mr. Grijalva. Specifically, Mr. Oliver, the regulations to 
reduce the fatal ship strikes on right whales have 
successfully, in that area, lowered the mortality. I am aware 
thought NOAA is currently in the process of analyzing that 
particular rule, including its effectiveness and its cost.
    First of all, is that a true statement?
    Mr. Oliver. Yes.
    Mr. Grijalva. And where is the status of that review at 
this point?
    Mr. Oliver. We expect a preliminary report by this summer, 
which would then be subject to both peer review and public 
comment, and the issuance of a final report later this year.
    Mr. Grijalva. And to absolutely put you on the spot, can 
you assure us that NOAA will not recommend undermining the 
protections currently in place under that rule for right whales 
through this review?
    Mr. Oliver. I cannot share what the outcome of the review 
is going to be. But I am certainly hopeful that, given the 
current status of the species, that any relaxation in certain 
areas would be for a very, very good reason based on knowledge 
of either effects----
    Mr. Grijalva. Do you believe during this rule review, given 
the urgency of the topic right now and the right whales, do you 
believe that there are opportunities that are going to exist to 
strengthen that ship strike rule?
    Mr. Oliver. I think the opportunity is there, yes, sir.
    Mr. Grijalva. OK. I yield back, Mr. Chairman. Thank you.
    Mr. Huffman. Thank you.
    The Chair now recognizes Mr. Lamborn for 5 minutes.
    Mr. Lamborn. Thank you, Mr. Chairman. I want to thank you 
and the Ranking Member for having this hearing today. This is 
an important topic, and so it is good that we are here.
    Mr. Oliver, I want to thank you for coming today. As you 
know, we appreciate the hard work you do for the American 
people, even in the face of sometimes reckless accusations or 
radical science deniers and political opportunists. As we all 
focus on the right whale today, I wanted to touch on seismic, 
and try to put the science back into this hearing. And I am 
glad that the Chairman talked about the need for science. That 
is always better than emotionalism.
    How long have we been conducting geophysical work to find 
resources in our oceans?
    Mr. Oliver. I don't know the exact answer, sir. But at 
least 50 or 60 years.
    Mr. Lamborn. OK. I am told 80 years. Does that sound 
correct to you?
    Mr. Oliver. That is probably more accurate. Yes, sir.
    Mr. Lamborn. OK. Thank you.
    Now, I am going to list a few reasons for conducting this 
important geophysical research. And I want you to just answer 
yes or no on my list of questions.
    Whether or not that geophysical research in the Atlantic 
Ocean would need an incident harassment authorization, if you 
are conducting geophysical work to dredge shipping channels, do 
you need an IHA?
    Mr. Oliver. I think you probably do, but it might be 
situation-specific.
    Mr. Lamborn. How about researching sea bottom 
characteristics for offshore wind installation?
    Mr. Oliver. Yes. I believe so.
    Mr. Lamborn. OK. Planning and exploring for sand resources 
for beach replenishment and rebuilding?
    Mr. Oliver. Again, I think that is correct, but I am not 
certain on the situation.
    Mr. Lamborn. And my understanding is that it is.
    Mr. Oliver. I have no reason to believe that it is not.
    Mr. Lamborn. Thank you. And how about unexploded ordnance 
surveys?
    Mr. Oliver. I believe so, yes.
    Mr. Lamborn. OK. Thank you. In fact, we have seen seismic 
geophysical work in the Atlantic for nearly all these reasons 
in just the last 4 years.
    And Mr. Chairman, I would like to submit for the record a 
list of these surveys that IHAs have been required for.
    Mr. Huffman. Without objection.

    [The information follows:]
Submission for the Record by Rep. Lamborn

[GRAPHIC] [TIFF OMITTED] T5462.001

.eps[GRAPHIC] [TIFF OMITTED] T5462.002


                                 .eps__
                                 

    Mr. Lamborn. Thank you.
    Mr. Oliver, knowing that all this work has been done in 
just the last 4 years, much less going back 80 years, has it 
decimated right whale populations in the Atlantic? Or has the 
mitigation, observer requirements, and strong science that lays 
at the foundation of NOAA IHA decisions proven successful in 
allowing us to do the work we need to do, while at the same 
time conserving the species we need to conserve?
    Mr. Oliver. I believe it is the latter, sir. Yes.
    Mr. Lamborn. And could you explain that, please?
    Mr. Oliver. Well, I believe that, again, as far as we know, 
the primary source of mortality by far for North Atlantic right 
whales particularly is vessel strikes and vessel entanglement. 
And, again, there is no evidence whatsoever of any direct 
mortality or serious injury to the right whales from seismic 
activity.
    Mr. Lamborn. Thank you very much.
    Mr. Chairman, I yield back.
    Mr. Huffman. The Chair now recognizes Mr. Lowenthal for 5 
minutes.
    Dr. Lowenthal. Thank you, Mr. Chair.
    Mr. Oliver, I want to follow up on the questions that Chair 
Grijalva asked you about the ship strike reduction rule. Maybe 
we can discuss your thoughts on how it can be strengthened, 
right now, to talk about strengthening the rules.
    In 2008, National Marine Fisheries Service published the 
ship strike reduction rule, and it imposed a mandatory speed 
limit of 10 knots per hour on vessels that were 65 feet in 
length or greater along parts of the Atlantic Seaboard at 
certain times of the year to prevent these collisions between 
the ships and the North Atlantic right whales.
    They determined that 65 feet was the appropriate length, 
because that was the categorization that was used to 
differentiate between motorboats and larger vessels and 
commercial vessels, and that larger vessels were subject to 
certain regulatory control, where smaller vessels were not.
    But we all know that a vessel of 65 feet or smaller can 
cause great harm to a North Atlantic right whale. Has the 
Agency ever considered putting a speed limit in seasonal 
management areas for vessels that are smaller than 65 feet? And 
if not, why not? And if you have, where are we in that 
discussion?
    Mr. Oliver. I honestly don't know, sir, in the original 
process of establishing those speed restrictions, whether and 
to what extent we considered vessels less than 65 feet. I think 
it has something to do with not only vessel size but automated 
information system AIS tracking that typically is required of 
all the larger vessels, therefore, our ability to track and 
monitor compliance with the vessel speed restrictions. So, I 
think there is a monitoring and compliance aspect to it.
    I would agree with you, though, that it makes sense. If we 
did not carefully evaluate that length threshold in the 
original rule, it would make sense to me that we should be 
looking at that in the current review.
    Dr. Lowenthal. I am glad you will be. But another question 
is: How successful have you been in terms of actually reducing 
speed? I think in studies that were prepared for NOAA December 
2012, that voluntary speed limits in what are called ``dynamic 
management areas''--they are parts of these areas--have only 
had limited success in reducing vehicle speed; they are still 
striking these animals.
    And in another study, NOAA has previously stated that there 
is a high level of noncompliance with these voluntary speed 
reductions, and that, for example, 95 percent of the ships that 
tracked in the Great South Channel did not slow down even when 
it was noted to them that it was a speed advisory due to right 
whale sailing--they were not slowing down.
    If that is the case, why are these restrictions not 
mandatory? And why are we not enforcing them, then?
    Mr. Oliver. Mr. Congressman, I do think that that is one of 
the important points that will be assessed in this review, and 
that is compliance with the rule. I know that we have, in fact, 
our Office of Law Enforcement has a great deal of information 
on compliance and violations that will be brought forward in 
that record.
    We have issued a number of very large penalties under this. 
But I would agree with you that if we identify areas that we 
believe are critical with regard to this issue of speed 
restrictions, critical relative to the right whale, that we 
should be seriously considering whether to make those areas 
mandatory as opposed to voluntary.
    Dr. Lowenthal. Thank you. And last, we have had issues on 
the West Coast, too, off my coast, the Pacific, on whales. And 
we have a voluntary program in place that I would like to 
describe to you later or put into the record. But it is based 
upon recognition.
    That is, if those shipping lines and others reduce their 
speed to a significantly slower speed, we provide them with 
recognition. And they all agree to do it, and we have lowered 
the air pollution significantly, especially in Santa Barbara 
and Ventura County, which were out of compliance.
    So, there are ways of doing this. I would hope that we 
would use this as an opportunity to really slow down ships. 
Really. Because that is a major danger to the sea life. Thank 
you.
    Mr. Huffman. Thank you.
    The Chair now recognizes Mr. Johnson.
    Mr. Johnson. Thank you, Mr. Chairman, and thank you, Mr. 
Oliver, for being here.
    As you know, the sort of incidental takings that we are 
talking about here today under the Marine Mammal Protection Act 
have to be authorized by NOAA Fisheries. One requirement for 
the taking authorization is that NOAA must find the activity 
would ``have no more than a negligible impact on the marine 
mammal species,'' in this case, of course, the right whale.
    What are some of the primary considerations you look at 
when issuing these permits?
    Mr. Oliver. Well, there are a number of things that we need 
to find. And ``negligible impact,'' I do not have the 
definition exactly on the top of my head. But it has to not 
result in long-term population or productivity of the species 
in question. So, that is a primary consideration.
    Mr. Johnson. I am interested to know about ongoing 
requirements once a permit-holder obtains a permit. Do they 
have to follow requirements, say, if they encounter a protected 
species while they are engaging in the activity authorized by 
the permit?
    Let's say that the seismic study is going on, and one of 
the vessels encounters a right whale. What happens then?
    Mr. Oliver. Yes, sir. There are shutdown requirements--if a 
right whale is detected within 1\1/2\ kilometers of the vessel, 
they are required to immediately shut down their air guns.
    Mr. Johnson. How long does the shutdown take? What is the 
procedure from that point?
    Mr. Oliver. I don't know the exact answer of what the 
criteria is for when they can go back up. But I suspect if the 
right whale subsequently exits the area and is not detectable 
within 1\1/2\ kilometers, that at some point the activity could 
resume. I apologize, I don't know the exact time interval. That 
is something I would be glad to look into and get back to you 
on.
    Mr. Johnson. I guess the point is that there are some very 
reasonable restrictions in place. And some of our friends on 
the activist side want to imply that operators are just out 
there wreaking havoc in the seas, and that is not the case, I 
think.
    Let me ask you another question. In your testimony, you 
talk about ongoing collaboration with Canada. My understanding 
is that in 2017, there were a total of 17 observed right whale 
deaths, but 14 of those occurred in Canadian waters. Can you 
expand on some of the work you are doing with Canadian 
regulators to minimize the harm they are causing to the right 
whale population?
    Mr. Oliver. Yes, Mr. Congressman, I can. And following that 
2017 event, we were very pleased that Canada subsequently last 
year actually implemented some measures, both with regard to 
shipping and with regard to gear entanglement. It was very good 
progress on their part.
    We collaborate and meet monthly with representatives from 
the Department of Fisheries and Oceans as well as Transport 
Canada on the shipping side. We established a bilateral right 
whale working group to discuss measures that both countries 
could consider and increase our coordination. We participate in 
aerial surveys with their team in the Gulf of Saint Lawrence. 
And they in turn participate on our right whale recovery 
implementation team.
    And those are just a few of the ways that we interact at 
the international front. And I would just add generally that 
following that event in 2017, the heat, if you will, has turned 
up on that collaboration and on both of our countries' efforts 
to particularly seek ways to minimize gear entanglement. So, it 
has really redoubled our efforts in that regard.
    Mr. Johnson. I was looking into this, and I was struck by 
the fact that I was in the second grade the last time there was 
a comprehensive geological seismic study for the Atlantic 
Coast. It was over 40 years ago. Has that technology advanced 
from then to now, so that we can get more accurate information 
while being less intrusive to marine life?
    Mr. Oliver. I believe it has. And I am not an expert on it, 
but that is certainly my understanding, and from the 
information that we have received from some of the seismic oil 
and gas companies.
    Mr. Johnson. I appreciate your being here, and I yield 
back.
    Mr. Huffman. The Chair now recognizes Mr. Neguse for 5 
minutes.
    Mr. Neguse. Thank you, Mr. Chair, and thank you, Mr. 
Oliver, for appearing before us today. I represent the great 
state of Colorado, and although we are a landlocked state, we 
certainly care very deeply about our oceans and the species 
that call our oceans home.
    Also, we have a number of people in my district in 
particular, Colorado 2nd Congressional District, who are very 
active in this regard. The Inland Oceans Coalition, which has 
chapters across the western United States, including at the 
University of Colorado Boulder and Colorado State University in 
my district, was founded in Colorado and works to build 
enthusiasm around marine biology and acknowledgement of the 
direct impact on the cycles of life in the oceans that are 
downstream from us. Another example is the Oceans First 
Institute in Boulder, Colorado, which promotes conservation in 
future generations by connecting youth with the wonders of the 
ocean.
    I want to talk about some of your testimony today, Mr. 
Oliver. Just taking a step back, my understanding is that new 
births of North Atlantic right whales have slowed compared to 
the early 2000s, and only about 100 breeding females remain in 
the population.
    And the only known calving ground for the North Atlantic 
right whale is off the southeast U.S. coast. And, of course, as 
we have talked about in this hearing, the Federal Government 
has now granted permits for nearly 850 combined days of seismic 
surveys for oil exploration in that precise area.
    What are the potential impacts of the seismic surveys on 
mothers and calves, which are key to the population growth?
    Mr. Oliver. There are a number of critical habitat areas, 
including that calving area, in which no activity would be 
allowed. Those would be closed to seismic activity under the 
mitigation measures of the authorization that we have granted.
    Mr. Neguse. So, you believe the permits that have been 
granted will have no impact on the ability of the right 
Atlantic whale?
    Mr. Oliver. We believe they will have a negligible impact.
    Mr. Neguse. A negligible impact? OK. Well, let me take it 
this way. My understanding is that in 2017, these same permits 
were denied by the Bureau of Ocean Energy Management, by the 
BOEM. Is that right?
    Mr. Oliver. My understanding is they put the process on 
hold, and----
    Mr. Neguse. Well, I will quote, I have a quote here. 
Perhaps this will be educational. ``In early 2017''--this is 
according to the BOEM in denying similar permits--concluding 
that the ``value of obtaining the geophysical and geological 
information from new air gun seismic surveys in the Atlantic 
does not outweigh the potential risks of those surveys' 
acoustic pulse impacts on marine life.'' Those are not my 
words, they are the BOEM.
    What has changed since 2017? The science has not changed. 
Right?
    Mr. Oliver. Well, Congressman, I cannot speak to why BOEM 
did or did not deny the permits. Our role in this----
    Mr. Neguse. They did deny the permits, just for the record. 
But I am happy to provide you with that----
    Mr. Oliver. I understand. I don't know why they did that.
    Mr. Neguse. Well, I just explained to you. The quote, they 
denied the permits because ultimately, the benefits to these 
five oil and gas companies were outweighed by the risks to this 
endangered species. And since that time, the science certainly 
has not changed. The status of the species certainly has not 
changed; it is more threatened, not less. It seems that the 
only thing that has changed since that time is the politics of 
it.
    And this is why it is very frustrating, because most of the 
issues that we deal with are very partisan. But this happens to 
be an issue that has bipartisan support. Let me give you just a 
few of the stakeholders in the region who have expressed 
concern or outright opposition to the granting of these 
permits.
    The governor of Florida, Republican. The governor of 
Georgia, Republican. The governor of South Carolina, 
Republican. The governor of Maryland, a Republican. The 
governor of Massachusetts, a Republican. All right? In addition 
to a variety, of course, of Democratic governors, 240 East 
Coast state municipalities, over 1,500 local, state, and 
Federal bipartisan officials.
    There are a litany, a plethora, of experts and folks in 
these communities who have said that this is not a prudent 
thing to do. And I am struggling to understand why NOAA, which 
is obligated under the law to consult with the BOEM as it 
grants these permits, would be willing to take this risk. I 
guess that is my last question for you, Mr. Oliver.
    Mr. Oliver. I would answer, Congressman, that our role in 
this, under the MMPA, is to not authorize the surveys 
themselves, but authorize the marine mammal take that might 
occur incidental to these surveys with the necessary 
mitigation, reporting, and monitoring requirements that we 
believe would be a negligible impact. But that is different 
than actually----
    Mr. Neguse. Again, you keep on referencing the word 
``negligible.'' I think it is important--we can get lost in the 
technical language. These air gun blasts happen every 10 
seconds for hours on end, for weeks on end, to a species that 
calls the ocean home.
    There are literally bombs going off for those animals every 
10 seconds of every hour of every day for prolonged periods of 
time. I do not think that is a negligible impact, and I think 
the science makes clear that is not the case. And with that, 
thank you, Mr. Chairman.
    Mr. Huffman. I thank the gentleman.
    The Chair now recognizes Mr. Fulcher for 5 minutes.
    Mr. Fulcher. Thank you, Mr. Chairman.
    Mr. Oliver, I represent a region in the state of Idaho, 
also a landlocked state, and will just tell you right up front, 
my level of expertise on the right whale is quite negligible. I 
had to do a little bit of homework on this, and I want to share 
with you what I found. I think, for the most part, it tends to 
line up with what you were saying.
    But it appears to me that the primary habitat for this 
species is three locations. There is the Atlantic, North 
Atlantic, North Pacific, and the Bering Sea. And at least 
according to the information that I am finding, the population 
fluctuation, up or down, doesn't seem to be different in any of 
those regions. And, by the way, the ocean traffic has been 
constant on both, with the highest ocean traffic, actually, in 
the Atlantic.
    I have been intrigued by the seismic conversation. And most 
of that activity takes place in the Gulf of Mexico, which this 
is not potentially part of that habitat, but also some in the 
Atlantic. Yet, there doesn't appear to be any difference in the 
population trend. You did talk about this, but I just need to 
hear you re-edify that.
    What is the biggest impact negatively on the population of 
these animals?
    Mr. Oliver. Congressman, certainly in the case of the North 
Atlantic right whale--and there may be some differences in the 
population trajectories of the different species; as we noted 
earlier, other whales on the East Coast are increasing at a 
rate of 3 to 5 percent in many cases--by far the primary 
sources of mortality are vessel gear entanglement, followed by 
vessel strikes. Those are the two sources of right whale direct 
mortality and serious injury.
    Mr. Fulcher. Just for the record, the data that I see is in 
agreement with that. Do you have anything specific in your data 
that indicates that the seismic activity is--I just don't see 
it where I am looking. And I am wondering if you have any data 
on that.
    Mr. Oliver. Well, there is certainly information, 
Congressman, that seismic activity, acoustic activity, air 
guns, however you want to characterize it, does have sublethal 
effects on various activities of marine mammals, including the 
North Atlantic right whale.
    It can affect their behavior, their movements, their 
migrations. It can affect their feeding behavior. It can affect 
their breeding behavior. And collectively, those sublethal 
effects are precisely why we prescribe what we believe are 
fairly significant mitigation requirements on that seismic 
activity.
    Mr. Fulcher. Mr. Oliver, then if that is the case, why 
wouldn't there be more of a fluctuation in the population, or 
decline in this case, in areas where most of that is happening 
today?
    Mr. Oliver. I can't answer that question specifically. 
Again, we don't believe that seismic activity is a source at 
all of direct mortality or serious injury. It is hard to tease 
apart what could be longer-term effects on a different species 
of whale. But, again, if your question was, does this seismic 
activity result in mortalities of whales, the answer, we 
believe, is it will not.
    Mr. Fulcher. Mr. Oliver, thank you for being here and for 
your testimony.
    Mr. Chairman, I yield back.
    Mr. Huffman. The Chair now recognizes Mr. Levin for 5 
minutes.
    Mr. Levin. Thank you, Chair Huffman, and thank you, Mr. 
Oliver, for joining us today.
    I think we all agree how important it is to listen to 
scientists when developing public policy, particularly in an 
area like this where certain industries may have an outsized 
influence. Mr. Oliver, your agency has been inconsistent in its 
approach to the rules on sounds in our ocean.
    First, in the Gulf, your rules say that some sounds below 
160 decibels can negatively impact whales. Yet, in the 
Atlantic, you allow all sounds up to 160 decibels, some of 
which would not be allowed in the Gulf. A hundred sixty 
decibels, as you may know, can rupture human eardrums.
    So, my question for you, Mr. Oliver, is: Did any career 
scientists or other career staff object to the differences in 
these policies? Did they write any memos or e-mails to voice 
their concern? Or did they express their concerns orally?
    Mr. Oliver. Congressman Levin, if I understand your 
question correctly, this relates to the different application 
of measures in the Gulf and the Atlantic. While there is some 
desire for consistency across regions, there are very 
significant differences in both the bathymetric aspects of 
those two oceans and very different species involved.
    And different whale species, I can't cite the specific 
species and the decibel ranges that they are sensitive to, but 
different species that exist in those two different oceans are 
very sensitive to different bands of decibel and megahertz. So, 
what works with some species does not work with others.
    Mr. Levin. Mr. Oliver, with respect, I don't think you 
answered my question. Again, did any career scientists or other 
career staff object to the differences in these policies?
    Mr. Oliver. I'm not certain I understand what policies you 
are referring to. But the answer is no.
    Mr. Levin. I find that hard to believe, seeing as it is 
such a significant change in policy, to allow sounds up to 160 
decibels in the Atlantic but not in the Gulf. That is the 
correct policy. Right?
    Mr. Oliver. My understanding is those differences are based 
on the scientific expertise of career staff, who recognize the 
appropriateness of those different applications.
    Mr. Levin. And can the Committee see any evidence of that 
disagreement with scientific backup? Can that be provided to 
the Committee?
    Mr. Oliver. We will certainly provide you all the 
scientific information we used in making those determinations. 
Yes, sir.
    Mr. Levin. That would be helpful. And Mr. Oliver, this was 
not the only controversial decision the agency made. You also 
decided not to look at the cumulative impacts of the 
authorizations you issued. Similar question: Did any career 
scientists or other career staff object to the failure to 
evaluate cumulative impacts of multiple Incidental Harassment 
Authorizations, or IHAs?
    Mr. Oliver. No, sir. Not to my knowledge.
    Mr. Levin. I also find that very hard to believe, given the 
significance of the policy.
    Were there any other aspects of the decision to issue the 
Incidental Harassment Authorizations that caused dissent within 
the agency? And if there were, what was the nature of that 
dissent?
    Mr. Oliver. No, sir. Not to my knowledge.
    Mr. Levin. Mr. Chairman, I am concerned about how the 
decision to endanger the right whale was made. I believe the 
Committee should insist on the production of any documents held 
by the agency that express concerns about the impact of the 
decision on the right whales.
    We will not be able to know the true basis for the decision 
unless we get these documents, and I find it incredibly hard to 
believe that there was not significant internal debate.
    So, I look forward to the production of those documents to 
the Committee, Mr. Oliver, and I will yield back the balance of 
my time.
    Mr. Huffman. Thank you. And I believe I heard you, Mr. 
Oliver, agree to share those documents with the Committee. Did 
I hear you correctly?
    Mr. Oliver. Sure. Yes, sir.
    Mr. Huffman. Thank you very much.
    The Chair now recognizes Mr. Hice for 5 minutes.
    Dr. Hice. Thank you, Mr. Chairman.
    Mr. Oliver, I want to thank you for being here, and 
recognize your expertise in so many different groups and 
organizations that supported you being appointed to this 
position, and the high level of professionalism you bring to 
it.
    As we are discussing the right whale, I am from Georgia, 
and of course this is the official marine mammal of Georgia. 
And the right whale has calving grounds in the waters off the 
coast of our state. And these are beautiful mammals and draw a 
great deal of tourism. People going to Jekyll Island, Tybee 
Island, and the like go out looking for dolphins and whatever, 
but all the while keeping their fingers crossed that perhaps 
they will have an opportunity to see a right whale along the 
way.
    Why is it that the right whale is only off the coast of 
Georgia for certain months, as I understand it, between 
November and April?
    Mr. Oliver. I have to admit, sir, among my expertises, I am 
not a cetacean expert. That is their typical migration pattern. 
As far as I know, it has been their pattern for hundreds if not 
thousands of years. I don't know exactly why they are there at 
that time of year, but they seem to be there pretty much every 
year. I would be happy to----
    Dr. Hice. Right. Because you said it, it is a migratory 
pattern. It is what they do. They come there and they leave. 
And it is something they have been doing for hundreds or 
thousands or however long number of years. It is the pattern. 
It is what they do.
    So, when there is a migratory animal such as this, it means 
that they are there certain times of the year and they are not 
there certain times of the year, as a general rule. Is that 
correct?
    Mr. Oliver. Yes, sir.
    Dr. Hice. All right. So, would this be part of the 
explanation why NOAA Fisheries issued an incident authorization 
to the company Deepwater Wind to survey off the coast of Rhode 
Island in order to build Block Island Wind Farm?
    Mr. Oliver. Yes, sir.
    Dr. Hice. OK, so the reason, just to be sure, is because it 
would be an incidental harassment, which means what? Can you 
explain what an Incidental Harassment Authorization is?
    Mr. Oliver. What it essentially means is you cannot 
intentionally harass. But you can, incidentally to the activity 
being proposed, incidentally interact, harass, in this case the 
acoustic signals from the air guns, if we can find again that 
it has an overall negligible impact on the species, and we 
impose appropriate mitigation monitoring and enforcement 
standards to minimize that interaction.
    Dr. Hice. Right, so you are minimizing the potential 
problems because in this case you have a migratory mammal that 
is--and so you try to exercise those sounds, more than likely, 
when they are not present. Correct?
    Mr. Oliver. Yes.
    Dr. Hice. OK. That makes sense. Let me land where I am 
going here. As I understand it, there is no real unique 
difference between the needs of renewable sources and oil and 
gas development when you are coming to survey the shore, or the 
ocean bottom. Is that correct?
    Mr. Oliver. Again, I am not an expert on hydroacoustics. 
There may be some differences in the sound, the acoustic 
signal, between seismic for oil and gas versus seismic for 
siting a wind facility. But I think that essentially, they are 
very similar.
    Dr. Hice. If you are trying to determine the ocean floor, 
it does not matter what you are surveying the ocean floor for, 
the purpose, whether it is renewable energy, or oil and gas. If 
you are surveying the floor, it is basically the same 
technology for either. That is my understanding. Is that your 
understanding?
    Mr. Oliver. Yes. My understanding is they are very similar. 
Some may be shooting for a deeper signal, in the case of oil 
and gas, than siting a wind turbine, for example, which may not 
have to go down as deep to know what you want to know. But----
    Dr. Hice. So, we should be able to pursue all of the above 
safely?
    Mr. Oliver. I believe we can. And I don't believe our 
agency has ever denied an application for that type of 
activity.
    Dr. Hice. OK. Thank you. I yield back.
    Mr. Huffman. Thank you, Mr. Hice.
    The Chair asks unanimous consent to allow the gentleman 
from Massachusetts, Mr. Keating, to sit at the dais during some 
of the testimony.
    Without objection, it is so ordered. And the Chair now 
recognizes Mr. Sablan.
    Mr. Sablan. Thank you very much, Mr. Chairman, for holding 
this hearing. And thank you for Mr. Oliver and the other 
witnesses for joining us and sharing.
    I have one question, Mr. Oliver. NOAA currently protects, 
again, critical habitat for right whales, which includes the 
feeding areas and calving grounds. However, the whales twice-
yearly migratory routes through the mid-Atlantic, which connect 
these two habitats, are not protected.
    Does NOAA Fisheries have plans to ensure right whale 
migratory routes are officially recognized as critical habitat 
and establish the necessary protections for their migratory 
routes in the mid-Atlantic?
    Mr. Oliver. Congressman, my understanding is that it is 
typically the southern region where they calve, which has not 
changed much. Some of their activity, on the other hand, up 
north has moved northward and seaward. So, there are some 
changes occurring in their movement patterns, and that is what 
is critical for us to understand.
    But my understanding is the migration pattern that you are 
referring to, at the time it occurs and at the time they are in 
those waters, is why we have the mitigation measure that we put 
in place. And there are critical habitat areas within that, 
including the calving grounds, that are always closed.
    But it is my understanding that the mitigation measures 
were intended to address that very issue of where the whales 
are and when.
    Mr. Sablan. Yes. Let me just ask, Mr. Oliver, a yes or no 
answer. Do you have oversight authority over Westpac? This is 
not a right whale question. But do you have authority over 
Western Pacific Fisheries Council?
    Mr. Oliver. I don't know what you mean by ``authority 
over.''
    Mr. Sablan. I mean do you, do they have supervisory----
    Mr. Oliver. We don't have direct supervisory authority over 
the councils. They are not employees of----
    Mr. Sablan. OK. Just a question. Thank you.
    At this time, I yield the remainder of my time to the 
Chairman of the Subcommittee.
    Mr. Huffman. Thank you, Mr. Sablan. I will not take the 
full amount of time.
    But, Mr. Oliver, I do want to ask you this. You mention 
that you are in the middle of a reconsultation on the existing 
biological opinion for the North Atlantic right whale. Correct?
    Mr. Oliver. Yes, sir.
    Mr. Huffman. You only do a reconsultation if the existing 
biological opinion protections are not working. Is that not 
fair to say?
    Mr. Oliver. Well, there are a number----
    Mr. Huffman. If everything is just fine and the species is 
on the path to recovery, you do not have to do a 
reconsultation.
    Mr. Oliver. This is also the subject, sir--apologies--of 
ongoing litigation. So, I am a little bit limited in how I can 
respond.
    Mr. Huffman. All right. But it is fair to say that there is 
strong reason to believe that existing protections that are in 
place under the biological opinion are not putting the species 
on a path to recovery. Would you not agree?
    Mr. Oliver. Well, I would agree that there were perhaps 
deficiencies in the biological opinion itself, which may be a 
little bit separate issue than the measures that we currently 
have in place. I think that based on the results of this 
biological opinion, it may well indicate that we need to take 
additional measures.
    Mr. Huffman. Very good. And the downward trajectory of the 
population would also suggest that this is a time for more 
protection, not less. Would you not agree?
    Mr. Oliver. Yes, sir. Protection from the primary sources 
of mortality, certainly.
    Mr. Huffman. The mission of the National Marine Fisheries 
Service is not to promote fossil fuel energy dominance, is it?
    Mr. Oliver. That is correct.
    Mr. Huffman. The prior administration under the same facts, 
under the same science, at a time when the population was 
actually doing better than it is today, found that the risk of 
extinction from these five companies doing seismic testing to 
make money on oil and gas development was vastly greater, 
outweighed the monetary interests of the companies. They said 
no to the oil and gas industry.
    I am going to ask you a question that I realize is without 
any precedent in this administration. But what if you had said 
no in this administration to the oil and gas industry, as the 
previous administration was prepared to do under the same facts 
and the same science? How long would you have kept your job?
    Mr. Oliver. I don't know, Mr. Chairman. I never 
contemplated that. I contemplated our agency----
    Mr. Huffman. Do you think you would be sitting here today? 
Do you think you would be sitting here today if you had said no 
to the oil and gas industry?
    Mr. Oliver. I don't know, sir.
    Mr. Huffman. Fair enough.
    The Chair now recognizes Mr. Cunningham from South 
Carolina.
    Mr. Cunningham. Thank you, Mr. Chair. My name is Joe 
Cunningham. I represent South Carolina's 1st District, which is 
a coastal area, from Charleston all the way down to Hilton 
Head.
    It is fair to say that seismic air gun blasting is 
extremely disruptive and loud. Correct?
    Mr. Oliver. I didn't hear the last----
    Mr. Cunningham. It is fair to say that seismic air gun 
blasting is extremely loud and disruptive. Is that correct?
    Mr. Oliver. I don't know exactly how loud it is. I have 
never actually directly experienced it myself. And when you say 
``disruptive,'' I cannot answer that question unless you 
elaborate on what you mean by--disruptive to what?
    Mr. Cunningham. OK. Let's say, do you think the sound of a 
washing machine is loud or disruptive?
    Mr. Oliver. Not particularly.
    Mr. Cunningham. OK. What about an air horn?
    Mr. Oliver. You are getting there.
    Mr. Cunningham. OK. Mr. Chair, I would ask for unanimous 
consent to sound an air horn in Committee.
    Mr. Huffman. Is there objection to the gentleman's 
demonstration?
    [No response.]
    Mr. Huffman. Without objection, the gentleman----
    Mr. Oliver. Mr. Chairman, I would assume that it will annoy 
us, but it will not kill us.
    Mr. Huffman. Hearing no objection, the gentleman may 
demonstrate.
    Mr. Cunningham. Thank you. I would like to give anyone an 
opportunity to leave if they would find it bothersome.
    Mr. Oliver. Again, Mr. Chairman, I suggest that opportunity 
exists for every whale and other little critter in the ocean.
    Mr. Huffman. I don't think they receive advance notice of 
the seismic testing in cetacean language, but----
    Mr. Oliver. That is not correct. You told us that they get 
10 seconds' interval between every blast. I think that would be 
plenty of time to go to the next room or section of the ocean.
    Mr. Huffman. The gentleman may proceed. Thank you.
    [Mr. Cunningham sounds air horn.]
    Mr. Cunningham. Was that disruptive, Mr. Oliver?
    Mr. Oliver. Sir, it was irritating, but I did not find it 
particularly disruptive.
    Mr. Cunningham. What about, say, every 10 seconds, like 
systematic air gun testing goes on for, for days? Weeks? 
Months?
    Mr. Oliver. If I were that close to it, yes, probably.
    Mr. Cunningham. Yes. What if you depended on sound for 
hunting your food and for communication? Do you think it would 
be disruptive?
    Mr. Oliver. At a distance of 20 feet, yes, it would be.
    Mr. Cunningham. How much louder do you think seismic air 
gun blasting sounds than this air horn you just heard?
    Mr. Oliver. I honestly don't know.
    Mr. Cunningham. Take a guess. Ten times?
    Mr. Oliver. At a distance of how far?
    Mr. Cunningham. Well, say you are within a reasonable 
distance. Say you are within a quarter of a mile. Is it 10 
times? Is it 25 times?
    Mr. Oliver. I honestly don't know.
    Mr. Cunningham. Can you take a guess?
    Mr. Oliver. No.
    Mr. Cunningham. A hundred times? Do you think it is a 
thousand times louder?
    Mr. Oliver. I doubt it.
    Mr. Cunningham. You doubt it? What if I were to tell you it 
is 16,000 times louder than what you just heard here? Can you 
see how that would be impactful on marine species, mammals?
    Mr. Oliver. I do, which is why we put mitigation measures 
in place to minimize the proximity of that activity with the 
whales in question.
    Mr. Huffman. Do you think you can cure all of the effects 
that come from seismic air gun blasting to these species that 
it is impacting?
    Mr. Oliver. I don't know what the effects are that we are 
curing. Sorry.
    Mr. Cunningham. Well, such as the killing of our species?
    Mr. Oliver. I guess, Mr. Chairman, if that was a question, 
I will repeat what I said earlier. There is absolutely no 
evidence that these sounds and activities have ever killed or 
seriously injured a marine mammal, or a right whale.
    Mr. Cunningham. You have heard earlier testimony how 
various states along the Eastern Seaboard, including South 
Carolina, are adamantly opposed to offshore drilling. Correct?
    Mr. Oliver. Yes.
    Mr. Cunningham. OK. How do you feel about imposing seismic 
air gun blasting, which is impactful to marine species, in 
search for oil and gas and which the residents and citizens of 
South Carolina do not even want?
    Mr. Oliver. Congressman, our role under the MMPA is to 
either authorize the activity or not based on a number of 
findings that do not include a popular vote.
    Mr. Cunningham. Do you think South Carolina has a right to 
determine what happens off its shorelines?
    Mr. Oliver. Certainly, within certain distances that 
perhaps envelop state waters.
    Mr. Cunningham. But outside state waters, you don't think 
they have any decision whatsoever as to what happens off their 
shorelines and what could ultimately wash up on our beaches?
    Mr. Oliver. I don't write the laws that dictate where 
states' rights, where states' authorities versus Federal 
authorities lie.
    Mr. Cunningham. I am not asking for your legal 
interpretation. I am just asking your personal opinion about 
this.
    Mr. Oliver. I don't have an opinion on that.
    Mr. Cunningham. You don't have an opinion?
    Mr. Oliver. No, sir.
    Mr. Cunningham. OK. Would you like to know or have an 
opinion about what happens within your neighborhood or your 
state?
    Mr. Huffman. I think we are going to end with that 
rhetorical question. The gentleman's time is expired.
    Mr. Cunningham. I appreciate your time, Mr. Oliver. Thank 
you.
    Mr. Huffman. The Chair now recognizes Mr. Beyer of the 
great state of Virginia, also on the migratory route of the 
North Atlantic right whale, for 5 minutes.
    Mr. Beyer. Mr. Chairman, thank you very much for including 
me and for allowing me some time.
    This is a very important issue to me. All of our Virginia 
coastal communities are united against the oil and gas and 
against the seismic testing. And I am going to be reintroducing 
the Atlantic Seismic Air Gun Protection Act today to establish 
a moratorium on geological and geophysical activity related to 
oil and gas exploration and development in the Atlantic Ocean.
    If I can--will my friend from South Carolina yield for a 
question?
    Mr. Huffman. Without objection.
    Mr. Cunningham. No objection.
    Mr. Beyer. Could you tell me what the decibel level on the 
air horn was?
    Mr. Cunningham. On the air horn, it is 120 decibels.
    Mr. Beyer. Great. Thank you very much.
    And by the way, Mr. Oliver, on this sound traveling, we 
know that subsonic sound travels 2,500 miles in the ocean, 
which is Washington, DC all the way to San Francisco. So, you 
cannot escape, in 10 seconds, that 2,500 miles.
    My understanding is that your agency took the position that 
the North Atlantic right whales are not harassed by sounds 
unless they are episode to a sound at the level of 160 decibels 
or higher. And obviously, every 10 decibels, I believe, is a 
doubling in the sound volume.
    But in the Gulf of Mexico, your same agency did only 120 
decibels, which is many, many times. Why the difference?
    Mr. Oliver. Again, a similar question came up earlier. I 
think, while there is some desire to maintain a consistency in 
how we authorize issue authorizations in different bodies of 
water, they are very different ocean conditions, bathymetry, 
and most importantly, very different species we are talking 
about.
    And the different whale species have different 
vulnerabilities or different typical acoustical patterns that 
they operate within. So, different decibels affect different 
whale species differently.
    Mr. Beyer. But we can establish that 160 decibels is 
incredibly loud. In fact, that is twice as loud as what is 
necessary to rupture the human eardrum.
    The Republican objection to this seems to hang on two 
things that happened in the Obama administration. In 2014, NMF 
said, ``Today there is no evidence serious injury or death or 
stranding by marine mammals can occur from exposure to air gun 
pulses.'' And then in 2014, BOEM said, ``To date there has been 
no documented scientific evidence to adversely affect marine 
animal populations.''
    Since you are not on the next panel, let me just quote from 
some of the abundance of contrary evidence. For example: 
``Right whales as well as many marine animals are highly 
dependent on a naturally quiet ocean for basic life 
functions.''
    ``Protecting right whales protects entire ocean 
ecosystems.''
    ``Whales act as incidental farmers of the seafood, 
capturing food at depth and releasing nutrients at the 
surface.''
    ``Right whales, the acoustics will increase the likelihood 
of mother-calf separations, the likelihood of acoustic 
communication between whales,'' on and on and on.
    None of these are individual right whales being killed. But 
they are all whole-population impacts that affect calving, 
migrations, life span.
    ``This is not about acute physical harm to an individual, 
rather, the cost to a marginally surviving population as a 
result of aggregate chronic noise.''
    ``I find the idea that whales are more like us than most 
people--cults or dialects, individual voices, family trees, 
long-term social structures, that we owe them more than 
treating them as collateral damage.''
    How do you reconcile this abundance of science--and you 
have probably seen the many, many, many references--with the 
NMFS and BOEM decisions in 2014?
    Mr. Oliver. I am not sure I understand what specific 2014 
decisions you are referring to, Congressman. But we have, as I 
mentioned earlier, I don't believe our agency has ever, across 
any administration, not approved an Incidental Harassment 
Authorization.
    Depending on the activity and depending on the species, 
there are different mitigation conditions attached to those 
authorizations. But----
    Mr. Beyer. Let me ask you--can you appreciate that there is 
a significant difference between a right whale not washing up 
on the beach, being killed by a seismic blast, and the 
population impacts of chronic noise abuse over time?
    Mr. Oliver. Yes, I can, Congressman. And we have some of 
the finest marine mammal scientists, experts, in the world that 
work on these authorizations, both in the Gulf of Mexico and on 
the Atlantic Coast. And they know well more than I what the 
different whale species tolerate and what the appropriate 
mitigation is for those. And those are the same people that 
worked on these authorizations.
    Mr. Beyer. Mr. Chair, I yield back.
    Mr. Huffman. Just a note for the record. My pregnant 
committee consultant to my left noted that after Mr. Cunningham 
did his seismic air gun demonstration, her baby began kicking. 
So, perhaps a data point for you to consider, Mr. Oliver, as we 
go forward.
    [Laughter.]
    Mr. Huffman. The Chair now recognizes Mr. Keating for 5 
minutes.
    Mr. Keating. Thank you, Mr. Chairman. I thank you and the 
Ranking Member for allowing me a few minutes to speak. And I 
thank you, Mr. Chairman, for prioritizing this issue so early 
in this session, and for your own experience, which I know full 
well, even with Massachusetts, the studies you have done in 
this regard. And I do want to talk about that.
    And I do want to mention that in terms of Mr. Oliver's 
comments about minimization, the minimization we are concerned 
with is the minimization of the population of the right whale, 
the North Atlantic right whale, which is down to approximately 
422 whales right now.
    This is an existential issue regarding their species. And 
it is that critical. So, where is the trade-off? The trade-off 
is, Number 1, trying to do something positive, as my colleague 
Representative Moulton has, which I am joining him as original 
co-sponsor of his bill, SAVE Right Whales Act of 2019, where we 
are marshaling resources to try to protect the species.
    And the trade-off on the other side is oil and gas 
exploration in our oceans, and a product that we are exporting 
now around the world, that we have plenty domestically to deal 
with. And the trade-off is not even close. And we are just 
dealing it through the lens of the right whale. There is a 
``canary in the coal mine'' effect possible with the right 
whale and their diminishing species, and the effects on the 
rest of the ocean.
    And representing one of the largest coastal areas in the 
United States and an area that has dealt extensively with this 
issue, I wish I had in front of me a picture. It is a picture 
that I have seen at the Center for Coastal Studies in 
Provincetown, Massachusetts. It shows a very brave person 
getting in a very small vessel up against a whale, trying to 
disentangle that whale, risking their lives to do that. It is 
an extraordinary picture.
    That is what we should be about. That is what our values, 
in terms of our environment and protecting our environment, are 
about. And if we are talking about trade-offs in economic 
factors, I think I can speak all the way for my colleagues, 
Virginia, the West Coast, to here. In my district, if you want 
to just put this on economic terms, it is not even close, 
either.
    Endangering our coastline and its resources would have 
devastating impacts economically on my area in particular. This 
is not even close. We should not even be discussing this. But 
we should be marshaling our resources as SAVE Right Whales Act 
of 2019 in terms of protecting them. We should be here in 
Congress giving that same heroic effort to preserve the North 
Atlantic right whale that those people are doing on those very 
small vessels, where they can be overturned in a moment.
    So, Mr. Chairman, I don't think I will advance this anymore 
by posing questions. I think the answers are altogether too 
obvious. And I commend you for having the hearing so that we 
will have the opportunity to let Congress and let the American 
public realize that we are making these kinds of trade-offs 
that are not even close.
    I yield back.
    Mr. Huffman. I thank the gentleman.
    The Chair now recognizes Mr. Webster of Florida.
    Mr. Webster. Thank you, Mr. Chair. I appreciate the 
opportunity.
    Along that line, the population of great white whale, there 
is also an increase in the population of sharks. Administrator 
Oliver, there is a movement that has been tracked, and that is 
headed from the Massachusetts area, down to Florida. And there 
are a lot of predators that are moving in, and prey on white 
whale calves, which are in that area.
    And I am just wondering if these sharks, who are preying on 
these calves, are any concern. And is there anything being done 
about that, or is there anything we could do about that?
    Mr. Oliver. Congressman, thank you for the question. That 
is a good question, one that I don't know the answer to. It is 
an intriguing question because I know up on the North Pacific, 
with the endangered Steller sea lion, we have had a lot of 
issues and questions with regard to the effects on that 
population of killer whale predation.
    So, I don't know offhand of any documented evidence of 
right whale calves being taken by sharks. But I was at South 
Atlantic Council meeting earlier this week and heard from a 
number of fishermen. They are seeing way more and way bigger 
sharks than ever, to the fact that they are taking fish off 
their lines on a routine basis.
    So, given that there are more and bigger sharks, 
apparently, out there, I think you raise a good question. And I 
would probably want to get back to my expert people and find 
out whether we have any documentation of shark predation.
    Mr. Webster. There are several proposals out there about 
sharks, fishing, and even the finning of sharks. And one of the 
proposals is to just eliminate any shark fishing. And if this 
is true, and there is a lot of documentation from NOAA about 
the migration of these predators down into the Florida area, 
even around to the Gulf, to me I would propose an idea of 
trying to draw in the international fishing industry into 
taking our more conservation-style treatment of sharks and yet 
still not totally prohibiting the fishing of sharks.
    And I am just wondering if there is a correlation between 
that and the number. And is it going to change? If these 
predators are coming to Florida, and if their prey is an infant 
calf, then we are doing great harm to the white whale 
population, I believe.
    Would you see a correlation between those two?
    Mr. Oliver. Again, Congressman, I don't know that there is 
any correlation between the two. I would say that in cases 
where particular shark species warrant protection, we will do 
our best to do that. But we also support sustainable harvest of 
shark species where there is a sustainable harvest level to be 
had.
    Mr. Webster. Thank you very much. I yield back.
    Mr. Huffman. Will the gentleman yield his final 40 seconds 
for a followup?
    Mr. Webster. I will.
    Mr. Huffman. Mr. Oliver, you have said that seismic air 
blasting can have sublethal effects on right whales. Right?
    Mr. Oliver. Yes.
    Mr. Huffman. And that can include disrupting the 
communication patterns that allow a mother and a calf to be 
together? That is one of the ways in which whales communicate, 
through ocean sound. If one is concerned about shark predation 
that is limited to baby right whales, there is no shark in the 
ocean big enough to go toe to toe with a mother right whale. 
Correct?
    Mr. Oliver. I believe that would be true.
    Mr. Huffman. So, if we are concerned about shark predation 
on right whales, we should be concerned about seismic air 
blasting that causes mothers and calves to be separated in the 
ocean.
    With that, I yield back. The Chair recognizes----
    Mr. Webster. Well, would the gentleman yield his----
    Mr. Huffman. There is no extra time.
    The Chair recognizes Mr. Moulton.
    Mr. Webster. Are we operating under a 6-minute rule now, 
Mr. Chairman?
    Mr. Huffman. I was using the gentleman's----
    Mr. Webster. You accorded yourself 6 minutes.
    Mr. Huffman. No.
    Mr. Webster. You accorded----
    Mr. Huffman. The gentleman is out of order. I was using the 
time yielded to me specifically----
    Mr. Webster. And you stopped the clock when you borrowed 
time from another Member. And that is getting a little 
tiresome.
    Mr. Huffman. The gentleman is incorrect and out of order.
    The Chair recognizes Mr. Moulton for 5 minutes.
    Mr. Moulton. Mr. Chairman, by even the most generous 
estimates, there are fewer than 422 right whales left in the 
ocean. Humans have killed nearly every right whale in existence 
through our direct and indirect actions over the past two 
centuries.
    And, today, we are at a crossroads. We have a choice. We 
can be the generation that saves the right whale or the 
generation that allows their extinction. The right whale's fate 
is literally in our hands, in the hands of the members of this 
Committee and this Congress.
    I want to thank the Committee for having this hearing today 
and showing their commitment to the right whale, which in turn 
is a commitment to my region's economy and identity. Let's not 
miss this unique moment.
    Last night with Mr. Huffman, Mr. Rutherford, Mr. Keating, 
and Mr. Posey, I reintroduced the SAVE Right Whales Act. Mr. 
Chairman, few people in the history of the Earth have had the 
ability to help a species survive like this.
    From the passenger pigeon to the western black rhinoceros, 
humans have driven the extinction of iconic species through 
centuries of choices. It was a choice to hunt the right whale 
to near extinction. It was a choice to jeopardize the right 
whale by drilling off our coasts. Let's be the generation of 
leaders that chooses to bring the right whale back from the 
brink.
    Massachusetts is leading the way. Our bill has the support 
of scientists like Dr. Scott Kraus from the New England 
Aquarium, a group leading the charge. He will speak with you 
shortly. It has the support of lobstermen and other members of 
the Cape Cod Commercial Fishermen's Alliance, who know that the 
fate of our economy in Massachusetts is directly linked to the 
health of our oceans and the species that live in them.
    And the SAVE Right Whales Act has the support of the folks 
who speak for the whales and so many other iconic species, 
groups like the Natural Resources Defense Council and the 
Defenders of Wildlife.
    So, Mr. Chairman, thank you for your leadership, for your 
support of this bill in the past, and for prioritizing this 
hearing in the new Congress. Let's pass the SAVE Right Whales 
Act, and arm us with the funding we need to be the generation 
of humans that saves the right whale.
    Thank you, Mr. Chairman, and I yield back.
    Mr. Huffman. I thank the gentleman. With that, we will 
thank and excuse Mr. Oliver. Thanks very much for your 
testimony. We will bring forward our second panel.
    While the panel is coming forward, I will go ahead and 
begin the introductions.
    Our first witness will be Dr. Scott Kraus, the Chief 
Scientist of Marine Mammal Conservation at the New England 
Aquarium.
    Next will be Dr. Sterling Burnett, a Senior Fellow and 
Managing Editor of Environment and Climate News at The 
Heartland Institute. And last we will have Dr. Chris Clark, who 
is a Visiting Senior Scientist at the Bioacoustics Research 
Program at Cornell Lab.
    Let me just remind the witnesses in the second panel that 
under Committee Rules, they must limit their oral statements to 
5 minutes. Their entire statement will, of course, appear in 
the hearing record.
    And, again, gentlemen, when you begin, you will see the 
lights that are displayed. As you get closer to the end of your 
testimony, you will see a yellow light. And when your time is 
about to run out, you will see a red light. I will encourage 
you to wrap up at that point.
    We will allow the entire panel to testify before questions 
begin.
    The Chair now recognizes Dr. Scott Kraus for 5 minutes. 
Welcome, Doctor.

STATEMENT OF DR. SCOTT KRAUS, VICE PRESIDENT AND SENIOR SCIENCE 
ADVISOR, CHIEF SCIENTIST, MARINE MAMMAL CONSERVATION, ANDERSON 
   CABOT CENTER FOR OCEAN LIFE AT THE NEW ENGLAND AQUARIUM, 
                     BOSTON, MASSACHUSETTS

    Dr. Kraus. Thank you, Chairman Huffman and Ranking Member 
McClintock, for inviting me to testify on the status of the 
North Atlantic right whale. I have spent almost 40 years 
studying this species, publishing over 80 scientific papers on 
its biology, ecology, and conservation.
    In addition, my research team curates the North Atlantic 
right whale catalog, a photographic record of every individual 
right whale in the population. I am here to speak to the 
threats to this species and the need for enhanced Federal and 
state efforts to prevent North Atlantic right whales from going 
extinct.
    This species is among the most endangered whale on the 
planet, with only about 400 left. Despite almost 50 years of 
Federal management efforts, the stock is now declining rapidly. 
Why does this matter?
    Whales are incidental farmers of the sea. They fertilize 
the entire marine food chain, supporting ocean ecosystems and 
commercial fisheries. Whales are also the basis of a large 
tourist economy on both coasts, worth hundreds of millions of 
dollars annually.
    North Atlantic right whales feed in waters off New England 
and Canada during the spring, summer, and fall, and pregnant 
females migrate to calving grounds off the southeast U.S. coast 
to give birth during the winter. This distribution and their 
migration patterns expose them constantly to threats from human 
activities, including entanglements in fishing gear, collisions 
with ships, and disturbance from underwater noise.
    Right whale deaths from ship strikes and fishery 
entanglements slow or halt population growth. Our research 
indicates that twice as many whales die annually than are 
documented or estimated. In 2017 and 2018, 20 right whales were 
found dead, representing nearly 5 percent of the population. Of 
the 12 whales that were examined carefully, all had died from 
human causes.
    On the other side of the equation, for right whales to grow 
in population size, they need to have babies. That means we 
must reduce the exposure of all whales, but particularly 
females, to stressors that can slow or stop reproduction. This 
includes underwater noise, pollutants, and sublethal fishery 
entanglements. Climate change also likely affects whale health 
and reproduction.
    Chronic underwater noise is a proven stressor to right 
whales. Chronic stressors are known to cause increased disease 
and mortality and lower reproduction rates in a variety of 
mammals, including humans. Right whales are already exposed to 
relentless shipping, dredging, pile driving, and other 
industrial noises, which are likely impairing their ability to 
communicate, to find food, and to find mates.
    In November 2018, NOAA's National Marine Fisheries Service 
issued five Incidental Harassment Authorizations allowing 
companies to take marine mammals during geophysical surveys off 
the southeastern United States, which is the only known right 
whale calving ground. This activity will create a chronic 
disturbance and raise background noise levels throughout the 
right whales' habitat, increasing the risk of mother-calf 
separations.
    NMFS' assertion that the effects of seismic surveys will be 
transient is not believably defensible. Air gun noise is 
constant, with explosions every 10 to 16 seconds. Combined, 
these authorizations represent about 850 ship-days of 24-hour 
explosions within a single year.
    Finally, NMFS' plan to close, seasonally, some areas to 
seismic surveys out to 90 kilometers from shore ignores the 
recent changes in right whale distribution and the fact that 
air gun noise travels many hundreds of kilometers underwater.
    The recent population decline is partly due to deaths from 
entanglements in fishing gear and collisions with ships. It has 
been made worse by low calf numbers. None were born in 2018, 
and only seven have been born this year. Right whale survival 
is entirely dependent upon reducing human-caused mortality and 
eliminating stressors that impact reproduction. Without 
dedicated efforts to reduce the effects of human activities, 
this species is likely to go functionally extinct in about 20 
years.
    Despite all this, the North Atlantic right whale is not 
doomed to extinction. They will adapt to changing conditions, 
find food in new places, and start having calves again. In the 
meantime, we need to stop killing them and disrupting their 
lives.
    In my expert opinion, NOAA's authorization of the seismic 
exploration near the right whale calving ground is a step 
backward. In contrast, NOAA's existing ship speed limit rule 
has definitely reduced ship kills. And I am also pleased that 
NOAA is enhancing efforts to reduce entanglements of right 
whales in fishing gear.
    Minimizing the human causes of right whale deaths and 
reducing stresses that impact right whale health and 
reproduction will help this species move toward population 
recovery.

    [The prepared statement of Dr. Kraus follows:]
   Prepared Statement of Dr. Scott Kraus, Vice President and Senior 
  Science Advisor, Anderson Cabot Center for Ocean Life, New England 
                                Aquarium
    Thanks to Chairman Huffman and Ranking Member McClintock for 
inviting me to testify on the critically important topic of the plight 
of the North Atlantic right whale, among the most endangered baleen 
whales in the world. I am Vice President and Senior Science Advisor in 
the Anderson Cabot Center for Ocean Life at the New England Aquarium. 
The New England Aquarium is a catalyst for global change through public 
engagement, commitment to marine animal conservation, leadership in 
education, innovative scientific research, and effective advocacy for 
vital and vibrant oceans. The Center's mission is to conduct research 
on topics related to ocean health and conservation and to develop 
science-based solutions to marine conservation problems. Before 
assuming my present role, I served for 22 years as the Aquarium's Vice 
President and Director of Research. I am Research Faculty at the 
University of Massachusetts, Boston and am a member of the Marine 
Technology Society, the Marine Mammal Society, and the American 
Association for the Advancement of Science. I have spent almost 40 
years studying the North Atlantic right whale (Eubalaena glacialis), 
publishing more than 80 scientific papers on its distribution, ecology, 
and conservation. My research team curates the North Atlantic Right 
Whale Catalog, a photographic index of nearly every individual right 
whale in the population that is the cornerstone of work in the field. I 
am a Board Member and vice-Chair of the North Atlantic Right Whale 
Consortium, a multi-sector collaborative research and conservation 
effort with partners from government, industry, research institutions, 
and conservation organizations. I am also a member of the Atlantic 
Large Whale Take Reduction Team that the National Marine Fisheries 
Service (NMFS) has convened since 1996 to reduce entanglements of right 
whales and other large whales in fishing gear.
    I am here to testify in support of Federal and state efforts to 
reduce the threats to the North Atlantic right whale. This is among the 
most endangered whales on the planet, with only about 400 individuals 
surviving. Despite almost 50 years of Federal management efforts, the 
stock is now declining rapidly. Why should we care? Protecting right 
whales protects entire ocean ecosystems, including other whales, sea 
turtles, commercial fish species, even plankton. Generally, whales are 
the basis of a large tourist economy on both coasts worth hundreds of 
millions of dollars annually. Whales act as incidental farmers of the 
sea, capturing food at depth and releasing nutrients at the surface, 
thereby fertilizing and supporting the entire marine food chain (Roman 
et al. 2014). This fertilizing function moderates climate change 
(Pershing et al. 2010) and supports the marine productivity that robust 
and economically valuable fisheries depend upon (Lavery et al. 2014; 
Roman et al. 2016). Because whales are mammals like us, they serve as 
an early warning for drastic ecosystem changes in the oceans that will 
damage fisheries and coastal human communities. Finally, whales are 
more like us than most people realize--they have culture, dialects, 
individual voices, family trees, and long-term social structures 
(Whitehead and Rendell 2014). For all of these characteristics, we owe 
them more than treating them as collateral damage in the 
industrialization of the oceans.
    The North Atlantic right whale's life cycle takes it through some 
of the most industrialized, commercially active regions of the North 
Atlantic (Kraus and Rolland 2007). These iconic whales forage largely 
in waters off New England and the Canadian Maritime provinces during 
the spring, summer, and fall, and pregnant females then migrate to 
calving grounds off the southeast U.S. coast during the winter. That 
distribution has exposed them to a suite of anthropogenic stressors, 
including entanglements in fishing gear, collisions with ships, 
disturbance and masking from underwater noise, and pollutants. As 
described further below, these stressors have affected the whales' 
birth and death rates and have impeded their recovery from whaling. 
Without concerted efforts to reduce the effects of human activities, 
this species is likely to go functionally extinct in about 20 years.
    The North Atlantic right whale is a large baleen whale that can 
reach 50 feet in length and weigh as much as 100,000 pounds. They spend 
the warmer months feeding on tiny zooplankton called copepods in the 
coastal and offshore waters of eastern North America. In the late fall, 
pregnant females head south to waters off the Carolinas, Georgia, and 
northern Florida to give birth in the winter, returning north with 
their calves in the spring. Like all large whales, the right whale was 
once hunted for its oil. The species obtained its name from early 
Yankee whalers as the ``right'' whale to kill, because of its high 
yields of oil and baleen, its comparatively slow speed, and its 
tendency to float for some time after death, enabling easy retrieval. 
By the early 1700s, the North Atlantic population had been hunted 
nearly to extinction. However, whalers seeking other species in the 
Atlantic still hunted and killed any right whales encountered, right 
through the early 1900s. The League of Nations barred further killing 
in 1935, a protection that was extended after World War II by the 
International Whaling Commission. It is listed as endangered under the 
U.S. Endangered Species Act and is protected under the Marine Mammal 
Protection Act. According to the most reliable population estimate, an 
estimated 411 were alive at the end of 2017 (Pace et al. 2017; Pettis 
et al. 2018). Based upon the known 2018 right whale deaths, the 
estimated actual deaths, and the lack of calving, it is likely that the 
population at the end of 2018 was just under 400 animals. A total of 
seven calves have been born to date in 2019.
    Right whales experienced some population growth during the 2000s. 
During that decade, they produced an average of about 24 calves each 
year and experienced around 3 known deaths each year from entanglements 
with fishing gear and ship kills (Waring et al. 2006, 2011), resulting 
in an annual increase of about 2.8 percent in population abundance. 
This growth rate was significantly smaller than the annual growth 
observed in many baleen whale populations that have recovered from 
whaling, including that of the Southern right whale, a related species 
that lives in the waters of the Southern Hemisphere (Corkeron et al. 
2018). This period of slow but positive growth for the North Atlantic 
right whale lasted until 2010, when the species entered a state of 
decline. Right whales have now been declining every year for the past 8 
years (Pace et al. 2017). The decline is marked by increasing numbers 
of deaths, reduced calving rates, and poor health condition. All 
scientific evidence indicates that this decline can be attributed 
entirely to human activities. This type of rapid decline in the 
population has not been seen since the period of active right whaling 
prior to 1750 (Reeves et al. 2007).
                          increases in deaths
    During the 5-year period from 2010-2014, human activities killed or 
seriously injured right whales at more than twice the rate observed 
during the previous decade, with known mortalities rising from an 
average of 2.6 to 5.7 incidents per year. The legal threshold required 
to trigger management action for this species under the Marine Mammal 
Protection Act, called the ``potential biological removal level,'' is 
less than one serious injury or mortality per year (Waring et al. 2006, 
2011, 2016). The term ``potential biological removal level,'' or 
``PBR,'' means ``the maximum number of animals, not including natural 
mortalities, which may be removed from a marine mammal stock while 
allowing that stock to reach or maintain its optimum sustainable 
population.'' For the last 20 years, the annual PBR established by the 
NMFS for right whales has been between 0 and 1, and that number has 
been exceeded every year.
    In 2017 and 2018, researchers documented the deaths of 20 right 
whales, nearly 5 percent of the population. Twelve were subjected to 
complete or partial necropsies, and the deaths of all the examined 
whales were due to human causes.
    The actual number of right whale mortalities is likely far greater 
than the unprecedented amount of documented deaths. Since 1980, the 
right whale research team at the New England Aquarium has curated a 
photographic catalog of individuals in the North Atlantic right whale 
population (Hamilton et al. 2007; http://rwcatalog.neaq.org). From 
nearly 40 years of photographic records, it is known that only one-
third of right whales are detected when they die; the rest simply 
disappear from the photographic sightings record. Based on our limited 
ability to detect mortalities, the 20 right whale deaths reported 
during the last 2 years represent fewer than half of the actual losses 
during that time period.
    As a consequence of human-caused mortality, right whale longevity, 
which can exceed 70 years (Hamilton et al. 1998), has dropped to a mere 
30 to 40 years. It is unlikely that right whales die of old age 
anymore.
                            calving declines
    As mortalities in the population have increased, calving rates have 
fallen. During the 1980s and 1990s, North Atlantic right whale females 
had calves every 3 to 5 years. In the 2000s, however, most females 
began producing calves at longer intervals, which are now approaching 
10 years (Pettis et al. 2018). As a consequence, calf numbers over the 
2010-2018 period decreased by 43 percent as compared to the previous 
decade. No calves were born in 2018, and seven were born in 2019 to 
date.
    It is unlikely that the research community has failed to detect 
significant calving activity in undiscovered locations beyond the 
southeastern U.S. continental shelf. As curators of the North Atlantic 
Right Whale Catalog, my research team at the New England Aquarium 
collects photographic data on right whales from hundreds of sources, 
including several other major research institutions along the East 
Coast of the United States, Canada, and Iceland, fishermen, 
recreational boaters, the U.S. Coast Guard, and many others. Aerial 
surveys for this species are regularly flown off Massachusetts, Rhode 
Island, New York, Maryland, Virginia, North Carolina, South Carolina, 
and in the whales' calving grounds off Georgia and northern Florida.
    Breeding females make up an unusually small percentage of the right 
whale population, and as of 2015, only an estimated 105 were alive 
(Pace et al. 2017). Female right whales may be especially vulnerable to 
human impacts because their migration to the calving ground (which 
males rarely make) takes them through the heavily used coastal waters 
of the eastern United States (Caswell et al. 1999; Fujiwara and Caswell 
2001). Females attain sexual maturity around 10 years of age, and human 
activities are now killing them before the age of 40, leaving 
relatively few years for reproduction. Further, female body condition 
is dependent upon high-quality habitat that includes a combination of 
adequate food, quiet conditions for communication, and low levels of 
extrinsic interactions with human activities. Good body condition is 
defined as good health and blubber (fat) reserves, which female whales 
require for ovulation, pregnancy, and especially lactation. Chronic 
stressors can reduce physiological resilience and lower body condition 
over time to the point where it falls below the necessary threshold for 
pregnancy. Health assessments show that many female right whales are in 
poor body condition, falling below the health indicators consistent 
with successful calving (Rolland et al. 2016; Pettis et al. 2017).
                cumulative impacts and chronic stressors
    The right whale is subject to a cumulative impacts problem as its 
survival is threatened by multiple anthropogenic stressors including 
fishing gear entanglements, ship strikes, underwater industrial noise, 
habitat use and climate change, and now also the threat of seismic 
exploration.

    Fishing Gear Entanglements: Right whales are increasingly subject 
to entanglement in fishing gear, particularly in the ropes used by 
lobster and crab fishermen to deploy, mark, and retrieve their traps at 
sea. From 2010-2014, entanglements caused more than four times as many 
right whale deaths and injuries likely to result in death, than during 
the previous 5 years (Kenney 2018; Waring et al. 2011, 2016). 
Additionally, the health consequences of an entanglement can last long 
after the whale is freed. Right whales can have poor body condition and 
are significantly less likely to reproduce for at least 1 year 
following serious entanglement (van der Hoop et al. 2017). This problem 
is widespread. At least 83 percent of all North Atlantic right whales 
have scars from being entangled at least once in their lives, and 59 
percent have been entangled more than once (Knowlton et al. 2012).

    Ship Strikes: Right whales are also killed by collisions with 
ships, as their habitat coincides with a number of major shipping 
routes. Overall, mortalities from ship strikes have decreased over the 
past 15 years (van der Hoop et al. 2015), likely due to several 
successful conservation efforts that included routing changes in the 
Bay of Fundy, Roseway Basin, and Boston shipping lanes that were 
permanently established between 2003 and 2009, and the U.S. adoption, 
in 2008, of a speed regulation for commercial ships along the U.S. East 
Coast. Nonetheless, vessel collisions continue to account for right 
whale deaths including, in 2017, one lethal strike reported off 
Massachusetts and four in the Gulf of St. Lawrence.

    Habitat Use and Climate Change: Recent changes in right whale 
health and habitat changes have been associated with climate change, 
through changes in oceanographic conditions and in the distribution and 
abundance of their prey species (Record et al. in press). Since 2010, 
right whales have been distributed less predictably, including year-
round occurrences in southeastern United States and mid-Atlantic 
coastal waters, aggregations in the winter and spring south of Cape Cod 
(Leiter et al, 2018), and sightings and recordings of right whales on 
the continental shelf edge during the summer months (June and July) and 
as far south as Georgia (Hodge et al. 2015; Salisbury et al. 2015). 
Acoustic detections off the southeastern United States have documented 
small numbers of right whales in the area from August through October 
(Davis et al. 2017). Right whale sightings have occurred in Bermuda, 
the Azores, and the Canaries, indicating that the species occasionally 
travels into deep, warm waters well beyond the continental shelf. 
Further, pregnant right whales may give birth south of Cape Hatteras 
while on southward migration, or go offshore to give birth before 
returning to coastal habitat in the southeast (Zani et al. in prep). 
The historical thinking about seasonal movements of right whales no 
longer applies, as new aggregation areas are being identified and 
``traditional'' ones are being used differently.

    Underwater Industrial Noise: Underwater noise constitutes another 
serious, demonstrated stressor on the population (see section on 
Seismic Exploration below). Due to shipping noise, right whales have 
lost much of their ability to communicate over long distances (Hatch et 
al. 2012). Additionally, the broadband noise produced by shipping 
traffic has been shown to induce chronic physiological stress in right 
whales (Rolland et al. 2012). That result is consistent with data on 
the effects of noise on numerous other species (Romero and Butler 
2007). Chronic stress increases vulnerability to disease and causes 
increased mortality and compromised reproduction across a wide variety 
of mammals. Right whales are exposed to widespread shipping, dredging, 
pile-driving and other industrial noises, which are impairing 
communication, food finding, and reproduction (Hatch et al., 2012).

    Seismic Exploration: In November 2018, NMFS issued five separate 
incidental harassment authorizations (IHAs) to incidentally harass 
marine mammals during geophysical survey activities in the Atlantic 
Ocean. The authorized seismic surveys will involve multiple vessels 
operating simultaneously, each for periods of months, producing chronic 
noise that will propagate hundreds of kilometers and raise ambient 
noise levels throughout right whale habitat. Since shipping noise 
demonstrably increases the stress response in right whales (Rolland et 
al. 2012), it is likely that constant exposure to seismic airgun noise, 
which is much louder than ship noise, will increase chronic stress in 
this species. Chronic stress in all mammals (including humans) reduces 
immune and endocrine function, negatively affecting reproduction and 
disease resistance (Romero and Butler 2007). This is an impact that 
this critically endangered species cannot tolerate. Many adult female 
right whales now have health scores that are just above the threshold 
of reproductive success (Rolland et al. 2016), suggesting that any 
additional stressors that reduce body condition will push them below 
any ability to reproduce. Low health scores are also associated with 
lower probabilities of survival. The authorized seismic surveys would 
reduce fitness in these already health-compromised animals, reducing 
survival and reproduction and pushing the population increasingly 
toward extinction.
NMFS Biological Opinion on Seismic Impacts to Right Whales was Flawed:

    Before issuing the IHAs, NMFS developed both a Biological Opinion 
and an IHA notice that included an impact analysis. This analysis was 
inadequate and contained significant flaws in both fact and 
interpretation as follows.

    (1) NMFS bases its impact analysis on a cetacean abundance model by 
Roberts et al. (2017). This model maps the distribution and density of 
whale, dolphin, and porpoise populations along the U.S. East Coast and 
in the northern Gulf of Mexico. While the model represents an advance 
over earlier efforts for many species, it does not incorporate much of 
the recent data on right whale occurrence that demonstrates their 
extended use of habitats in the mid-Atlantic and Southeast. Because of 
the distance sampling constraints of the data selection, the model does 
not take account of numerous opportunistic sightings and systematic 
acoustic detections in the mid-Atlantic and Southeast regions. 
Moreover, very little systematic distance sampling survey effort has 
occurred beyond the whales' designated critical habitat, an area 
covering only a small portion of the continental shelf. As a result, 
the model is likely to underestimate right whale distribution beyond 
surveyed areas within 40 miles from shore.

    (2) Any credible environmental analysis must consider the 
cumulative acoustic impacts of the five authorized seismic surveys in 
the context of the right whale's current conservation status and all 
factors impacting the population. The addition of seismic exploration 
as another significant stressor on the most vulnerable segment of the 
population, reproductive females and their calves, was considered in 
isolation from all other stressors listed above.

    (3) Seismic exploration is likely to increase ambient noise levels 
across the entire continental shelf, which may interfere with mother 
and calf communication, increasing risk for calf survival. In calving 
grounds off the southeastern United States and in the migratory 
corridor, seismic noise would increase the probability that right whale 
mothers and calves could get separated by disrupting their ability to 
hear one another. Recent studies show that mother-calf pairs 
communicate with very low-amplitude calls (Parks et al. 2018; Cusano, 
et al. 2018), which will be vulnerable to interference or masking from 
small increases in ambient noise (Clark et al. 2009). Even short-term 
separation is a risk for calves, primarily from shark predation (Taylor 
et al. 2012).

    (4) Seismic noise could displace right whale mothers from their 
primary calving grounds, leading them to give birth in sub-optimal 
habitat where newborn survival is compromised. It is likely that the 
combination of bathymetry and temperature in the coastal waters of the 
southeastern United States are critical to right whale calving. While 
NMFS asserts, in its notice supporting the present authorizations, that 
marine mammals displaced by seismic exploration may ``seek temporary 
viable habitat elsewhere,'' habitat suitable for right whale calving is 
limited. Given the hundreds of kilometer range of seismic noise 
propagation, it is certain that the authorized surveys, which combined 
represent about 850 ship days of active airgun use in a single year, 
would compromise large areas of right whale habitat for calving and 
other purposes.

    (5) NMFS' assertion that the behavioral effects of the authorized 
surveys will be ``transient'' is not biologically defensible. There is 
strong evidence that seismic airgun noise directly alters the behavior 
of baleen whales, including vocalization behavior associated with 
migration, feeding, and other functions, at low received sound pressure 
levels and at distances of tens to hundreds of kilometers from the 
airgun source (e.g., Blackwell et al. 2015; Castellote et al. 2012). 
Additionally, seismic airguns can mask baleen whale vocalizations, 
reducing the whales' communication space and compromising their 
behavior, at scales of hundreds to thousands of kilometers (e.g., 
Estabrook et al. 2016; Nieukirk et al. 2012). Given the amount of 
seismic airgun activity that NMFS has authorized and its range of 
influence, important right whale behavioral patterns will be disrupted 
frequently and repeatedly.

    (6) NMFS has prescribed a seasonal closure of coastal waters out to 
90 kilometers. This ignores recent changes in distribution as right 
whales are now occurring further offshore, beyond NMFS' closure area 
and outside the putative migratory season during times of year when the 
closure does not apply (Davis et al. 2017) (see Habitat Use and Climate 
Change section above). This also ignores the way airgun noise spreads 
for hundreds of kilometers, making the 90 kilometer exclusion zone 
biologically meaningless.
         right whale status and management options for recovery
    In conclusion, the North Atlantic right whale is among the most 
endangered whales on the planet, with about 400 individuals remaining, 
including about 100 breeding females. Despite almost 50 years of 
Federal management efforts, the stock is now declining rapidly. This 
decline is linked largely to mortality from entanglements in fishing 
gear and from vessel collisions. It is exacerbated by low calving 
rates, which are probably due to the sublethal effects of by 
entanglements, underwater noise, and food availability. These combined 
effects are likely to reduce body condition and health in all exposed 
right whales and will have negative effects on reproduction and 
survival. The efforts currently underway to reduce accidental killing 
of right whales by ships and fishing gear must be matched with 
appropriate protections for reproductive females and their calves off 
the mid-Atlantic and southeastern United States.
    The recent decline in calving rates does not mean that the right 
whale population is doomed to extinction. Mammalian females of all 
species slow or stop reproduction when environmental conditions are 
poor and wait to have offspring when conditions improve. This species 
can adapt to changing conditions, will find food sources in new places, 
and start having calves again at rates that can maintain and grow the 
population. However, North Atlantic right whales do not have the 
capacity to sustain high death rates for long. For this species to 
recover, it is critical for managers to prevent human-caused mortality 
and eliminate those stressors in their ocean habitats that reduce 
individual whale health. For all of these reasons, the New England 
Aquarium is opposed to NOAA's issuance of the five IHAs for seismic 
exploration. However, we support NOAA's existing ship speed rule, and 
recommend that NOAA urgently enhance its efforts to reduce the 
entanglements of right whales in fixed fishing gear. We also support 
NOAA's work on reducing shipping noise and other noise in the ocean, as 
well as the many Federal and state efforts to reduce pollution of all 
kinds in the sea. Reducing the human causes of right whale deaths, and 
reducing sub-lethal stressors that reduce whale health, will allow this 
species time to adapt to its new environmental conditions and begin the 
road to population recovery.
                            references cited
Blackwell, S.B., et al. 2015. Effects of airgun sounds on bowhead whale 
calling rates: Evidence for two behavioral thresholds. 10(6) PLoS ONE 
e0125720.doi:10.1371/journal.pone.0125720.

Castellote, M., C.W. Clark, and M.O. Lammers. 2012. Acoustic and 
behavioural changes by fin whales (Balaenoptera physalus) in response 
to shipping and airgun noise. 147 Biol. Conserv. 115-22.

Caswell, H., M. Fujiwara, and S. Brault. 1999. Declining survival 
probability threatens the North Atlantic right whale. 96 Proceedings 
Nat'l Acad. Sci., Population Biol. 3308-13.

Clark, C.W., et al. 2009. Acoustic masking in marine ecosystems: 
Intuitions, analysis, and implication. 395 Mar. Ecol. Prog. Ser. 201-
222.

Corkeron, P., et al. 2018. The recovery of North Atlantic right whales, 
Eubalaena glacialis, has been constrained by human-caused mortality. 5 
R. Soc. Open Sci. 180892.

Cusano, D.A., et al. 2018. Implementing conservation measures for the 
North Atlantic right whale: Considering the behavioral ontogeny of 
mother-calf pairs. Animal Conserv. __. DOI:10.1111/acv.12457.

Davis, G.E., et al. 2017. Long-term passive acoustic recordings track 
the changing distribution of North Atlantic right whales (Eubalaena 
glacialis) from 2004 to 2014. 7 Sci. Reports 13460. DOI:10.1038/s41598-
017-13359-3.

Estabrook, B.J., et al. 2016. Widespread spatial and temporal extent of 
anthropogenic noise across the northeastern Gulf of Mexico shelf 
ecosystem. 30 Endangered Species Res. 267-382.

Fujiwara, M., and H. Caswell. 2001. Demography of the endangered North 
Atlantic right whale, 414 Nature 537-541.

Hamilton, P.K., Knowlton, A.R., and Marx, M.K. 2007. Right Whales Tell 
Their Own Stories: The Photo-Identification Catalog. In Kraus, SD and 
Rolland, RM (eds). The Urban Whale: North Atlantic Right Whales at the 
Crossroads. Harvard University Press. 514 pp.

Hamilton, P.K., et al. 1998. Age structure and longevity in North 
Atlantic right whales (Eubalaena glacialis) and their relation to 
reproduction. 171 Mar. Ecol. Prog. Ser. 285-92.

Hatch, L.T., et al. 2012. Quantifying loss of acoustic communication 
space for right whales in and around a U.S. National Marine Sanctuary. 
26 Conserv. Biol. 983-94.

Hodge, K.B., et al. 2015. North Atlantic right whale occurrence near 
wind energy areas along the mid-Atlantic US coast: implications for 
management. 28 Endangered Species Res. 225-234.

Kenney, R.D. 2018. What if there were no fishing? North Atlantic right 
whale population trajectories without entanglement mortality. 37 
Endangered Species Res. 233-237.

Knowlton, A.R., et al. 2012. Monitoring North Atlantic right whale 
Eubalaena glacialis entanglement rates: A 30 yr retrospective. 466 Mar. 
Ecol. Prog. Ser. 293-302.

Kraus, S.D., and R.M. Rolland, eds. 2007. The Urban Whale: North 
Atlantic Right Whales at the Crossroads.

Lavery, T. J., et al. 2014. Whales sustain fisheries: Blue whales 
stimulate primary production in the Southern Ocean. Mar Mam Sci, 
30:888-904. doi:10.1111/mms.12108.

Leiter, S.M., et al. 2017. North Atlantic right whale Eubalaena 
glacialis occurrence in offshore wind energy areas near Massachusetts 
and Rhode Island, USA. 34 Endangered Species Res. 45-59.

New England Aquarium. 2018. North Atlantic Right Whale Catalog. http://
rwcatalog.neaq.org.

Nieukirk, S.L., et al. 2012. Sounds from airguns and fin whales 
recorded in the mid-Atlantic Ocean, 1999-2009. 131 J. Acoust. Soc'y 
Amer. 1102-1112.

Pace, R.M. III, P.J. Corkeron, and S.D. Kraus. 2017. State space mark-
recapture estimates reveal a recent decline in abundance of North 
Atlantic right whales. Ecol. and Evol. 1-12. DOI: 10.1002/ece3.3406.

Parks, S.E., et al. 2018. Low amplitude acoustic communication of North 
Atlantic right whale mother-calf pairs on the calving grounds. 
Presentation to the North Atlantic Right Whale Consortium, Nov. 2018.

Pershing A.J., et al. 2010. The Impact of Whaling on the Ocean Carbon 
Cycle: Why Bigger Was Better. PLoS ONE 5(8): e12444.doi:10.1371/
journal.pone.0012444.

Pettis, H.M., et al. 2018. North Atlantic Right Whale Consortium 2018 
Annual Report Card. Report to the North Atlantic Right Whale 
Consortium.

Pettis, H.M., et al. 2017. Body condition changes arising from natural 
factors and fishing gear entanglements in North Atlantic right whales 
Eubalaena glacialis. 32 Endangered Species Res. 237-249.

Record, N.R., et al. Rapid climate-driven circulation changes threaten 
conservation of endangered North Atlantic right whales. Oceanography, 
In press.

Reeves, R.R, Smith, T.D., and E.A. Josephson. 2007. Near annihilation 
of a species: Right whaling in the North Atlantic. In Kraus, S.D., and 
R.M. Rolland, eds. The Urban Whale: North Atlantic Right Whales at the 
Crossroads, at 39-74.

Roberts, J.J., L. Mannocci, and P.N. Halpin. 2017. Final project 
report: Marine species density data gap assessments and update for the 
AFTT Study Area, 2016-2017 (Opt. Year 1). Report prepared for Naval 
Facilities Engineering Command, Atlantic.

Rolland, R.M., et al. 2012. Evidence that ship noise increases stress 
in right whales. 279 Proceedings Royal Soc'y B 2363-68.

Rolland, R.M., et al. 2016. Health of North Atlantic right whales 
Eubalaena glacialis over three decades: From individual health to 
demographic and population health trends. 542 Mar. Ecol. Prog. Ser. 
265-282.

Roman J., et al. 2016. Endangered Right Whales Enhance Primary 
Productivity in the Bay of Fundy. PLoS ONE 11(6):e0156553. doi:10.1371/
journal.pone.0156553.

Roman, J., et al. 2014. Whales as marine ecosystem engineers. Frontiers 
in Ecology and the Environment, 12: 377-385. doi:10.1890/130220.

Romero, M.L., and L.K. Butler. 2007. Endocrinology of stress. 20 Int'l 
J. Comp. Psychol. 89-95.

Salisbury, D.P., C.W. Clark, and A.N. Rice. 2015. Right whale 
occurrence in the coastal waters of Virginia, U.S.A.: Endangered 
species presence in a rapidly developing energy market. 32 Mar. Mammal 
Sci. 508-519.

Taylor, J.K.D., et al. 2012. Shark predation on North Atlantic right 
whales (Eubalaena glacialis) in the southeastern United States calving 
ground. 29 Mar. Mamm. Sci. 204-212.

van der Hoop, J., P. Corkeron, and M. Moore. 2017. Entanglement is a 
costly life-history stage in large whales. 7 Ecol. and Evol. 92-106.

van der Hoop, J.M., et al. 2015. Vessel strikes to large whales before 
and after the 2008 ship strike rule. 8 Conserv. Lett. 24-32.

Waring, G.T., et al. 2006. U.S. Atlantic and Gulf of Mexico Marine 
Mammal Stock Assessments--2005. NOAA Tech. Memo. NMFS-NE-194.

Waring, G.T., et al. 2011. U.S. Atlantic and Gulf of Mexico Marine 
Mammal Stock Assessments--2010. NOAA Tech. Memo. NMFS-NE-219.

Waring, G.T., et al. 2016. U.S. Atlantic and Gulf of Mexico Marine 
Mammal Stock Assessments--2015. NOAA Tech. Memo. NMFS-NE-238.

Whitehead, H. and Rendell, L. 2014. The cultural lives of whales and 
dolphins. University of Chicago Press.

Zani, et al. In prep. The timing and location of calving in the North 
Atlantic right whale (Eubalaena glacialis): Does their pre-calving 
sighting gap point to birth location?

                                 ______
                                 

 Questions Submitted for the Record to Dr. Scott Kraus, Vice President 
 and Senior Science Advisor, Anderson Cabot Center for Ocean Life, New 
                            England Aquarium
                  Question Submitted by Rep. Lowenthal
    Question 1. Dr. Kraus, both offshore drilling and wind farm 
development require seismic surveys. Are the impacts on North Atlantic 
right whales the same for both forms of development? Do we have a 
reason to be more concerned about the seismic surveys required for 
offshore gas and oil development?

    Answer. There are two fundamental differences between the seismic 
methods used for oil and gas, and those used for assessing pile driving 
options for wind farms. One, airgun arrays used for oil and gas 
exploration produce sound with source levels typically between 240 and 
260 db. Wind farm companies only need to know what is beneath the ocean 
floor down to a depth of perhaps 50 meters, so their systems use much 
less power, typically with source levels of 210-220 db at 1 m. This 
means the spread of the sound is orders of magnitude less than seismic 
for oil and gas. Second, wind farm companies generally lease small 
areas of sea floor, so a geotechnical survey of their area of interest 
is much more limited in scale and time than the broadscale surveys for 
oil and gas. Put another way, these surveys are relatively short term 
in duration (a couple of months at most), and their acoustic impact 
will be on the order of kilometers, as opposed to hundreds of 
kilometers for oil and gas exploration seismic sounds.

                                 ______
                                 

    Mr. Huffman. Thank you, Dr. Kraus.
    Next is Dr. Burnett.

    STATEMENT OF DR. H. STERLING BURNETT, SENIOR FELLOW AND 
  MANAGING EDITOR, ENVIRONMENT & CLIMATE NEWS, THE HEARTLAND 
                   INSTITUTE, ROWLETT, TEXAS

    Dr. Burnett. Thank you, Chairman Huffman, Ranking Member 
McClintock, and the other distinguished members of the 
Committee for inviting me to speak today.
    I want to say at the outset, we all recognize that energy 
is a fundamental building block of modern society. And fossil 
fuels, it is just a fact, now and for the foreseeable future, 
will provide the lion's share of that energy. The question is, 
where will we get that energy from going forward? And at what 
cost?
    My background--I am not a scientist. I am not an expert in 
right whales. I am a philosopher. I do philosophy of science. 
Environmental ethics, my training, is to follow the argument 
where it goes. But my training in applied philosophy says that 
your values, your choices you make, should be informed by 
facts, by data.
    Good science, good laws, good public policy, all depend on 
good data. And good data is precisely what we lack concerning 
how much oil and gas exists off the Atlantic Coast, where it is 
located, in what volumes and what formations. It has been 40 
years.
    And while it is certainly true that many governors on the 
East Coast object to oil and gas drilling, they are making 
decisions for them and future governors in ignorance. They are 
making these decisions with their eyes blinded because we don't 
have the data. They cannot make an informed decision because we 
don't know how much is there, so how much they would be 
forgoing.
    It may be the case that good data will show the Atlantic 
outer continental shelf contains so little, or so widely 
dispersed--not captured in large, appreciable volumes--that it 
would support their decisions and it would make it easy because 
oil companies just will not want to go out there. And at 
current prices, they probably don't want to go out there.
    Alternatively, an updated, accurate assessment with the 
newest technology could show vast volumes and may change their 
or future governors' minds, especially when the next recession 
comes, and we know recessions will come, and their budgets are 
strained, and they are figuring out a way to pay for their 
education, pay for their roads, pay for other things. But 
regardless, they should make these decisions not on outdated 
data, not on poor science, but on the best available science. 
And that requires new testing, comprehensive testing.
    Threats to whales consist of, well, nature, in part. They 
start from a low population size, even a lower fertile breeding 
population of females. They are slow to reproduce. And then 
they face all the human threats. The dominant ones--and I will 
not go into it but we all know from testimony earlier today--
the dominant ones are vessel strikes and entanglement. I don't 
know it is the case, but I wonder if pollution, plastics 
pollution in the ocean, might also be contributing to that. If 
so, tourism then is contributing to whale struggles.
    I keep hearing the concern about offshore seismic testing. 
But I do not hear the same concern concerning offshore seismic 
testing for wind turbines, hundreds of which will have to be 
located precisely--not a few dispersed over large areas of the 
ocean, but hundreds of which in concentrated areas of the ocean 
right along the migration routes--with the same seismic 
testing.
    I don't know if the SAVE Right Whales Act--I have not had a 
chance to review it--deals with just seismic testing for oil 
and gas, or if it deals with all seismic testing. But if it 
doesn't deal with all seismic testing, then it is dishonest. It 
is just against oil and gas. It is not about the right whales; 
it is about oil and gas because protecting the right whales 
would demand the same thing for wind farms.
    I note that just a month ago, you had a woman from the 
Massachusetts Lobstermen's Association testify, and she spent 
three paragraphs in her testimony talking about the threats 
from wind farms to the fishing industry and a paragraph 
concerning right whales. She spent one paragraph concerning oil 
spills for the oil industry. So, she certainly sees it as a 
bigger threat. But no one seems to be addressing that, or care.
    I will stop there.

    [The prepared statement of Dr. Burnett follows:]
  Prepared Statement of H. Sterling Burnett, Ph.D. Senior Fellow, The 
                          Heartland Institute
    Chairman Huffman, Ranking Member McClintock, and other members of 
the Subcommittee: Thank you for the opportunity to testify concerning 
the need to accurately assess the potential oil and gas deposits 
beneath the U.S. Atlantic Outer Continental Shelf (OCS) and the 
purported threat a comprehensive survey of the region might pose to the 
North Atlantic Right whale (hereafter called ``right whale'').
    My name is Harold Sterling Burnett. I am a senior fellow with The 
Heartland Institute, where I also serve as managing editor of 
Environment & Climate News. I won't bore you with my entire vitae, 
which you have already received, other than to say I have a Ph.D. in 
applied philosophy, with a specialization in environmental ethics, from 
Bowling Green State University.
    I have been conducting energy and environmental policy work at 
various think tanks, as well as in the field, part-time since 1987 and 
full-time since 1996. The views I express in this testimony are my own 
and should not be construed as necessarily representing any official 
position of The Heartland Institute.
    Energy is the fundamental building block of modern society. Fossil 
fuels service the lion's share of the world's energy needs, including 
in the United States. Numerous reports by the International Energy 
Agency and Energy Information Administration confirm fossil fuels will 
continue to make up more than 80 percent of the world's primary energy 
base in 2050.
    With this in mind, the most important questions are: Where will the 
United States get its share of that energy, and at what cost?
    President Donald Trump has provided his answer to the former 
question as part of his America First Energy Plan. The Trump 
administration aims to pursue energy dominance by encouraging the 
development of all forms of domestic energy production and to minimize 
the United States' dependence on foreign sources of critical energy 
supplies.
    As part of that effort, President Trump revised a 5-year energy and 
gas leasing program imposed under the Obama administration that barred 
oil and gas development in most, if not all, of the Atlantic OCS. 
Toward the end of the Obama administration, it also denied permits for 
seismic surveying in the Atlantic area.
    The Trump administration has proposed replacing the Obama 
administration's 2017-22 plan with a modified 2019-24 plan, including a 
reversal of the decision to prevent seismic surveying.
    While I applaud President Trump's commitment to putting America and 
its energy needs first, it should be recognized that a survey of the 
Atlantic OCS is not necessarily a prelude to wholescale oil and gas 
production, but rather an information-gathering exercise.
    Good data and facts are critical to the development of good 
decision making, science, and public policy. I often hear lawmakers 
claim when advocating for a new policy proposal, ``We should follow the 
science.'' But science doesn't fall like received wisdom from Heaven; 
it requires extensive research and effort.
    Before America's political and private sector leaders can make 
informed decisions concerning the relative benefits and costs of oil 
and gas exploration or production, the government, taxpayers, and oil 
and gas companies must have a better understanding of how much oil and 
gas might be available and what it would cost to develop it.
    We currently lack reliable data for the Atlantic OCS. It's been 
more than 40 years since the most recent comprehensive Atlantic Coast 
geological seismic survey was conducted, and seismic survey technology 
has improved considerably since then. It has become more effective and 
less invasive. Because it has been so long since a survey has been 
completed, we have a limited, outdated understanding of the natural gas 
and oil resources located off the U.S. Atlantic seaboard. An updated 
OCS survey is long overdue.
    Extensive data might, once fully gathered, show the Atlantic OCS 
contains so little or so widely dispersed potential oil and gas that 
oil companies would not find it worthwhile to explore the region. 
Perhaps it would lead policy makers to conclude the potential benefits 
are outweighed by the risks.
    Alternatively, an updated seismic survey might discover the 
potential for billions of barrels of recoverable oil and trillions of 
cubic feet of natural gas. In that were to occur, the Trump 
administration, governors of potentially affected states, and Federal 
and state legislators would be able to accurately consider, with open 
eyes, the potential benefits and costs of exploration.
    Some have expressed concern seismic surveying would result in 
serious ecological damage, including harm to whales and other marine 
life. However, the National Marine Fisheries Service (NMFS), the agency 
charged with, among other things, protecting marine species, has 
concluded seismic surveying poses no significant threat to marine life. 
In 2014, under the Obama administration, NMFS stated, ``To date, there 
is no evidence that serious injury, death, or stranding by marine 
mammals can occur from exposure to airgun pulses, even in the case of 
large airgun arrays.''
    A 2014 report from the chief environmental officer of the 
Department of the Interior's Bureau of Ocean Energy Management came to 
the same conclusion, stating: ``To date, there has been no documented 
scientific evidence of noise from airguns used in geological and 
geophysical seismic activities adversely affecting marine animal 
populations or coastal communities.''
    More recently, in 2017, the Lamont-Doherty Earth Observatory 
(associated with Columbia University) conducted a seismic survey off 
the coast of North Carolina to map plate tectonics, using the same type 
of ships and equipment oil and gas mapping would require. This seismic 
survey went forward without any objections that I am aware of, even 
though it covered a larger area than testing for oil and gas off the 
coast of North Carolina would. Research indicates a fossil fuel survey 
would cover just 10-50 miles, compared to 2-200 miles for the Lamont-
Doherty survey. Further, the Lamont-Doherty seismic survey sent out 
much stronger signals that traveled deeper into the ocean bed.
    Despite the larger scale of the Lamont-Doherty survey, a study by 
the National Science Foundation concluded the survey caused no 
consequential harm to the ocean's wildlife or the ecosystem.
    It's also worth noting many of the same people and groups objecting 
to an oil-and-gas-related seismic survey because it would harm the 
right whale have not expressed similar objections to the seismic 
surveys that would have to be conducted to erect the huge, much more 
extensive and interconnected offshore wind farms proposed for placement 
in right whale migration routes and breeding grounds.
    An exception to my previous statement was included in testimony to 
this very Committee on February 7, when Beth Casoni, executive director 
of the Massachusetts Lobstermen's Association, provided a single-
paragraph warning of the potential harms posed by offshore oil and gas 
development to fisheries and whales. She devoted three paragraphs to 
providing warnings of the dangers to the fishing industry and right 
whales from offshore wind turbines. If seismic surveys are dangerous to 
North Atlantic right whales, why should renewable energy companies be 
permitted to site offshore wind turbines?
    There are anthropogenic threats to the right whale, but offshore 
oil and gas production and seismic testing are not foremost among them. 
Shipping vessel strikes account for the largest percentage of human-
caused right whale mortality. Entanglement in floating fishing lines 
also accounts for many injuries and deaths. One study estimated 
approximately 85 percent of right whales have entanglement scars. 
Further, a Canadian estimates shipping strikes and entanglement have 
accounted for nearly 50 percent of all known right whale deaths since 
1970. Plastics in the ocean are another potential source of harm.
    Interestingly, the development of oil and gas for use as fuel might 
actually have contributed to saving the right whale and a few other 
whale species from extinction. History shows the greatest threat to 
whale survival ever recorded was the whaling conducted by humans to 
render blubber down to whale oil for use in lamps and for other uses. 
The right whale got its name because it was the ``right'' whale to kill 
for its blubber, which could be rendered into whale oil and other 
products. The advent of the fossil fuel industry saved whales from 
extinction, because the world quickly replaced whale oil with kerosene 
and other petroleum products.
    One final objection I wish to address is that some say because the 
world is awash with oil and gas and prices are so low, we don't need to 
survey or explore new offshore areas. It's true that it takes years 
from the time offshore surveys are conducted to when leases are 
offered, areas are explored, and production takes place. As much as a 
decade can pass from survey to production.
    In the past, I've debated people who said during periods of high 
prices, we don't need to explore for new offshore oil and gas regions 
because it would take 10 years to develop, and by then, the crisis will 
pass. To that, I say, ``Let's get ahead of the curve and prepare for 
the next shortage.'' One thing we can be fairly certain of is oil and 
gas supplies won't always be so abundant and prices so low. The best 
hedge against future high prices is to know where to go to exploit 
future oil and gas reserves, as well as how much exists.
    Historically, physical and political restrictions have limited 
supplies of these two critical resources, causing price spikes that 
rippled throughout the U.S. economy, harming businesses and consumers. 
By conducting a comprehensive survey now, industry can hit the ground 
running to produce new supplies when limited supplies and high prices 
make such development economically worthwhile, and when the same 
factors incentivize political leaders to support production.
    Further, and this is just speculation, the fracking revolution that 
so many of the same people who object to offshore oil and gas 
exploration decry might partly have resulted from the absence of an up-
to-date survey of OCS reserves and restrictions on OCS production 
outside the Gulf of Mexico.
    Fracking is largely responsible for the economic recovery that 
began late in the Obama administration, as the oil and gas industry was 
responsible for an outsized proportion of the growth in employment. 
Lower energy prices, provided in large part by fracking, have also 
helped mom and pop businesses and large companies alike to compete with 
global competitors, and they have helped to bring back the chemical 
production and refining industry to America's shores.
    Modern fracking required the development of technological 
innovations and new techniques that might not have been sought or 
developed had offshore oil and gas mapping, exploration, and production 
been shuttered outside the Gulf of Mexico. If permitted, industry might 
have used existing deep-water drilling technologies to develop OCS oil 
and gas reserves, rather than seeking new techniques to exploit 
additional reserves on land.
    In closing, thank you all once again for the opportunity to testify 
concerning this important issue. I look forward to any questions you 
might have regarding my testimony.

                                 ______
                                 

    Mr. Huffman. I thank the gentleman.
    Dr. Clark, you are recognized for 5 minutes.

   STATEMENT OF DR. CHRIS CLARK, SENIOR SCIENTIST, RESEARCH 
        PROFESSOR, CORNELL UNIVERSITY, ITHACA, NEW YORK

    Dr. Clark. I thank Chairman Huffman and Ranking Member 
McClintock for inviting me to testify on behalf of North 
Atlantic right whales and the potential impacts of noise from 
seismic air gun surveys on this highly endangered population.
    Like Scott and Dr. Kraus, I have been studying right whales 
a long time, since 1973. And scientific studies over these last 
four to five decades have confirmed that baleen whales, 
including North Atlantic right whales, produce an extraordinary 
variety of sounds which they use for all types of critical life 
functions, such as communicating, navigating, mating, and 
maintaining social bonds such as those between mothers and 
calves.
    There is also compelling evidence that baleen whales, 
including North Atlantic right whales, have excellent low-
frequency hearing. The low-frequency, extremely loud explosions 
produced by seismic air guns fall right on top of that 
frequency range in which right whales produce these sounds.
    Right whales are highly dependent on contact calls, a means 
of maintaining social contact and coming together in social 
groups. Mothers and calves use very soft calls to maintain 
close proximity in order for the calf to nurse and increase the 
chances of a mother protecting her calf from killer whales and 
sharks.
    These interactions are dependent on listening for and 
recognizing sounds under naturally quiet conditions. Research 
has shown that right whales produce contact calls and counter-
calls in every location along the East Coast where we have 
listened. Calling whales are detected throughout the year in 
regions and at times of year when they were not expected to 
occur--in some cases, as far out as the continental shelf 
break. That is 90 to 150 kilometers offshore.
    Why am I so absolutely certain that the noise from the 
seismic air gun arrays will jeopardize and increase the risk of 
harm to North Atlantic right whales? Noise from seismic air gun 
explorations has been detected throughout the North Atlantic, 
and are essentially everywhere. We have heard air guns even 
when the seismic surveys were conducted far, far away from the 
recorders.
    I am talking about recording them on the eastern U.S. coast 
to systematic explosions off Canada, 1,200 kilometers away; 
French Guiana, 3,800 kilometers away; and Western Ireland, 
5,000 kilometers away. Explosions off Virginia will propagate 
into the waters off New Jersey, New York, Rhode Island, and 
elsewhere.
    Because these surveys occur in distant places and influence 
the ocean's acoustic environment over such enormous areas--
these are areas of many hundreds of thousands of kilometers 
squared--and temporal scales--years on end--assessing the full 
scale of this chronic impact is challenging. But I am convinced 
that the most critical impacts are chronic, not acute.
    My deep concern about seismic impacts on right whales comes 
from responses of bowhead whales, a close relative, to seismic 
surveys. Susannah Blackwell and her colleagues have shown that 
bowhead whale calling rates increase as soon as air gun pulses 
were detected, then plateaued as increased received levels 
occurred, began decreasing as received levels continued to 
rise, and then ceased entirely at higher levels. In other 
words, the whales initially adapt to the noise, and then 
eventually just give up.
    In my opinion, this significant and consistent response by 
an endangered species to seismic air gun arrays is alarming 
given that none of the proposed monitoring or mitigation 
actions proposed for North Atlantic right whales can determine 
whether or not right whales modify their calling behavior from 
the proposed seismic activities, and the inability to observe a 
response is not evidence of no response.
    Right whales as well as many marine animals are dependent 
upon a natural quiet ocean for basic life functions. Seismic 
air gun arrays off the East Coast will significantly change 
that acoustic ecosystem. We know that the sounds from seismic 
air gun arrays propagate and change the acoustic environment 
through enormous areas.
    We know that a close relative of right whales, the bowhead 
whale, starts to react to seismic noise at extraordinarily low 
levels and continues reacting until whales stop communicating 
altogether. The level of seismic air gun activity authorized by 
NMFS is irresponsible and likely to cause significant impacts 
on right whale acoustic behavior.
    For right whales, such changes could likely increase 
mother-calf separations, decrease acoustic communication 
between whales, and influence acoustic behaviors that are 
essential for maintaining the population's social cohesion and 
integrity.
    Thank you very much.

    [The prepared statement of Dr. Clark follows:]
             Prepared Statement of Dr. Christopher W. Clark
    Thanks to Chairman Huffman and Ranking Member McClintock for 
inviting me to testify on the critically important topic of North 
Atlantic right whale and the potential impacts of noise from seismic 
airgun surveys on this highly endangered population. I am a biologist 
and engineer and the founding Director of the Bioacoustics Research 
Program (BRP) at the Cornell Lab of Ornithology, and the Imogene 
Johnson Senior Scientist in BRP and Graduate Professor in the 
Department of Neurobiology & Behavior at Cornell University. I have a 
long history of successfully working at the interface between science, 
applied engineering, industry, and regulations; all with the specific 
objectives of using science to understand the potential impacts of 
human activities on marine mammals and to inspire and enable the 
scientific conservation of marine wildlife and habitats. I was the 
Chief Marine Mammal Scientist for the U.S. Navy's Whales 1993 dual-uses 
program, co-PI for the Low-Frequency Active Scientific Research Program 
(LFA-SRP), co-PI investigating the impacts of the Navy's mid-frequency 
active sonar on beaked whales, and lead the development and application 
of the near-real-time, auto-detection network for North Atlantic right 
whale acoustic monitoring in Boston shipping lanes (http://
admin.nrwbuoys.org/, http://www.listenforwhales.org/). Up until my 
retirement from Cornell in December 2018, my research areas focus on 
the potential chronic influence of cumulative man-made noise sources on 
marine mammal distributions and behaviors. I remain deeply concerned 
about the continued loss of marine animal acoustic habitats as a result 
of multiple anthropogenic noise sources operating over large scales for 
extended periods of time. In collaboration with a small group of 
experts I am working to develop a new, ecologically based paradigm for 
evaluating and measuring biological risks from anthropogenic activities 
at individual and population levels.
    Baleen whales are known for their remarkable abilities to sing and 
produce a wide variety of sounds for basic life function including 
communicating, foraging, mating, and navigating. Humpback whales were 
most likely the sirens of the sea whose songs were first heard by 
ancient mariners through the hulls and masts of their wooden ships. 
World War II initiated the dramatic development of underwater listening 
systems motivated by the need to detect, track and identify enemy 
submarines. Those early efforts at listening to the ocean for rare, but 
critical acoustic events indicative of a lethal aggressor were 
accompanied by a deluge of unknown sounds attributed to marine life. 
Who and what was responsible for all these sounds, and how could we be 
sure we could know which ones were biological and which were not? That 
acoustic detection challenge existed beneath a top-secret mantel 
throughout the period known as the cold war and remains today. However, 
beginning in the early 1970s, civilian scientists also started 
listening to the ocean. Today that effort has risen to the point where 
people outside the military are listening throughout large areas of the 
world's oceans with all types of recording systems throughout entire 
years. Furthermore, our technologies for analyzing those large data 
sets are becoming faster and more and more sophisticated. As a result, 
it is fair to say that the science of listening to the ocean has 
entered a period of expansive exploration of and rapid discovery in the 
bioacoustics of marine acoustic environments.
    In 1971, Roger Payne and Scott McVay published a paper first 
describing humpback whale song compositions based on recordings 
collected by the U.S. Navy off Bermuda (Payne and McVay 1971). Humpback 
songs are melodic, complex and primarily composed in a frequency range 
that we can hear and appreciate. Today scientists are beginning to 
describe the complex culture of whale communication using humpback 
songs and how these reveal the global nature of population 
interactions. In 1971, Roger Payne and Doug Webb also published a paper 
postulating that prior to the advent of modern shipping, the songs of 
fin whales could be heard across an ocean basin (Payne and Webb 1971). 
Fin whale songs are monotonously simple and so low in pitch as to be 
below our hearing range. The hypothesis that whale voices could be 
heard across an ocean was almost too grand to believe. Furthermore, the 
notion that noise from commercial shipping might be interfering with 
whale communication seemed far-fetched and was essentially forgotten. A 
point to be made by these recollections is that we (scientists 
included) can only understand the consequences of something if we can 
observe it. In the early years of ocean listening, where, when and how 
we listened were so limited in scope that our understandings of the 
complexities of sound in the living ocean were based on a few small, 
disparate pieces. We listened to bays or along short stretches of 
coastlines for the sounds we wanted to hear and understand (Clark and 
Clark 1980; Tyack 1983), and usually based on what we already knew was 
there and what hypothesis we wanted to evaluate.
    In 1993, after the collapse of the Soviet Union, along with a 
handful of other scientists, I was given access to the U.S. Navy's 
Sound Surveillance System (SOSUS). In those first days after my 
introduction to SOSUS, a Navy Commander helped me locate, track and 
record a singing blue whale out to distances of over a thousand miles. 
This memorable observation proved to me that the far-fetched Payne and 
Webb (1971) hypothesis was true: whales could be heard across an ocean 
basin. Commander Gagnon and I later published a paper on an extensive 
set of SOSUS observations on singing blue, fin, humpback and minke 
whales in the North Atlantic (Clark and Gagnon 2004). The SOSUS 
observation system that worked on ocean basin and decadal scales 
totally changed my comprehension of sound in the ocean. It expanded my 
experiential knowledge about whale acoustic behaviors from the 
traditional small scales of tens of miles and a few weeks into the much 
larger scales of many thousands of miles and years. I have often 
remarked that my ocean listening experiences using old technology vs. 
the modern SOSUS technology, was like the difference between looking at 
the night sky with a toy telescope and the Hubble telescope. There were 
many important insights from those early SOSUS experiences, three of 
which stand out as monumental. One, I observed the immense distances 
over which sounds of different frequencies (i.e. pitches) traveled 
through the ocean's complex, refractive medium (Jensen et al. 1994). 
Two, I participated in a nearly continuous flow of discoveries that 
contradicted current thinking about where and when whales should occur 
in the ocean. Three, I witnessed the ubiquitous occurrence of human 
noises from commercial shipping and seismic explorations throughout 
enormous ocean regions. These experiences clearly demonstrated that our 
limited technologies and analysis tools, had significantly limited our 
abilities to observe the movements and behaviors of whales throughout 
their actual ocean-scale ranges. At the same time as I was having these 
incredible experiences listening at ocean basin scales, I started 
working with some of the world's best acoustic oceanographers as part 
of the Acoustic Thermometry of Ocean Climate (The ATOC Consortium 
1998), which gave me the experience of learning about the intricacies 
of how, why and when low-frequency sound travels so efficiently through 
the ocean.
    Those expansive insights occurred in the mid 1990s. Today, there is 
a growing community of scientists recording along the East Coast of 
North America, from the Gulf of Mexico to the Grand Banks of Canada, 
and much of this effort is dedicated to documenting the acoustic 
occurrence of right whales (e.g. Davis et al. 2017) throughout a 
significant portion of their home range. A significant increase in this 
acoustic effort along the East Coast has come from NOAA's scientific 
community that recognized that anthropogenic noises are affecting 
marine acoustic environments (Hatch et al. 2016) as well as the value 
of applied bioacoustics for monitoring, mitigation and management 
actions in support of the North Atlantic right whale population 
recovery. This NOAA scientific effort is complemented by a rising 
global awareness that anthropogenic noises are influencing acoustic 
environments, in general (Merchant et al. 2018) and impacting the 
acoustic habitats of specific populations (Williams et al. 2013), and 
must be included in assessments of cumulative impacts on marine 
wildlife (Williams et al. 2016, Lacy 2017).
    Why is there so much concern about the potential influences of 
anthropogenic noise on marine mammals in general and the effects of 
seismic airgun array surveys on baleen whales specifically? There are 
two basic reasons. First, it has been known since the time of 
Aristotle, and repeatedly confirmed by scientific study that marine 
mammals depend on sound to survive. In particular, there is compelling 
evidence that baleen whales (like right whale) have acute very-low-
frequency (<100 Hz) and infrasonic hearing (<20 Hz; Ketten 1994). In 
particular, right whales are specifically well-adapted to and dependent 
upon listening to sounds in the low-frequency register (Ketten 1997, 
Parks 2007) for critical life functions such as communicating, 
navigating, mating, and maintaining social bonds (e.g. between mothers 
and calves). Second, the very-low-frequency band (10-100 Hz) used by 
baleen whales overlaps substantially with the frequency bands in which 
seismic airgun energy is concentrated. In short, there are significant 
overlaps between whale sounds and the explosive noise produced by 
seismic airguns.
    The occurrences of seismic airgun explosions from surveys 
throughout the North Atlantic have been well documented (Nieukirk et 
al. 2004) and are essentially unavoidable. This is true for recorders 
operating along the East Coast of the United States and Canada, even 
recorders on the continental shelf in relatively shallow water (<100m) 
(pers. obs). All of these seismic surveys were conducted far, far away 
from the recorders; for example, off the Scotian shelf of Canada (1200 
km), on and off the shelf of Surinam and French Guiana (3800 km), and 
on and off the shelf of western Ireland (5000 km). The coincident 
occurrence of acoustically active baleen whales and seismic airgun 
surveys has been observed in multiple oceans in very remote parts of 
the world (e.g., Nieukirk et al. 2012). These types of surveys have 
been happening throughout the last 20 years. To my knowledge there is 
no complete and reliable inventory of the possible hundreds of surveys 
conducted during this period.
    Explosions from seismic airgun surveys have been recorded 
throughout the oceans, which is not surprising because the acoustic 
energy is so high and the frequency content so low. As scientists we 
are still in the process of understanding the long-term, large-scale, 
chronic, biological consequences of these surveys. Because these 
surveys occur offshore in distant places and influence the ocean's 
acoustic environment over such enormous spatial areas (>200,000 
km<SUP>2</SUP>) and temporal scales (>60-180 days), assessing the full 
scale of a sub-lethal impact is challenging. Lack of data is not 
evidence of lack of impact, especially when the space and time scales 
of existing observational schemes do not match to the scales of the 
seismic airgun noise. Papers reporting responses to distant seismic 
airgun noise by a species closely related to right whales are sobering.
    This critical piece of evidence that raises my deep concern about 
seismic survey impacts on right whales comes from responses of bowhead 
whales (a species closely related to right whales) to seismic surveys 
(Blackwell et al. 2015). In that paper, the authors show that bowhead 
whale calling rates differ depending on the received level of airgun 
sounds from distant seismic surveys. Calling rates increased as soon as 
airgun pulses were detectable, then plateaued at increased received 
levels, began decreasing as received levels continued to rise, and then 
ceased entirely at levels that have been assumed to be approaching some 
sort of auditory harm. In other words, the whales have some capacity to 
first compensate for rising relative levels of noise exposure, but 
these levels are far below levels that have ever been of concern. They 
continue to have the significant response of decreasing calling rates 
at received levels that have only been of minor concern. In my opinion, 
these kinds of significant and consistent responses by an endangered 
species to seismic airgun sounds are alarming. Furthermore, there is 
nothing in any of the proposed monitoring or mitigation actions that 
could determine whether or not right whales modify their calling 
behavior in the face of noise from proposed seismic surveys. The 
inability to observe a likely response and therefore no data is not 
evidence of no response.
    What do I know about right whale acoustic communication that leads 
me to be extremely concerned about North Atlantic right whales 
exposures to seismic airgun surveys?
    For my PhD research, I conducted research on a population of 
southern right whales lived in the Golfo San Jose in southern 
Argentina. We simultaneously observed and listened to the whales every 
day for 18 months, for two full seasons in great detail. I designed, 
built and installed an array of bottom hydrophones (underwater 
microphones) that allowed us to know which whales made which sounds. We 
learned to associate certain types of sounds with different behaviors, 
and built a very simple form of a sound dictionary. Of particular 
importance, we observed that the whales produced a distinctive class of 
calls as a means of maintaining contact and coming together into social 
groups. We referred to these sounds as ``contact calls,'' and we 
validated the biological importance of contact calls by conducting 
experiments in which we used an underwater loudspeaker to play back 
different types of sounds. In response to play back of contact calls, 
distant whales called back, and many of those whales swam to the 
location of our underwater loudspeaker. I referred to this as counter-
calling. From watching and listening to the whales, and learning the 
personalities of the different individuals, I determine that right 
whales are highly dependent upon sound to maintain social contact. This 
includes mothers and young calves that must maintain close proximity in 
order for the calf to nurse and increase the chances of the mother 
being able to protect her calf from killer whales. This dependence is 
ultimately dependent on listening for sounds under naturally quiet 
conditions.
    In 2001, I initiated an acoustic research project on North Atlantic 
Right Whales in Cape Cod Bay, MA for which our team from Cornell 
deployed arrays of bottom recorders that we could use to detect, locate 
and track calling whales (Urazghildiiev & Clark 2009). I did this in 
part because other right whale scientists had been studying right 
whales there for some time (e.g. Hamilton and Mayo 1990, Ganley et al. 
2018). Early on we discovered that on days when only a few right whales 
were acoustically present in the bay, aerial surveys did not see any 
whales (Clark et al. 2010). Continued research on right whale acoustics 
by a growing number of scientists has shown that North Atlantic right 
whales produce contact calls and counter call (Parks et al). In Cape 
Cod Bay, I have observed cessation of right whale calling under high 
noise conditions as a result of both winter storms and shipping 
traffic. Calling right whales are detected throughout the year in 
regions and at times of year when they were not expected to occur 
(Hodge et al. 2015). Calling right whales are also detected far 
offshore where they were not expected to occur (Muirhead et al. 2018). 
What has happened over the last several decades is that the level of 
effort for acoustically observing right whales has expanded to include 
places along the entire East Coast, many as far out as the continental 
shelf break.
    Consider this as evidence for concern: All right whale populations 
in the Southern Hemisphere for which there are population data are 
increasing, while the North Atlantic population is not (Corkeron et al. 
2018). There are now years in which more calves are born into the 
population of right whales off the western South Atlantic than there 
are in the total population of right whales in the North Atlantic 
Ocean. One very obvious difference between the regions in which these 
two populations occur is the level of commercial activities that 
influence the very-low-frequency marine acoustic environment; namely, 
the levels of anthropogenic noise from shipping traffic and seismic 
airgun surveys.
    Finale: Right whales, as well as many marine animals (e.g. shrimp 
and commercial fishes), are highly dependent upon a naturally quiet 
ocean for basic life functions. Seismic airgun surveys off the East 
Coast will significantly change the natural dynamics of that acoustic 
ecosystem. We know that the sounds from seismic airgun arrays propagate 
and change the acoustic environment throughout enormous areas. We know 
that a close species relative of the right whale, the bowhead whale 
starts to react to seismic noise at extraordinarily low received levels 
and continues reacting until it totally stops communicating. The 
present level of seismic airgun activity authorized by NMFS, both in 
terms of the area covered by a single survey and especially in terms of 
multiple surveys, is incredibly irresponsible and has a legitimate 
likelihood of causing significant impacts on right whale acoustic 
behavior. For right whales, such changes will increase the likelihood 
of mother-calf separations, decrease the likelihood of acoustic 
communications between whales, and impact all those acoustic behaviors 
that are essential for maintaining the population's social cohesion and 
integrity. This is not about acute, physical harm to an individual. 
Rather, this is about the cost to a marginally surviving population as 
a result of aggregate chronic noise from seismic airgun surveys 
throughout large portions of the population's range throughout 
significant periods of the year.
                            references cited
Payne, R.S. and McVay, S. 1971. Songs of humpback whales. Science 
173:585-597. (10.1126/science.173.3997.585).

Payne, R. and Webb, D. 1971. Orientation by means of long-range 
acoustic signaling in baleen whales. Ann NY Acad Sci 188:110-141.

Clark, C.W. and Clark, J.M. 1980. Sound playback experiments with 
southern right whales (Eubalaena australis). Science 207:663-665. 
(10.1126/science.207.4431.663).

Tyack, P. 1983. Differential response of humpback whales (Megaptera 
novaeangliae) to playback of song or social sounds. Behav. Ecol. 
Sociobiology 13:49-55. (10.1007/BF00295075).

Clark, C. W. and Gagnon, G.C. 2004. Low-frequency vocal behaviors of 
baleen whales in the North Atlantic: Insights from IUSS detections, 
locations and tracking from 1992 to 1996. Journal of Underwater Acoust 
52:609-640.

Jensen, F.B., et al. 1994. Computational Ocean Acoustics. New York: 
American Institute of Physics.

The ATOC Consortium. 1998. Ocean Climate Change: Comparison of Acoustic 
Tomography, Satellite Altimetry, and Modeling. Science 281:1327-1332.

Davis, G.E., et al. 2017. Long-term passive acoustic recordings track 
the changing distribution of North Atlantic right whales (Eubalaena 
glacialis) from 2004 to 2014. Scientific Reports 7, No/13460, 
doi:10.1038/s41598-017-13359-3.

Hatch, L.T., et al. 2016. Can you hear me here? Managing acoustic 
habitat in US waters. Endangered Species Research 30:171-186. doi: 
10.3354/esr00722.

Williams, R., et al. 2013. Acoustic quality of critical habitats for 
three threatened whale populations. Anim. Cons., Zool. Soc. London. Pp. 
12.

Williams, R., et al. 2016. Gauging allowable harm limits to cumulative, 
sub-lethal effects of human activities on wildlife: A case-study 
approach using two whale populations. Journal of Marine Policy. Online.

Lacy, R.C., et al. 2017. Evaluating anthropogenic threats to endangered 
killer whales to inform effective recovery plans. Scientific Reports 
17, 14567, doi:10.1038/s41598-017-14471-0.

Ketten, D.R. 1994. Functional Analyses of Whale Ears: Adaptations for 
Underwater Hearing, I.E.E.E Underwater Acoustics vol. 1, pp. 264-270.

Ketten, D.R. 1997. Structure and Function in Whale Ears. Bioacoustics 
8:103-136.

Parks, S. E., et al. 2007. Anatomical Predictions of Hearing in the 
North Atlantic Right Whale. The Anatomical Record 290:734-744.

Nieukirk, S. L., et al. 2004. Low-frequency whale and seismic airgun 
sounds recorded in the mid-Atlantic Ocean. Journal of the Acoustic 
Society of America 115, 1832-1843.

Nieukirk, S. L., et al. 2012. Sounds from airguns and fin whales 
recorded in the mid-Atlantic Ocean, 1999-2009. Journal of the Acoustic 
Society of America 131, 1102-1112. (10.1121/1.3672648).

Blackwell, S.B., et al. 2015. Effects of airgun sounds on bowhead whale 
calling rates: Evidence for two behavioral thresholds. 10(6) PLoS ONE 
e0125720.doi:10.1371/journal.pone.0125720.

Urazghildiiev, I.R., et al. 2009. Detection and recognition of North 
Atlantic right whale contact calls in the presence of ambient noise. 
IEEE J. Ocean Engineering 34:358-368.

Hamilton, P.K. and Mayo, C.A. (1990) Population characteristics of 
right whales (Eubalaena glacialis) observed in Cape Cod and 
Massachusetts Bays, 1978-1986. Rep Int Whal Comm Spec Issue 12:203-208.

Ganley, L.C., Brault, S., and Mayo, C.A. 2019. What we see is not what 
there is: estimating North Atlantic right whale Eubalaena glacialis 
local abundance. Endangered Species Research 38:101-113. https://
doi.org/10.3354/esr00938.

Clark, C.W., Brown, M.W. and Corkeron, P. 2010. Visual and acoustic 
surveys for North Atlantic right whales, Eubalaena glacialis, in Cape 
Cod Bay, Massachusetts, 2001-2005: Management implications. Marine 
Mammal Science 26:837-854.

Hodge, K.B., et al. 2015. North Atlantic right whale occurrence near 
wind energy areas along the mid-Atlantic US coast: implications for 
management. Endangered Species Research 28:225-234.

Muirhead, C.A., et al. 2018. Seasonal Acoustic Occurrence of Blue, Fin, 
and North Atlantic Right Whales in the New York Bight. Aquatic 
Conservation 1-10. doi.org/10.1002/aqc.2874.

Corkeron, P., et al. 2018. The recovery of North Atlantic right whales, 
Eubalaena glacialis, has been constrained by human-caused mortality. 
Royal Society of Open Science 5:180892.

                                 ______
                                 

    Mr. Huffman. Thank you, Dr. Clark.
    We will now move to questions for the second panel, and I 
will begin, recognizing myself for 5 minutes.
    Dr. Clark, you are the expert on bioacoustics and the 
impacts of these things on North Atlantic right whales. Can you 
please address this claim we have heard, that acoustic sounds 
produced by seismic testing do not threaten the North Atlantic 
right whale?
    We have heard, for example, that it is merely a sublethal 
impact, the implication being that that is no big deal. I would 
like you to speak to that.
    Dr. Clark. Thank you, Mr. Chairman. This is the disparity 
between saying that I do something that actually kills an 
individual--that is an acute impact--or I deafen them to the 
point that they are basically dysfunctional, versus a chronic 
impact. You all know what chronic impacts are like.
    Mr. Huffman. A chronic impact could still cause the 
extinction of a struggling species. Is that fair to say?
    Dr. Clark. A chronic impact will increase the stresses, 
like Dr. Kraus has talked about. Chronic impacts, we get 
chronic impacts from smoke, secondhand smoke, et cetera, et 
cetera. So, it is the constant, deliberate debilitation of the 
species.
    Mr. Huffman. Thank you. We have also heard that a more 
protective standard in the Gulf Coast is justified because the 
bathymetry and I guess the greater tolerance for acoustic noise 
in the Atlantic justifies a more relaxed standard. You heard 
that testimony. Do you agree with it?
    Dr. Clark. I think it is nonsense.
    Mr. Huffman. Dr. Kraus, you have authored more than 80 
scientific publications on the right whale. Do you think the 
seismic testing poses an existential threat to this species? 
And why?
    Dr. Kraus. I do, and it is not because it causes mortality. 
The only time seismic activity would actually kill a whale 
would be, one, if the whale was really dumb or deaf. Generally, 
the activity is exactly as Dr. Clark pointed out. It is a 
chronic, long-distance, widespread impact. And there have been 
no actual studies that would actually answer the question about 
the long-term seismic impacts on populations because you cannot 
do those studies easily.
    The short-term studies that have looked at the response of 
seismic activity by many different species of whale shows that 
nearly all of them respond. They hear it, but they just cannot 
do anything about it. So, in the case of right whales where you 
have an already stressed population with significant multiple 
impacts that are occurring at multiple levels, the addition of 
additional stressors is just a bad idea.
    Mr. Huffman. All right. Dr. Kraus, you know these whales 
individually better than anyone. Can you please tell us about 
the condition of the roughly 100 breeding females?
    Dr. Kraus. Female condition is measured by a series of both 
photographic and physiological measurements. And it turns out 
that of the animals that we have still alive, most of them are 
in a steady state of--they have been in a relatively slow 
decline over the last 30 years.
    They have stabilized, but we know exactly what the 
threshold of reproduction is. And many of them are just above 
it, so that additional stressors can change their physiology, 
change stress responses in a way that would actually reduce 
their fitness and their ability to produce calves.
    Mr. Huffman. And Dr. Kraus, finally, why are the mitigation 
measures proposed by NMFS and its Incidental Harassment 
Authorizations insufficient to ensure the survival of the 
species?
    Dr. Kraus. The mitigation strategies employed for all of 
these seismic activities are a little bit of a lipstick on a 
pig. That is to say, they will prevent immediate mortality if a 
whale gets so close that it is going to get blown up. They will 
have nothing to do with mitigating the long-term impacts and 
the chronic elevation of ambient noise levels for hundreds of 
kilometers around the seismic vessel.
    Mr. Huffman. All right. Thanks very much for your 
testimony, all of the witnesses. I will now recognize the 
Ranking Member, Mr. McClintock, for 5 minutes.
    Mr. McClintock. Thank you, Mr. Chairman. The central issue 
in this hearing seems to be the effect of seismic testing on 
the North Atlantic right whale. The contention is that it is 
driving them to extinction.
    Now, Dr. Burnett, coincidence obviously does not prove 
causation. But causation must show coincidence. Correct?
    Dr. Burnett. Yes. It should be, it is correlation. Yes.
    Mr. McClintock. Yet, we do not see coincidence with the 
population of other whale species in the North Atlantic; as we 
have heard, other whale species continue to grow in population 
in the same region, several of the species having reached their 
pre-whaling levels.
    So, if seismic activity was fatal to whales, would we not 
be seeing the same effect on other species' populations?
    Dr. Burnett. I cannot think of a reason why not. And you 
would find it in other right whale species in the Southern 
Hemisphere, where they are currently undertaking seismic 
testing.
    Mr. McClintock. We had a dramatic demonstration with the 
air horn, and it was annoying. The implication of this and the 
discussion that followed was that any fish or mammal species in 
the ocean is going to stay in the immediate proximity of this 
annoying phenomena. Is that a reasonable assumption to make?
    Dr. Burnett. Well, many will. Of course, when they tested 
in North Carolina, tests that the National Science Foundation 
also found did not pose negligible danger to sea species, some 
species abandoned the area for the time of the testing, and 
then came back into the area after the testing.
    Mr. McClintock. I think our common sense tells us that any 
fish or mammal population is going to move away from such an 
annoying sound. I think that the reaction of every person in 
this room, had it continued, would be to leave the room.
    We learned today that seismic testing has been going on in 
the Atlantic for 80 years. Up until the last decade, we were 
actually seeing an increase in the population of the North 
Atlantic right whale, about 2.8 percent a year. What does that 
tell us about cause and effect?
    Dr. Burnett. Well, it tells us there doesn't seem to be a 
cause and effect on whale mortality and decline, that there are 
a number of factors. It turns out the Canadians are just now 
getting on board with some of the shipping things that we have 
been doing for a decade.
    And that should hopefully reduce right whale mortality. I 
see no evidence, however, that limiting seismic testing--I see 
no difference between the seismic testing for wind, that would 
evidently be allowed, but not for oil and gas.
    Mr. McClintock. I am going to get to that in a moment, if I 
can. But while we are on the general subject of populations, a 
lot has been said that there are only 411 right whales left in 
the North Atlantic. Certainly, they number just in the 
hundreds. It gets worse if you look at the North Pacific right 
whale population; I am told they number only in the tens.
    But in the Southern Hemisphere, they have a healthy 
population of 16,000, which is growing at about the pace that 
we are seeing of other whale species around the world. What 
does that tell us?
    Dr. Burnett. I guess I cannot honestly say for sure what it 
tells us. I don't know what the difference is--shipping lanes, 
fishing entanglement, and other factors that may be interfering 
with the recovery of the right whale here.
    Mr. McClintock. I should think so. And I again would 
imagine it may have something to do with the fact that the 
population in the North Atlantic was hunted almost to 
extinction. And when you have that small a population, it is 
very difficult for it to recover. Is that accurate?
    Dr. Burnett. I would suppose it is accurate. I would also 
suppose it might have implications for the genetic diversity 
within the species and perhaps genetic disorders from close 
interbreeding populations.
    Mr. McClintock. Point taken. We heard about inconsistency 
and politically motivated decisions. But again, as we know, the 
Obama administration issued many seismic testing permits, 
including in the Atlantic for Columbia University, USGS. Why 
are those permits good and the recent permits are bad?
    Dr. Burnett. That is my problem, I cannot explain the 
difference. It seems to be that seismic testing is bad for oil 
and gas but is good for everything else. And that is curious if 
what you are really concerned about is the right whale.
    Mr. McClintock. So, it is a double standard, then. It is 
not the seismic testing, it is the purpose of the seismic 
testing?
    Dr. Burnett. Correct.
    Mr. McClintock. And since science is based on data, and the 
purpose of seismic testing is to collect data, why would any 
scientist want to blind themselves to that, particularly as we 
have already established it has no effect on the populations of 
other whales?
    Dr. Burnett. I can think of no good reason.
    Mr. Huffman. The Chair now recognizes Mr. Van Drew.
    Dr. Van Drew. Thank you, Mr. Chairman.
    Dr. Kraus, do you believe that multiple stressors and 
threats compound the impacts on the North Atlantic right whale?
    Dr. Kraus. I do. I think that we know that they are getting 
affected by ships and entanglements. But what we know less 
about is the sublethal effects of those entanglements and the 
sublethal effects of noise. We do know that they have 
physiological responses that indicate a stress response, and 
that stress response, when accumulated over time, is damaging.
    Dr. Van Drew. Let me ask you this: Did the National Marine 
Fisheries Service consider the suite of stressors already 
present? And did they assess whether the addition of seismic 
testing would further compound these stressors?
    Dr. Kraus. In my reading of the IHAs and the Biological 
Opinion, I did not see that.
    Dr. Van Drew. Well, then, what about the cumulative effect 
of five different companies doing systematic surveys?
    Dr. Kraus. I did not see that, either. They did not seem to 
combine the analysis.
    Dr. Van Drew. Dr. Kraus and Dr. Clark, both of you, the 
North Atlantic right whale population was growing as recently 
as the early 2000s, and on average, almost 25 calves were born 
each year. The population has been in decline since 2010, and 
now approximately less than 420 individuals remain.
    In the 2017-2018 calving season, no new calves were 
observed. This year we have seen 7 births, but after 20 deaths. 
Since 2017, the population has not seemed to grow overall. In 
your expert opinion, would the use of seismic air gun blasting 
for oil exploration in the Atlantic be a potential threat to 
the survival of the species?
    Dr. Kraus. Who would you like?
    Dr. Van Drew. Both of you.
    Dr. Kraus. OK. My opinion is that it does represent a 
threat, largely because of the very quiet communications 
between mothers and calves, and the fact that half of the 
population equation is dependent. If we are going to bring this 
population back, it is going to be dependent upon right whales 
having enough calves to start to replenish the animals that are 
lost from the mortalities. In order to do that, we need to give 
the mothers and their calves every possible chance.
    Dr. Van Drew. OK. Thank you.
    Dr. Clark. Yes. I believe it is a threat. I have observed 
what right whales do when noise levels go up. Their 
communications stop. Their aggregation on food resources is--
they go into random walks. Actually, they do not aggregate 
appropriately on food resources. And all of that has a serious 
potential impact on the animals' ability to gain recent fat and 
grow, and mothers to come into estrus and have calves.
    Dr. Van Drew. OK. Thank you very much. I would just like to 
point out that I do have legislation that would disallow the 
permitting of the five seismic studies. It is H.R. 1149. It is 
a bipartisan piece of legislation. It is called the Atlantic 
Coastal Economies Protection Act, and I welcome anybody who is 
interesting in joining on as a co-sponsor.
    And I would like to yield the remaining time to the 
Chairman.
    Mr. Huffman. I thank the gentleman for yielding. The 
Ranking Member just asked a series of questions about right 
whale biology to a witness with a philosophy degree from a 
conservative think tank. Seems like we should maybe pose some 
of these questions to our right whale experts.
    We have heard that right whales in the Southern Hemisphere 
are doing much better. We have heard that other whale species 
in the Northern Hemisphere are doing better. I am not sure what 
the implication is. Maybe our North Atlantic right whales are 
just defective and we should stop trying to protect them.
    Dr. Kraus, you are the expert. Would you like to speak to 
these claims?
    Dr. Kraus. The right whales in the Southern Hemisphere tend 
to occur south of about 45 degrees south latitude, and they are 
south of most of the seismic activity in the Southern 
Hemisphere. The right whales in the Northern Hemisphere, by 
contrast, are actually quite in the middle of a lot of 
industrial activity--shipping, fishing, and a lot of stuff like 
that.
    As other people have pointed out, there has not been any 
seismic activity in the Atlantic for the last 40 years except 
for very short periods of time. There is no comparability 
between the seismic activity in terms of sound source levels or 
extent or the time period or, rather, the duration of that 
activity between wind farms, between the geophysical surveys 
that the Langseth did off the coast, compared to the kind of 
magnitude and the number of ship-days involved in the proposed 
activity.
    Mr. Huffman. So, is it fair to say this would be a new and 
fundamentally different stressor at the worst possible time for 
this species?
    Dr. Kraus. And many times more--the magnitude is out of--it 
is completely different.
    Mr. Huffman. Thank you.
    I want to thank the witnesses. We have reached the end of 
this hearing.
    Mr. McClintock. I would like to ask unanimous consent to 
insert into the Committee record the Status of Whales Report of 
the International Whaling Commission, and an April 2018 paper 
by John Droz regarding offshore fossil fuel exploration and 
development.
    Mr. Huffman. Without objection, those will be entered into 
the record.
    One of the courtesies that Democrats routinely granted to a 
Subcommittee Chair, Mr. Gosar, was to allow a final 1-minute-
or-less question to each of the witnesses on the panel, to ask 
them, essentially, ``What is the one thing you were not asked 
that you wish you had been asked?''
    I would like to request unanimous consent for my Republican 
colleagues to grant that same courtesy so that we could ask 
that final question to our panelists.
    Mr. McClintock. Well, Mr. Chairman, courtesy is as courtesy 
does. And unfortunately, because of your handling of my request 
for unanimous consent to borrow from accredited time to Mr. 
Webster, I am really not inclined to do that. This is outside 
the normal scope of the hearing and outside the House rules.
    Mr. Huffman. Well, I am disappointed that that courtesy 
will not continue under this Ranking Member.
    But with that, I want to thank the witnesses for their 
valuable testimony, and also the Members for their questions. 
The members of the Committee may have some additional questions 
for the witnesses, and we will ask that the witnesses respond 
to those in writing. Under Committee Rule 3(o), members of the 
Committee must submit witness questions within 3 business days 
following the hearing. And the hearing record will be held open 
for 10 business days for these responses.
    If there is no further business, without objection, this 
Committee stands adjourned.

    [Whereupon, at 12:18 p.m., the Subcommittee was adjourned.]

            [ADDITIONAL MATERIALS SUBMITTED FOR THE RECORD]

Submissions for the Record by Rep. Lowenthal

115th CONGRESS

   1st Session

                               H.R. 3682

To direct the Director of the Office of National Marine Sanctuaries of 
        the National Oceanic and Atmospheric Administration to create a 
        Blue Whales and Blue Skies Program to reduce air pollution and 
        harmful underwater acoustic impacts and the risk of fatal 
        vessel whale strikes by recognizing voluntary reductions in the 
        speed of vessels transiting the Greater Santa Barbara Channel 
        Region, California, and for other purposes.

                       --------------------------

                    IN THE HOUSE OF REPRESENTATIVES

                           September 6, 2017

Mr. Lowenthal (for himself, Ms. Brownley of California, Mr. Carbajal, 
        and Mr. Khanna) introduced the following bill; which was 
        referred to the Committee on Transportation and Infrastructure

                       --------------------------

                                 A BILL

To direct the Director of the Office of National Marine Sanctuaries of 
    the National Oceanic and Atmospheric Administration to create a 
    Blue Whales and Blue Skies Program to reduce air pollution and 
    harmful underwater acoustic impacts and the risk of fatal vessel 
    whale strikes by recognizing voluntary reductions in the speed of 
    vessels transiting the Greater Santa Barbara Channel Region, 
    California, and for other purposes.

        Be it enacted by the Senate and House of Representatives of the 
        United States of America in Congress assembled,

SECTION 1. SHORT TITLE.

    This Act may be cited as the ``Blue Whales and Blue Skies Act''.

SEC. 2. BLUE WHALES AND BLUE SKIES PROGRAM.

  (a)  IN GENERAL.--Not later than 12 months after the date of the 
            enactment of this Act, the Director of the Office of 
            National Marine Sanctuaries of the National Oceanic and 
            Atmospheric Administration, in consultation with the 
            Commandant of the Coast Guard, shall establish the Blue 
            Whales and Blue Skies Program, to----

          (1)  reduce air pollution and harmful underwater acoustic 
        impacts and the risk of fatal whale strikes by encouraging 
        voluntary reduction in the speed of eligible vessels transiting 
        the Greater Santa Barbara Channel Region; and

          (2)  annually award Blue Whales and Blue Skies Excellence 
        Awards for verified successful participation in, and compliance 
        with, the program by eligible vessels.

  (b)  PROGRAM REQUIREMENTS.--The Director shall----

          (1)  model the program after the pilot Vessel Speed Reduction 
        Program administered by the Santa Barbara County Air Pollution 
        Control District, the Ventura County Air Pollution Control 
        District, the Channel Islands National Marine Sanctuary, the 
        Environmental Defense Center (a non-profit corporation 
        established under the laws of the State of California as in 
        effect on the date of the enactment of this Act), and the 
        National Marine Sanctuary Foundation, except the Director may 
        not provide a financial incentive for participation in the 
        program; and

          (2)  develop the program in consultation with the entities 
        referred to in paragraph (1).

  (c)  ANNUAL AWARDS.----

          (1)  IN GENERAL.--Under the program, the Director shall 
        annually award Blue Whales and Blue Skies Excellence Awards to 
        owners of eligible vessels that have complied with the program 
        during the preceding year.

          (2)  AWARD CONDITIONS.--As a condition of an award under this 
        subsection, the Director shall require, at a minimum, that each 
        eligible vessel of the awardee----

                  (A)  transit the Greater Santa Barbara Channel Region 
                at speeds of 12 knots or lower, or at a lower maximum 
                speed as provided in guidance established under the 
                program; and

                  (B)  participate in the Port of Los Angeles or Port 
                of Long Beach vessel speed reduction program, 
                respectively, if the vessel calls at that port in the 
                transit for which the award is considered.

  (d)  OFFICIAL SEAL.--The Director shall create an official seal to be 
            recognized as the symbol of excellence in compliance with 
            the program, that----

          (1)  may be used by shipping companies with eligible vessels 
        for which a Blue Whales and Blue Skies Excellence Award is 
        awarded under this section;

          (2)  includes the name of the shipping company;

          (3)  includes the year for which such award was made; and

          (4)  includes the percentage of transits through the Greater 
        Santa Barbara Channel Region by eligible vessels of the 
        shipping company in such year that were in compliance with the 
        program, calculated as----

                  (A)  the number of such transits, divided by

                  (B)  the total number of transits through the Greater 
                Santa Barbara Channel Region by all vessels of the 
                shipping company in such year, excluding transits 
                directed by the Coast Guard to proceed in excess of the 
                speed requirements of the program.

  (e)  EXTENSION OF PROGRAM.--No later than 4 years after the date of 
            the enactment of this Act, the Director shall----

          (1)  consider the feasibility of extending the program to 
        encompass all shipping channels along the United States Pacific 
        coast between Canada and Mexico; and

          (2)  report the findings and recommendations under paragraph 
        (1) to the Committee on Transportation and Infrastructure and 
        the Committee on Natural Resources of the House of 
        Representatives, and to the Committee on Commerce, Science, and 
        Transportation of the Senate.

  (f)  LIMITATIONS.--Nothing in this section shall be construed----

          (1)  to require participation in the program;

          (2)  to authorize appropriations for, or the provision of, 
        any financial incentive for participation in the program; or

          (3)  to authorize any action that affects navigation safety.

  (g)  DEFINITIONS.--In this section:

          (1)  ELIGIBLE VESSEL.--The term ``eligible vessel'' means a 
        vessel that has been approved by the Director to participate in 
        the program.

          (2)  PROGRAM.--The term ``program'' means the Blue Whales and 
        Blue Skies Program established under this section.

          (3)  GREATER SANTA BARBARA CHANNEL REGION.--The term 
        ``Greater Santa Barbara Channel Region''----

                  (A)  means such portion of the geographic zone used 
                by vessels transporting goods to transit the area 
                surrounding the Channel Islands, including the Santa 
                Barbara Channel, California, as is designated by the 
                Director for purposes of this section; and

                  (B)  includes, at a minimum, the geographic area 
                identified in the pilot Vessel Speed Reduction Program 
                referred to in subsection (b)(1).

                                 ______
                                 
                                [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
                                 

                                                  June 19, 2018

Re: 2018 voluntary Vessel Speed Reduction (VSR) incentive program for 
        the Santa Barbara Channel and San Francisco Bay Area regions 
        off California

    Dear Carrier Representative:

    We are implementing a 2018 VSR incentive program July 1-November 
15, 2018 to reduce air pollution and fatal ship strikes on whales. For 
the 2018 Program, financial incentives will be awarded to companies 
based on percent of distance traveled by their vessels through the VSR 
Zones at 10 knots or less, termed ``percent cooperation,'' during the 
identified time period. Average speed of a transit throughout the 
entire VSR Zones must not exceed 12 knots in order to receive credit 
for distance traveled at 10 knots or less. Close to $300,000 is 
available for incentive awards and amounts will scale with the percent 
cooperation, and will range from $1,000 to up to $35,000 (or greater) 
per company. Overall there is less funding available for awards for the 
Bay Area than for the Channel region.
    The California Marine Sanctuary Foundation will manage the 
incentive payments to individual shipping lines; please see the Letter 
of Understanding. Each vessel's speed transiting the VSR Zones will be 
verified via Automatic Identification System (AIS) data. Vessels that 
call on the Ports of Los Angeles and/or Long Beach must participate in 
one of the ports' VSR incentive programs.
    In addition to the financial award for companies that meet 
requirements, we will work with successful shipping companies on a 
positive public relations campaign to draw public awareness to the VSR 
program and your company's participation. Participation is voluntary 
and does not commit shipping industry participants beyond the program 
period. If companies are enrolled in the program and unable to meet the 
minimum program criteria, there is no penalty but financial incentives 
will not be awarded.
    Advantages to shipping companies of the 2018 incentive program 
structure include the following.

    <bullet> The 10-knot target is consistent with the target speed for 
            voluntary Whale Advisory Zones which overlap with VSR 
            Zones.

    <bullet> Sign up for shipping companies is greatly streamlined. 
            Just provide a list of the vessels (with IMO and MMSI 
            numbers, including charter or alliance vessels under the 
            company's control) expected to transit one of the VSR Zones 
            July 1-November 15, 2018.

    <bullet> There is no longer a requirement that the vessel must have 
            historically transited the region. Vessels that are coming 
            to the region for the first time can be part of the 
            program.

    <bullet> There is no longer a requirement that previous transits 
            must have been at higher speeds. The system is set up to 
            reward companies with vessels already transiting at lower 
            speeds.

    <bullet> A fleet-based approach will also be used in the 2019 
            program next year.

    While the scope of the program is limited to the Santa Barbara 
Channel and San Francisco Bay Area regions (see Attachment A), air 
pollution, greenhouse gas emissions, and the threat of ship strikes on 
whales extends beyond these regions. Every effort should be made by 
participating vessels to not increase speed over the registered 
vessel's historic baseline speeds while outside the VSR Zones to ``make 
up time.'' Ship speed monitoring using AIS may occur between the Santa 
Barbara and San Francisco Bay Area region VSR Zones to determine if 
ships are speeding up between Zones.
    Please note this VSR incentive program complements existing 
seasonal whale advisories in effect in the Santa Barbara Channel and 
San Francisco Bay Area regions. The National Oceanographic and 
Atmospheric Administration (NOAA) strongly recommends that all vessels 
300 gross registered tons or larger reduce speeds to 10 knots or less 
in these vessel slow speed zones. For more information on the seasonal 
whale advisories, please consult the Eleventh Coast Guard District 
Local Notice to Mariners.
    To enroll in the program, companies will be required to sign a 
Letter of Understanding (see Attachment B) and provide the name and 
MMSI and IMO numbers for all vessels under the company's control which 
are scheduled to transit the VSR Zones during the program period (see 
Attachment C). To enroll your company, please return the completed and 
signed Letter of Understanding (Attachment B) and fillable PDF Sign Up 
Form (Attachment C) to Lindsay Marks of NOAA Channel Islands National 
Marine Sanctuary (contact information provided below). Please enroll by 
June 30th if possible and no later than July 10, 2018.
    For more information about the VSR incentive program, watch 
``Protecting Blue Whales and Blue Skies,'' a promotional film found at 
https://www.ourair.org/air-pollution-marine-shipping/. Please also see 
Attachment D to learn how to report sightings of endangered whales.

    Enrollment materials, comments or questions may be directed to:

        Contact: Lindsay Marks

        Address: NOAA Channel Islands National Marine Sanctuary
          University of California Santa Barbara
        Ocean Science Education Building 514, MC 6155
        Santa Barbara, CA, 93106-6155

        Phone: +1 (805) 893-6425

        Fax: +1 (805) 893-6438 (ATTN: Lindsay Marks)

        Email: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5b3732353f283a2275363a2930281b35343a3a753c342d">[email&#160;protected]</a>

    We believe by working together we can maintain vibrant maritime 
commerce, enhance corporate responsibility, and protect human health 
and the marine environment. We thank you in advance for considering 
your company's participation in the VSR incentive program.

            Sincerely,

      The Partners in the Vessel Speed Reduction Incentive 
                                           Program for 2018
   in the Santa Barbara Channel and San Francisco Bay Area 
                                                    regions

                                 ______
                                 

Submissions for the Record by Rep. McClintock
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


.epsComprehensive Assessment
When, at its 1982 meeting, the IWC agreed to a pause in commercial 
whaling (or to use popular terminology, a `moratorium') from 1986, the 
amendment to the regulations included a clause that `the Commission 
will undertake a `comprehensive assessment' of the effects of this 
decision on whale stocks and consider modification of this provision 
and the establishment of other catch limits'.

The term `Comprehensive Assessment' had not been defined by the 
Commission and eventually the Scientific Committee defined it to be:

        `an in-depth evaluation of the status of all whale stocks in 
        the light of management objectives and procedures . . . that . 
        . . would include the examination of current stock size, recent 
        population trends, carrying capacity and productivity'.

To date the Committee has completed or is still undertaking such in-
depth analyses of:

    <bullet> Antarctic minke whales--Southern Hemisphere;
    <bullet> Common minke whales--North Atlantic; western North Pacific
    <bullet> Fin whales--North Atlantic
    <bullet> Humpback whales--Southern Hemisphere and North Atlantic
    <bullet> Bryde's whales--western North Pacific
    <bullet> Bowhead whales--Bering-Chukchi-Beaufort Seas
    <bullet> Blue whales--Southern Hemisphere
    <bullet> Sei whales--North Pacific

                                 ______
                                 

Offshore Fossil Fuel Exploration and Development:
A Review of Some Concerns

By John Droz, Jr.*
---------------------------------------------------------------------------
    *John Droz, Jr. is an independent physicist, an internationally 
known energy expert, and a NC resident. For a more complete bio and 
acknowledgements, see the end of the last page.

---------------------------------------------------------------------------
April 28, 2018

Environmental activists have expressed strong opposition to all U.S. 
fossil fuels--offshore and onshore . . . Every energy source has 
benefits and liabilities. The only sensible way to determine what our 
best energy choices are, is to do a comprehensive and objective 
assessment of ALL the pros and cons of each option. Only then are we 
able to make an informed, science-based decision. This document is a 
contribution toward such an assessment.

This paper presents some different perspectives about several 
assertions made by NGOs in the offshore fossil fuel debate. The focus 
is on North Carolina, which is estimated to have the largest offshore 
natural gas and oil reserves on the East Coast. We begin by outlining 
the main NGO concerns, and then follow that with a brief discussion of 
each item . . .

1. Seismic surveying will result in serious ecological damage. No, 
similar seismic surveys have resulted in no consequential environmental 
problems.

2. An oil spill is inevitable. For several reasons, an oil spill is 
extremely unlikely.

3. Offshore drilling puts the vital coastal tourism industry at risk. 
Offshore wind energy is a much greater threat to coastal tourism.

4. More jobs will come from offshore wind energy than from offshore 
fossil fuels. This is not likely to be true, but it is an irrelevant 
argument anyway.

5. Professional NC fishermen oppose coastal fossil fuel exploration and 
development. The NC Fisheries Association has officially endorsed 
offshore fossil fuel development.

6. There isn't enough oil and natural gas off the NC coast to justify 
the risk and the expense. No one knows the true economics, which is why 
a seismic survey is needed.

7. Drilling would result in some of the NC coast looking like Louisiana 
or Galveston, Texas. Considerable federal, state and local regulations 
mean that would never happen.

8. Revenue-sharing with the coastal States has not been approved. It is 
very likely that such revenue-sharing will be approved by the Trump 
administration.

9. Any oil and gas we discover will probably be exported anyway. Some 
resources will undoubtedly be exported, and that's good for our economy 
and our national security.

10. We have better U.S. energies available to us. If we exclude all the 
energy options the NGOs have blackballed (e.g. nuclear), there are no 
better choices left.

11. We don't need fossil fuels as we can live on 100% renewable energy 
sources. This is a 100% impossible scenario for multiple technical and 
economic reasons.

12. To effectively combat climate change, fossil fuels need to stay in 
the ground. This makes little sense as the NGOs' energy plans do not 
truly combat climate change anyway.

        Part of the reason that our politics seems so tough right now 
        (and facts and science and argument do not seem to be winning 
        the day all the time), is because we're hardwired not to always 
        think clearly when we are scared.

                                                         --Barack Obama

SOME BACKGROUND: In January 2015, the Obama Administration's Department 
of the Interior (DOI), Bureau of Ocean Energy Management (BOEM) issued 
a proposed 5-Year (2017-2022) Oil and Gas Leasing Program that included 
waters off the coast of the Mid and South-Atlantic Region (offshore 
Virginia, North and South Carolina, and Georgia). Revenue-sharing (of 
potential lease-payments, rents and royalties) with the States was not 
part of the proposal for the Atlantic area. After public hearings, BOEM 
subsequently removed the Atlantic area from the draft leasing plan. 
Just before leaving office, the Obama Administration denied permits for 
seismic surveying in the Atlantic area.

    Rather than wait for the next 5-year plan (2023-2028), the Trump 
Administration proposed replacing the 2017-2022 plan with a modified 
2019-2024 plan. On January 4, 2018, the DOI announced the next steps 
for developing the National OCS Leasing Program. The Draft Proposed 
Program ``includes 47 potential lease sales in 25 of the 26 planning 
areas (19 off the coast of Alaska, 7 in the Pacific Region, 12 in the 
Gulf of Mexico, and 9 in the Atlantic Region).'' The new Administration 
also reversed the decision concerning seismic surveying, putting the 
earlier applications to conduct these surveys back into play. As the 
National Ocean Industries Association's (NOIA) statement of support 
conveys quite well, it is important to understand that the current 
process is extremely cautious . . .

        This is the second step in a multi-year process that will 
        determine a future leasing schedule, NOT a future drilling 
        schedule. The process involves several rounds of public 
        participation and several layers of environmental review. Once 
        the leasing program is finalized (many months from now), future 
        decisions on possible drilling must undergo their own series of 
        public and environmental reviews. Similarly, any future efforts 
        to actually produce offshore oil and natural gas will be 
        subject to yet another round of reviews.

    Given these developments, now is a good time to step back and 
critique some of the common concerns put forward by the opponents of 
oil and natural gas exploration in the Atlantic (like Oceana and the 
Sierra Club). This paper is being prepared with the hope that a 
constructive, informed discussion of these issues will lead to better 
public understanding, and ultimately to better public policy outcomes.

    The following is an assessment of commonly voiced NGO themes 
periodically expressed at public hearings about Atlantic offshore oil 
and natural gas exploration and development.

1--Seismic surveying will result in serious ecological damage. The 
opponents of offshore fossil fuel exploration try to demonize a seismic 
survey by calling it seismic ``air gun blasting.'' It's unfortunate 
that this technical matter has been mis-presented to the public this 
way, as it makes having a rational discussion about its pros and cons, 
very difficult.

    One fact is that a comprehensive Atlantic Coast geological seismic 
survey has not been done in almost 40 years. Seismic survey technology 
has advanced significantly during that time. Because it has been so 
long since a survey was done, we have little understanding of the 
natural gas or oil resources off the U.S. Atlantic seaboard. We need 
better information so that our positions and critical public policy 
decisions are based on the best available facts.

    Opponents claim seismic surveys pose grave threats to marine 
mammals, fish stocks, and especially to the endangered North Atlantic 
Right Whale. However, the current plight of the right whale and other 
endangered ocean species cannot be blamed on the fossil fuel industry, 
as that industry has not existed off the U.S. East Coast in decades. On 
the contrary, the Right Whale got its name because it was the ``right'' 
whale to kill for its blubber, which could be rendered into whale oil 
and other products. The advent of the fossil fuel industry actually 
saved whales from extinction by allowing substitution of kerosene and 
other petroleum products for whale oil, etc.

    NOAA's National Marine Fisheries Service (NMFS) says the main 
threats to endangered marine species are: collisions with commercial 
and recreational vessels, entanglements in commercial and recreational 
fishing lines and nets, and ingestion or entanglement in garbage 
(primarily plastic). Most of these things are related to the tourism or 
fishing industries. Where are the Resolutions and public protests about 
those proven environmental impacts?

    NMFS made this 2014 statement about the environmental impact of 
seismic surveys: ``To date, there is no evidence that serious injury, 
death, or stranding by marine mammals can occur from exposure to air-
gun pulses, even in the case of large air-gun arrays.'' BOEM's chief 
environmental officer issued a 2014 report stating: ``To date, there 
has been no documented scientific evidence of noise from air-guns used 
in geological and geophysical seismic activities adversely affecting 
marine animal populations or coastal communities.'' Note that both of 
these conclusions came during President Barack Obama's environmentally 
friendly terms.

    The Lamont-Doherty Earth Observatory (the top U.S. academic seismic 
authority) recently conducted a NC seismic survey (e.g. re plate 
tectonics, etc). It covered a much wider area (2<plus-minus> to 
200<plus-minus> miles from the NC coast vs. 10<plus-minus> to 
50<plus-minus> miles for fossil fuel exploration for the entire NC 
coast: see here, p 4-6). Both seismic surveys are done with the same 
type of ships and equipment, with minor technical differences. 
Interestingly the academic geological surveys send stronger signals 
deeper into the ocean bed, as natural gas and oil reserves are 
shallower. This National Science Foundation (NSF) study discusses the 
environmental impact of the Lamont-Doherty seismic survey. NSF 
concluded this seismic survey caused no consequential harm to the NC 
ocean's eco-system . . . Lastly if seismic surveys are so 
environmentally problematic, where are the NGOs objections to the 
seismic surveys needed to site offshore wind turbines?

2--An oil spill is inevitable. As one writer put it, ``if you drill, 
you're going to spill.'' This perspective is a classic example of a 
well-known logical fallacy: if ``X'' happens, then ``Y'' is certain to 
follow. However, correlation is not the same as causation. Those who 
oppose offshore fossil fuels assume right from the beginning that the 
worst outcome (a BP Horizon type of accident), is inevitable. In 
reality, consequential oil spills resulting from drilling accidents are 
exceedingly rare. Offshore exploration and development can be done 
safely and is being done safely all over the globe. A spill is not 
inevitable.

    The BP Horizon accident was an unfortunate anomaly. The accident 
cost BP $65<plus-minus> billion in fines, restitution, and 
compensation, making it clear that an offshore accident today could 
mean financial ruin, even for the largest companies. None of these 
successful businesses wants to go bankrupt, so everyone involved 
(companies, equipment manufacturers, regulatory agencies, academic 
researchers, etc.) have become more risk averse than ever before. 
Extensive and unprecedented consultation among all these stakeholder 
groups over the past six years (including NGOs) unleashed an extensive 
analysis and evaluation of the causes of the BP accident, and a 
comprehensive review of all dimensions of the offshore program (from 
industry standards and best practices to design requirements and 
operational procedures for critical equipment).

    This analysis and evaluation resulted in a relatively recent major 
overhaul of U.S. offshore drilling regulations. The Obama 
Administration DOI 2016 press release accompanying the implementation 
of its new well-control regulations states:

        ``. . . the final rule addresses the full range of systems and 
        equipment related to well control operations, with a focus on 
        blowout preventer requirements, well design, well control 
        casing, cementing, real-time monitoring and subsea containment. 
        The measures are designed to improve equipment reliability, 
        especially for blowout preventers and blowout containment 
        technologies. The rule requires operability of equipment 
        through rigorous testing and provides for the continuous 
        oversight of operations, all with the goal of improving the 
        reliability of equipment and systems to protect workers' lives 
        and the environment from the potentially devastating effects of 
        blowouts and offshore oil spills.''

    The Trump Administration is working with industry experts to ensure 
that these changes further increase safety (e.g. here). Life is about 
managing risks, as there are risks in every human endeavor. For 
example, tens of thousands of U.S. citizens die every year in traffic 
accidents, yet we still drive our vehicles. Accidents are not 
inevitable and the risks can be managed. The number of oil spills from 
all sources, and the volumes of oil involved, have fallen considerably, 
decade by decade in the past 30 years, in spite of the 40 million 
barrels per day increase in world oil output and consumption that 
occurred over the same time. As a result of new rules and regulations, 
and the financial penalties facing those involved, offshore drilling is 
unquestionably safer today than ever before, especially in the U.S.

3--Offshore drilling puts the vital coastal tourism industry at risk. 
This claim ignores many realities: the extremely low likelihood of a 
consequential oil leak ever happening, that the rigs would be 
40<plus-minus> miles off the coast, that the ocean currents would not 
be bringing any oil spill to shore, and more. Further, a recent study 
by NCSU specifically asked NC coastal visitors two questions: a) are 
you in favor of wind energy [most said YES], and b) would you do the 
same vacation in a NC coastal community where wind turbines were 
visible [80% <plus-minus> said NO]. If drilling opponents are sincere 
about their concern for the NC coastal tourism business, where is their 
organized and vocal opposition to wind turbines being visible off the 
NC coast?

4--More jobs will come from offshore wind energy than from offshore 
fossil fuels. The discussion surrounding the number of jobs, the types 
of jobs, and the location of jobs likely to be created by offshore 
fossil fuel development, ranges from confusing to silly. To begin with, 
we don't choose our energy supplies by the number of jobs they create! 
Instead, our energy options are selected based on reliability, actual 
cost to ratepayers, true cost to taxpayers, proximity to demand 
centers, dispatchability, etc.

    Even if we did focus on jobs, we would be better off choosing the 
energy options that require the least amount of labor per BTU, because 
they are also likely to be the least expensive and most efficient. This 
study concluded that it takes 7<plus-minus> wind energy workers to 
produce the same amount of electricity that 1 fossil fuel worker can 
produce. That said, the political attraction of job creation is 
understandable, and we know that many politicians live and die by 
economic indicators. Kissing babies and promising jobs are two 
political tactics that never go out of style.

    Opponents of drilling have disputed fossil fuel industry employment 
claims as speculative--yet they accept the job claims of wind energy 
lobbyists at face value. Here's how the numbers likely compare: a 
projection for NC jobs resulting from offshore wind energy is 
20,000<plus-minus>. The latest projection for NC jobs from offshore 
fossil fuels is 55,000<plus-minus>.

    Until we have a better understanding of the reserves off our coast, 
we can't be certain about its job creation. It all depends on where a 
seismic survey shows oil and natural gas resources located, and the 
quantities that can be economically recovered with current 
technologies.

    Exploration and development of fossil fuels, if and when it goes 
forward, will create many high-paying jobs in the legal, accounting, 
engineering, environmental, and regulatory and compliance fields. NC's 
solid manufacturing base, which already supplies many sophisticated 
components to the fossil fuel industry, would see more activity, and 
our world-class research institutions put us in a good position to 
benefit from offshore development. (Here are some videos for sample 
career possibilities.) A good parallel is what has happened further up 
the Atlantic coast, in Canada. See this detailed economic study about 
the broad and substantial economic benefits experienced there. For more 
information see ``North Carolina Offshore Oil and Gas Roadmap,'' 
prepared by the NC Energy Policy Council, December, 2016.

5--Professional NC fishermen oppose coastal fossil fuel exploration and 
development. This is a misunderstanding. The North Carolina Fisheries 
Association (NCFA) recently brought this issue to their board again (as 
it had been discussed before). Although on most issues they almost 
always have dissenting votes, in this case the 17 member board 
unanimously supported NC offshore fossil fuel exploration and 
development. Here is their official position statement about offshore 
fossil fuels. This is a story about their position and the NC 
Governor's statement.

    What is undeniable is that fishermen have been overwhelmingly 
opposed to offshore wind turbines (e.g. see here and here). There have 
been several studies (e.g. here and here) that have documented the 
environmental impact from turbine construction (e.g. significant sounds 
resulting from pile driving enormous bases, hundreds of feet into the 
ocean floor). Additionally there have been many reports of whale 
beachings and deaths that have been attributed to the infrasound 
generated by these 700<plus-minus> foot tall industrial structures 
(e.g. see here and here).

6--There isn't enough oil and natural gas off the NC coast to justify 
the risk and the expense. Drilling opponents say the old U.S. 
Geological Survey (USGS) estimates the amounts of fossil fuel reserves 
in the mid-Atlantic are so small that they won't matter, so it's not 
worth the trouble, risk and expense to go after them. That assertion 
ignores two studies, by independent academic experts (both PhDs), that 
both came to the opposite conclusion. This article says:

        ``Mike Walden, an economist at North Carolina State University, 
        did a cost-benefit analysis of offshore energy exploration. 
        University of Wyoming economist Timothy Considine also did a 
        detailed analysis. Both looked at estimates of offshore energy 
        reserves, a range of estimates for future market prices, and 
        the potential effects of oil spills or other problems.

        ``While using different methodologies, Walden and Considine 
        came up with similar results, as Walden explains in his recent 
        book (and here). The scenario Walden described as most likely 
        suggested that offshore drilling would boost North Carolina's 
        gross domestic product by $1.9 billion a year, its permanent 
        employment by about 17,000 jobs, and annual government revenues 
        by $116 million. In Considine's mid-range scenario, his growth 
        projections were $1 billion in GDP, about 15,000 jobs, and $171 
        million in revenues. (Ed note: in their economic figures, 
        Considine assumed State revenue-sharing, while Walden did not.)

        ``What about the environmental risks? Using standard 
        assumptions and historical probabilities, the two scholars came 
        up with projections denominated as dollars of GDP. Walden put 
        the potential cost of spills at $83 million a year. Considine 
        computed a broader range of potential environmental costs, 
        including emissions, at $92 million a year.''

    The truth of the matter is we don't know exactly what reserves are 
there. There haven't been any NC offshore energy surveys for 
40<plus-minus> years, and the technical advances in seismic surveying 
for oil and natural gas resources achieved since then (e.g. high 
resolution 3D) have never been applied in this region. Let the 
companies that take the economic risks make the economic decision 
whether or not to walk away. All indications are that the economics do 
make sense. This 2018 report estimates that there will be some $260 
Billion in economic benefits to Atlantic Coast states to develop their 
fossil fuel reserves--and North Carolina is far and away the big 
winner.

    Given the long lead times required to lease, explore, develop and 
license production from new fields, it is extremely important that we 
have a better understanding of the scale of the resources off our 
coast. The earliest anything would be likely to be produced will be 
beyond 2030, and who knows what the market will be like then? If there 
aren't any commercial deposits in the Atlantic OCS, policy makers and 
the industry need to know that so they can focus their attention and 
resources on other options. A new seismic survey would put the 
uncertainty to rest.

7--Drilling would result in some of the NC coast looking like Louisiana 
or Galveston, TX. Opponents of drilling play this card several ways. On 
the one hand they claim that we may lose our beautiful beaches, clean 
water, wildlife habitats, and pristine environment to unbridled 
industrialization. On the other hand, the very same people often argue 
about the job creation benefits of industrialization. They can't have 
it both ways. As in several of the examples before, the truth is 
somewhere between these extremes. A lot depends on what resources are 
out there, how much is out there, and where it is, but there are many 
other forces at work that will also have an impact.

    For multiple reasons, Texas/Louisiana type of oil and gas 
infrastructure is highly unlikely to be constructed along the NC coast. 
Much of NC's shoreline is comprised of state, local and national parks, 
wetlands, areas of environmental concern, wildlife sanctuaries, and 
critical habitats. There is also unlikely to be any suitable tracts of 
NC coastal land for this type of industrialization. Further, the land 
that is available is simply too expensive for this type of use.

    Additionally, we now have an exceptional amount of federal, state, 
and local government regulations in place addressing all aspects of 
development. Many of the commercial projects we take for granted (like 
the Morehead City port, marinas and channels, and a multitude of ocean 
front structures), probably could not be built today. Just consider the 
recent fight over the Titan America cement plant in Wilmington, or the 
time it took to get agreement on a replacement for the Bonner Bridge 
(OBX). Our governing bodies currently have sufficient authority to 
protect our communities from the kinds of development that a majority 
of residents don't want to see.

    Above all, we should not be worried about over-industrialization 
because these companies aren't stupid. Why enter a prolonged legal 
battle through an ever-changing forest of regulations and public 
opposition to build something not needed? Our oil demand has been below 
2005 levels and it is expected to remain that way in the coming years. 
Outside of a few small specialty units, the U.S. hasn't built a large 
scale new refinery since 1977. We have more than enough refining 
capacity to meet our needs. If something changes, it's cheaper and 
easier to invest in the modernization of our existing refineries. If we 
discover natural gas, it could be processed offshore and shipped as LNG 
to markets, or it could be brought ashore by pipelines that would be 
buried out of sight. See again, the ``North Carolina Offshore Oil and 
Gas Roadmap''.

8--Revenue-sharing with the coastal States has not been approved. The 
basics are that the Submerged Lands Act of 1953 provides states with 
the rights to the natural resources (and associated revenues) of 
submerged lands within three nautical miles of their coasts. (For 
Florida's western coast, this jurisdiction extends nine miles.) Beyond 
states' jurisdiction, submerged lands are administered by the federal 
government for 200<plus-minus> nautical miles, in accordance with 
accepted international law. These lands are commonly referred to as the 
Outer Continental Shelf (OCS). BOEM is the federal agency responsible 
for this territory.

    Drilling opponents say that to make the potential issues with 
offshore drilling worth considering, affected states should get a 
``revenue-sharing'' deal with the federal government. Such sharing 
would be of income from potential lease-payments, as well as rents and 
royalties for any offshore fossil fuel leases.

    In the prior administration's plan, there was no revenue-sharing 
between the federal government and the States, as a part of the 
proposal for the Atlantic area. The issue of revenue-sharing between 
the Federal Government and States (outside of the Gulf of Mexico) 
remains to be decided. However, the political reality is that President 
Trump is amenable to revenue-sharing of offshore fossil fuel 
development with affected coastal states, so this is likely a non-
issue. See this good discussion. This presentation and this article are 
both instructive. Note: no revenue sharing has been approved for 
offshore wind energy, so where is the NGOs' objection?

9--Any oil and gas we discover will probably be exported anyway. The 
U.S. became a net exporter of some petroleum products (diesel, 
gasoline, jet fuel, etc.) a few years ago, and Congress recently 
repealed the long-standing ban on exports of crude oil. However, the 
U.S. is still a net importer of crude oil and petroleum products taken 
together. Exports and imports of crude oil and petroleum products help 
us balance the changes in consumer demand for products that take place 
seasonally and over time. They also help us match different crude oil 
stream's physical characteristics with various refinery configurations 
to maximize output of higher-value products. Crude oil produced 
50<plus-minus> miles off our coast probably would be pumped directly 
into tankers and sent to refineries here or abroad, and that is a good 
thing.

    The product created from a given economic activity doesn't have to 
be consumed where it's produced in order for it to provide benefits. 
This is like saying that all the fish caught in NC waters have to be 
eaten here in NC in order for us to benefit from fishing, or that all 
the phosphate mined in Aurora (NC) has to be used in Aurora for that 
community to benefit from that mining. This is a red herring, as it 
simply is not true. Oil, and natural gas (via Liquefied Natural Gas: 
LNG), are internationally traded commodities whose prices are 
determined in a global marketplace. An increase in supply anywhere will 
affect supplies and prices everywhere.

    The shale revolution has made it possible for the U.S. to become a 
net exporter of oil and natural gas, which provides many strategic 
benefits for us and our allies. U.S. exports of natural gas are 
lessening Europe's dependence on Russian gas imports. This recent 
typical story is about severe LNG shortages in Europe. Half of 
Britain's imported LNG now comes from Russia!

    In other words, NC offshore gas production would help our national 
security, as it would limit Russia's earnings from selling LNG (to 
Europe and even the U.S.!). That income often funds Russian agendas at 
odds with our own objectives. This report makes clear the geo-political 
power of U.S. gas resources. This perspective is supported by this 2018 
Congressional Report which documents that Russia is meddling in our 
energy markets--with the same objective as the NGOs have: to discourage 
the U.S. from developing its valuable fossil fuel resources.

10--We have better U.S. energies available to us. We may indeed have 
better energy options available to us, however, the same NGOs that 
oppose offshore fossil fuel exploration and development, also strongly 
oppose: nuclear, hydroelectric, coal, gas fracking. What's left? Wind 
and solar. Regarding electricity generation, it takes considerable 
imagination and chutzpah to call these unreliable, dilute, expensive 
options ``better'' than conventional sources (e.g. natural gas).

    To try to justify this illogical conclusion, the NGOs say that we 
need to include the external costs of fossil fuels. Of course, they 
never apply this criteria to wind and solar, as the external costs of 
those are significant. Additionally it only makes sense to consider 
externalities, if we are objectively and comprehensively looking at the 
benefits and liabilities of each of our energy options. Any such 
comparison would conclude that fossil fuels have a superior NET 
externality--which is why the NGOs never do such an analysis. So if the 
NGOs involved here are believed to have energy competence, then no, we 
do not have better U.S. energy options available.

11--We don't need fossil fuels as we can live on 100% renewable energy 
sources. This is one of the silliest of the arguments. This type of 
claim is made to take advantage of the fact that most citizens are 
technically challenged--i.e. they simply don't understand electric grid 
realities.

    For example, there is no such thing as wind energy by itself. Due 
to its unrelenting, unpredictable and uncontrolled output, wind energy 
must be permanently paired with a balancing conventional fuel source, 
which almost always is Gas (i.e. natural gas). So, what actually exists 
in the real world is a Wind+Gas package. In other words, the more wind 
we have, the more Gas we need to balance it. A similar situation exists 
for solar power.

    The Buck Rogers claim that this renewable energy balancing will 
done by batteries, is too fanciful to take seriously. The discovery, 
development, manufacture, and deployment of economical large-scale 
batteries to bring about 100% renewables is not even in the foreseeable 
future. Even ardent supporters of renewable energy (like Bill Gates) 
recognize the limitations of today's renewable technologies. Gates 
likened trying to run a modern economy on 100% renewable energy to 
``trying to put a man on the moon by stacking ladders one on top of 
another.''

    In addition to the intermittency of renewables, another real-world 
problem is their diluteness. In other words, it takes an enormous 
number of wind turbines to even roughly approximate the average output 
of a single gas well. For example (see here), to match the energy 
output of the proposed NC offshore Manteo Prospect gas facility, it 
would take 7700 offshore wind turbines--covering an area the size of 
the state of Rhode Island! The environmental, commercial fishing, 
shipping, military, etc. impacts of such an enormous wind project, 
would be extraordinary. (As just one example, these turbines would 
interfere with radar for commercial airline traffic, as well as for 
military operations: see here.)

    Another reality-check fact is that offshore wind energy is four to 
five times the cost of conventional energy. Countries with the highest 
percentage of renewables, also have the highest cost for electricity. 
For example, Denmark has a lot of wind turbines (onshore and off) and 
the cost of residential electricity there is about 36 cents/KWH. The 
U.S. average residential cost is about 12 cents/KWH. How is it good for 
our citizens or our economy--our families, farms, factories, hospitals, 
schools and all businesses--to increase our cost of electricity by 
three times?

    According to the U.S. Energy Information Administration all 
renewables together currently provide about 5% of our country's Total 
Primary Energy Requirements (TPER). Wind and solar alone, provide less 
than 3% of the U.S. TPER, and less than 1% of global TPER.

    Speculation that expensive, uncontrolled renewable energy will 
completely replace low-cost, reliable fossil fuel energy sources, is 
simply wishful thinking, and without scientific basis. The only reason 
wind and solar have become even a small part of the energy mix, is 
because of the effectiveness of an intensive lobbying campaign to 
influence political policies (e.g. to get tax dollars for products that 
are not cost effective on their own). Despite their political support, 
wind and solar will continue to be relatively minor players for the 
foreseeable future.

12-To effectively combat climate change, oil and gas need to stay in 
the ground. Opponents of drilling claim we can contribute to the Paris 
Accord's goal (limiting the earth's temperature rise to no more than 2+ 
C), by not using the fossil fuel resources off our coast. However, 
leaving these resources in the ground that wouldn't have been produced 
for another 15<plus-minus> years anyway, clearly won't have any near-
term effects on climate change. Additionally, leaving these resources 
in the ground will not affect the U.S. demand, so the oil and gas we 
consume will come from other sources.

    Once again, in making their anti-fossil fuel case, the drilling 
opponents are leaving out important information. For example, a 
detailed study was done at MIT to simulate some of the consequences of 
getting just 10% (a far cry from 100%) of our TPER from wind energy. 
The startling conclusion is: ``using a three-dimensional climate model 
suggested that a large deployment of wind turbines over land to meet 
about 10% of predicted world energy needs in 2100 could lead to a 
significant temperature increase in the lower atmosphere over the 
installed regions.'' In other words, large-scale deployment of 
industrial wind turbines could increase climate temperatures!

    Another claim frequently made, is that we need more wind energy so 
that we can get rid of coal. (This is primarily heard from the Sierra 
Club which has been paid $80 million to conduct its anti-coal campaign: 
see here and here.) The problem is that no quantity of wind turbines 
can ever replace even a single coal facility, as coal is typically a 
base-load source (i.e. one that generates a constant amount of 
electricity 24/7/365). Due to its unpredictable and uncontrolled 
output, wind energy can never provide base-load electricity. What can 
replace coal is a Wind+Gas package--but that means continued fossil 
fuel dependence.

An eye-opening pertinent study (confirmed here and here) compared the 
CO2 from the Wind+Gas package that actually exists on the grid, to the 
CO2 from just Gas by itself. Due to some technical realities (like the 
fact that there are two different types of Gas generators), Gas by 
itself resulted in lower CO2 than Wind+Gas! In other words, if the 
objective is to reduce CO2 (and help with Climate Change), we should be 
using more Gas, and less Wind!

    Another consideration rarely heard from fossil fuel opponents is 
the use of Enhanced Gas Recovery (EGR). This technique amounts to 
injecting CO2 into the ocean subsurface, to force out the gas. This 
offshore energy CO2 sequestration would help with climate change.

    In another climate change perspective, keeping Atlantic oil and gas 
in the ground could raise prices and suppress demand for these fuels. 
The higher natural gas prices would inhibit the use of this clean-
burning bridge fuel, and limit its ability to substitute for coal and 
reduce CO2 emissions. This would unquestionably be the case in Europe, 
where Russian supplied natural gas is priced at 5<plus-minus> times 
what we pay. This high cost limits Europe's ability to substitute 
clean-burning natural gas for coal, which means that more global CO2 
could be saved if we developed and exported our offshore natural gas to 
Europe.

    Despite the religious opposition of certain environmental 
organizations to fossil fuels, the fact is that the global percentage 
of fossil fuel use has NOT decreased over the past forty 
(40<plus-minus>) years. Additionally, the official projections for the 
next twenty-five (25<plus-minus>) years are that the global percentage 
of fossil fuel use will INCREASE. Based on this reality, and the other 
careful explanations provided in this document, it's clear that we 
should embrace careful and cautious exploration and development of our 
offshore fossil fuel energy resources.

************************************************************************
*******
Some Conclusions:
    a) Offshore wind energy is a much worse choice than is offshore 
natural gas.

    b) When the NGO concerns about offshore fossil fuel exploration and 
development are carefully and objectively examined, the evidence 
indicates that they are weak.

    c) When the NGO concerns about offshore fossil fuel exploration and 
development are compared to their position on each of the same items 
regarding offshore wind energy, there are significant discrepancies. 
This inconsistency erodes their credibility.

    d) On the other hand when the NGO concerns about offshore fossil 
fuel exploration and development are compared to the position of the 
Russians regarding U.S. energy policy, there is almost perfect 
alignment. This uniformity supports the contention that the NGO 
offshore fossil fuel concerns are primarily political in nature.

    e) Strategically, DOI would be well-advised to change their current 
OCS Leasing Plan from Natural Gas and Oil to just Natural Gas.

************************************************************************
*******
Some sample U.S. offshore drilling articles and reports:
    BOEM Environmental Assessment of the OCS Oil and Gas Leasing 
Program

    Offshore Resources: Digging Up The Facts

    OCS Leasing Benefits

    Sound and Marine Seismic Surveys

    Interview re Seismic Testing

    Offshore Access to Oil and Natural Gas Resources
Some sample NC offshore drilling articles and reports:
    NC DENR Presentation about Offshore Wind and Fossil Fuels (2016)

    Offshore Energy Primer (one page)

    Pine Knoll Shores Talk (Rudi Rudolph)

    Differences Between Friends and Foes of Offshore Drilling

    Drilling Opponents Pack Raleigh Meeting (also see sidebar article)

*John Droz, Jr. is an independent physicist, an internationally known 
energy expert, and founder of Alliance for Wise Energy Decisions 
(AWED). For over 40 years John has also been an ardent environmental 
advocate, and had been an active member of multiple environmental 
organizations (e.g. the Sierra Club). During this period he has never 
received funding from anyone. He and his wife reside on the NC coast. 
The views expressed here are his own.

This paper is a significant expansion of the excellent offshore energy 
report originally done by John Brodman. He was a former (retired) 
Deputy Assistant Secretary for International Energy Policy at the U.S. 
Department of Energy, and former member of the NC Energy Policy 
Council. Special thanks also to the many people who took the time to 
review this paper.

                                 ______
                                 

[LIST OF DOCUMENTS SUBMITTED FOR THE RECORD RETAINED IN THE COMMITTEE'S 
                            OFFICIAL FILES]

  --  International Fund for Animal Welfare (IFAW): Statement 
            of Ms. Beth Allgood, U.S. Country Director.

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
